<html>
<title> - THE FUTURE OF AIR TRAFFIC CONTROL: THE R&D AGENDA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       THE FUTURE OF AIR TRAFFIC
                        CONTROL: THE R&D AGENDA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 29, 2006

                               __________

                           Serial No. 109-42

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
26-645                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
BOB INGLIS, South Carolina           AL GREEN, Texas
DAVE G. REICHERT, Washington         CHARLIE MELANCON, Louisiana
MICHAEL E. SODREL, Indiana           DENNIS MOORE, Kansas
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                   KEN CALVERT, California, Chairman
RALPH M. HALL, Texas                 MARK UDALL, Colorado
LAMAR S. SMITH, Texas                DAVID WU, Oregon
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   JIM COSTA, California
TOM FEENEY, Florida                  AL GREEN, Texas
MICHAEL T. MCCAUL, Texas             CHARLIE MELANCON, Louisiana
VACANCY                                  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
                  KEN MONROE Professional Staff Member
              TIND SHEPPER RYEN Professional Staff Member
               ROSELEE ROBERTS Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant


                            C O N T E N T S

                             March 29, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Prepared Statement by Representative Ken Calvert, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    15

Statement by Representative Ralph M. Hall, Presiding Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    14
    Written Statement............................................    15

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    16
    Written Statement............................................    17

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    18

                               Witnesses:

Hon. Jeffrey N. Shane, Under Secretary of Transportation for 
  Policy, U.S. Department of Transportation
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    24

Dr. Lisa J. Porter, Associate Administrator for Aeronautics, 
  National Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    30

Mr. Robert A. Pearce, Acting Director, Joint Planning and 
  Development Office, Federal Aviation Administration
    Oral Statement...............................................    32
    Written Statement............................................    35
    Biography....................................................    36

Mr. David A. Dobbs, Assistant Inspector General for Aviation and 
  Special Program Audits, U.S. Department of Transportation
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    48

Mr. S. Michael Hudson, Chairman, Committee on Technology 
  Pathways, Division on Engineering and Physical Sciences, 
  National Research Council, The National Academies
    Oral Statement...............................................    48
    Written Statement............................................    50
    Biography....................................................    57

Dr. Gerald L. Dillingham, Director, Physical Infrastructure 
  Issues, Government Accountability Office
    Oral Statement...............................................    58
    Written Statement............................................    59
    Biography....................................................    70

Discussion
  Leadership of NGATS............................................    70
  The Outlook for Budget Integration.............................    71
  Ensuring Agency Commitments Match NGATS' Needs.................    72
  Agency Coordination of Budget Cuts.............................    72
  Cross-Agency Budget Coordination...............................    73
  Major Policy Issues Regarding NGATS............................    73
  NGATS Research Challenges......................................    74
  Air Traffic Control Automation.................................    75
  NGATS Implementation Roadmaps..................................    76
  Bad Weather and NGATS..........................................    76
  Airport Modernization and NGATS................................    77
  NGATS Budget Cuts at NASA......................................    78
  Air Traffic Controllers and NGATS..............................    80
  Human Factors Research Supporting NGATS........................    83
  NRC's Recommendations Concerning Integrated Project Teams 
    (IPTs).......................................................    84

              Appendix: Answers to Post-Hearing Questions

Hon. Jeffrey N. Shane, Under Secretary of Transportation for 
  Policy, U.S. Department of Transportation......................    88

Dr. Lisa J. Porter, Associate Administrator for Aeronautics, 
  National Aeronautics and Space Administration (NASA)...........    92

Mr. Robert A. Pearce, Acting Director, Joint Planning and 
  Development Office, Federal Aviation Administration............    96

Mr. David A. Dobbs, Assistant Inspector General for Aviation and 
  Special Program Audits, U.S. Department of Transportation......    99

Mr. S. Michael Hudson, Chairman, Committee on Technology 
  Pathways, Division on Engineering and Physical Sciences, 
  National Research Council, The National Academies..............   105

Dr. Gerald L. Dillingham, Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................   110


           THE FUTURE OF AIR TRAFFIC CONTROL: THE R&D AGENDA

                              ----------                              


                       WEDNESDAY, MARCH 29, 2006

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Ralph M. 
Hall presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       The Future of Air Traffic

                        Control: The R&D Agenda

                       wednesday, march 29, 2006
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, March 29, at 2:00 p.m., the House Science Committee's 
Subcommittee on Space and Aeronautics will hold a hearing to examine 
how research and development (R&D) are progressing on the creation of a 
new air traffic control system that would be able to handle three times 
as much air traffic as the current system can.
    To oversee that R&D, Congress in 2003, created the Joint Planning 
and Development Office (JPDO) within the Federal Aviation 
Administration (FAA). JPDO was created to guide the activities of seven 
federal agencies, particularly the FAA and the National Aeronautics and 
Space Administration (NASA), as they design and implement a Next 
Generation Air Transportation System (NGATS, pronounced ``en-gatz'').
    While the JPDO has succeeded in bringing the seven participating 
agencies together to discuss air traffic needs, the Office has not yet 
issued clear R&D objectives. Outside entities, including the General 
Accountability Office (GAO), the Department of Transportation's 
Inspector General, and the National Academy of Sciences have raised 
concerns about whether the JPDO as organized and funded can, over the 
long-term, clearly establish and enforce R&D priorities backed by 
sufficient budgets; integrate environmental, capacity and security 
concerns into the research plan; and institutionalize collaboration 
among agencies. (The outside reports are described in greater detail at 
the end of this charter.)

Witnesses

The Honorable Jeffrey N. Shane is the Under Secretary of the U.S. 
Department of Transportation (DOT). His duties include overseeing the 
JPDO.

Dr. Lisa Porter is the Associate Administrator for Aeronautics Research 
Mission Directorate at the NASA.

Mr. Bob Pearce is the Acting Director of JPDO.

Mr. David Dobbs is the Assistant Inspector General for Aviation and 
Special Projects, U.S. Department of Transportation.

Mr. Mike Hudson was Chair of the National Academy of Sciences' 
Committee on Technology Pathways: Assessing the Integrated Plan for a 
Next Generation Air Transportation System, which issued a report in 
2005. He recently retired as Vice Chairman of Rolls Royce North 
America, a manufacturer of aircraft turbine propulsion systems.

Dr. Gerald Dillingham is Director of Civil Aviation Issues at the 
General Accountability Office. At the request of the Science Committee 
and the Transportation and Infrastructure Committee, GAO is working on 
a study of JPDO's structure, challenges, and international 
collaboration.

Overarching Questions

        1.  Is the JPDO effectively organized and adequately funded to 
        plan and implement the Next Generation Air Transportation 
        System?

        2.  What are the biggest near-term and mid-term technical and 
        programmatic challenges facing the JPDO as it attempts to 
        design and develop the NGATS? What steps can be taken to 
        address these challenges?

        3.  What role should private industry (large systems 
        integrators--for example, Boeing and Lockheed Martin--and civil 
        air carriers) play in the design and construction of the NGATS?

Overview

    Today's aviation system cannot meet the needs of the 21st century. 
That was the conclusion of numerous studies and blue ribbon panels, 
including most recently, the National Academy of Sciences and the 
Commission on the Future of the United States Aerospace Industry. In 
response to this need, the NGATS will be designed to triple the 
capacity of the current air traffic control system, maintain aviation's 
record as the safest mode of transportation, improve the level of 
security, and minimize the impact of weather disruptions.
    To oversee the development of the NGATs, Congress in 2003 created 
the JPDO as part of the ``Vision 100--Century of Aviation 
Reauthorization Act'' (P.L. 108-176). The Act directed that JPDO be 
established within the FAA, and that it be led by an FAA-appointed 
Director\1\ and a NASA-appointed Deputy Director. (The full text of the 
sections establishing the JPDO appear in the appendix.)
---------------------------------------------------------------------------
    \1\ Since its creation a little over two years ago, the JPDO has 
had two Directors. As of late January 2006, they are searching for a 
third. Mr. Bob Pearce, the NASA-appointed Deputy Director, is Acting 
Director.
---------------------------------------------------------------------------
    The seven federal agencies participating in the JPDO are: the 
Department of Transportation; the Department of Commerce--National 
Oceanic and Atmospheric Administration; NASA; the Department of 
Homeland Security; the Department of Defense; the Federal Aviation 
Administration; and the White House Office of Science and Technology 
Policy.
    The JPDO is overseen by a Senior Policy Committee chaired by the 
Secretary of Transportation that includes senior representatives from 
each of the participating departments and agencies.

Issues

        <bullet>  Is the JPDO giving adequate direction to its 
        participating agencies? Are the participating agencies willing 
        to follow the directives of the JPDO? Will the agencies have 
        sufficient funding to devote to the NGATS? Some of the 
        participating agencies have expressed concern that the JPDO has 
        not yet provided any specific R&D agenda. While the JPDO has 
        published a ``research roadmap'' as required by law, that 
        document is quite general. The JPDO plans this summer to issue 
        an ``enterprise architecture'' that would provide greater 
        detail on how the NGATS would perform, which would help 
        agencies set their R&D agendas. At this point, therefore, it 
        may be too early to tell how cooperative the agencies will turn 
        out to be and whether the NGATS will proceed as a truly 
        coordinated, coherent interagency activity. In the Science 
        Committee version of the legislation creating the JPDO, the 
        JPDO had its own research budget from which it could ``pay'' 
        agencies to carry out specific tasks. In the final version of 
        the Act, however, the JPDO can only request that other agencies 
        devote their own budgets to the JPDO's suggested assignments; 
        the JPDO's own budget just covers its coordination role.

        <bullet>  How much is the U.S. going to spend on research and 
        development? How much will NGATS cost? No cost estimate has yet 
        been developed and probably won't be until the architecture is 
        established and refined, though it can be reasonably assumed 
        that designing, researching and implementing NGATS will run 
        into the billions of dollars. NASA has already budgeted $530 
        million over the next five years for research conducted by its 
        Airspace Systems program in support of NGATS. Other agency 
        research budgets are not known.

        <bullet>  What decisions does the Senior Policy Committee have 
        to make, and when do they have to make them, before work on the 
        NGATS can begin in earnest? The design of the NGATS raises 
        policy questions as well as technical ones. Some of these 
        policy questions need to be addressed by the Senior Policy 
        Committee before a full research agenda can be developed. For 
        example, the Policy Committee needs to decide if airplanes will 
        be allowed to continue to fly under ``visual flight rules'' 
        (VFR) once the NGATS is in place. VFR, which means that a pilot 
        does not file a flight plan and just navigates using his sight 
        rather than being guided by air traffic control, is used by 
        small, private planes hopping from one small community airport 
        to another. If VFR is allowed to continue, then the NGATS 
        hardware and software will have to be much more complex because 
        it will have to take into account smaller planes that will lack 
        the same kinds of equipment that airlines will be using.

        <bullet>  Who bears the ultimate responsibility for the 
        development of the NGATS? The JPDO will develop the plans for 
        the NGATS, but it cannot require any agency to carry out its 
        plans. The FAA will operate the NGATS, but it needs other 
        agencies, particularly NASA, to perform the R&D to develop it. 
        The JPDO has a director, but it is overseen by the multi-agency 
        Senior Policy Council. This complex structure is designed to 
        ensure that all concerned agencies are ``at the table'' as the 
        NGATS is developed, but who is ultimately in charge?

        <bullet>  Will the development of the NGATS proceed as a true 
        interagency effort, or will it just reflect the individual 
        efforts of the participating agencies? A key to answering that 
        question may be to examine the budget process for the JPDO. Are 
        the participating agencies going to develop a single, coherent 
        unified budget for activities needed by the JPDO and then have 
        that budget reviewed as a single proposal by the Office of 
        Management and Budget? Or will activities guided by the JPDO 
        just be budgeted and reviewed as an element of the activities 
        of the participating agencies?

        <bullet>  What role should private industry play? The FAA 
        typically develops detailed specifications for an air traffic 
        control system and then invites companies to bid to build the 
        system to FAA specs. Another option, pushed by some companies, 
        would be for the FAA to lay out the performance requirements 
        for a system (for example, the amount of air traffic it should 
        be able to handle) and then allow private companies to figure 
        out the specifics of the design. Is one method more cost-
        effective than the other in meeting public needs?

        <bullet>  What is being done to ensure the design of NGATS is 
        compatible with our international partners? Large U.S. and 
        international air carriers want to ensure that NGATS is 
        compatible with other air navigation systems fielded around the 
        world--especially in Europe--to avoid the huge expense of 
        equipping their fleets with two sets of communications, 
        navigation, and surveillance systems. The European Commission 
        is working on its own version of a future air traffic control 
        system that should come on line about the same time as the 
        NGATS. Ideally, the European Commission and the JPDO will work 
        to ``harmonize'' concepts of operations and equipment 
        requirements jointly, or through the international aviation 
        operating standards organization known as the International 
        Civil Aviation Organization.

        <bullet>  To what extent should human factors research be a 
        part of NGATS? An important part of designing and implementing 
        any air traffic control system is to understand how the 
        individuals who will be using it will deal with the technology. 
        Therefore, human factors research, which examines the 
        interaction between people and technology, can be an important 
        aspect of system design. It is not clear whether human factors 
        research (as opposed to technology R&D) is getting adequate 
        attention in developing an R&D agenda for the NGATS. NASA has 
        talked about reducing funding for human factors research.

Background

The Current Air Traffic Control System
    Today's air traffic control (ATC) system is modeled on the concept 
first put into service 50 years ago: air traffic controllers, sitting 
in front of radar screens, guide aircraft\2\ through the airspace. The 
process is labor intensive. From the moment an aircraft begins taxing 
to the runway, through takeoff, cruise, descent, landing, and taxiing 
to the destination terminal, pilots must receive explicit voice 
approval from air traffic controllers. While the introduction of 
computers, more powerful radars, and other modern technologies have 
helped controllers do their jobs with greater reliability and safety, 
they still must give pilots voice instructions to keep aircraft moving 
through the system. (Even large modern passenger aircraft do not carry 
radars capable of finding other, nearby planes, though, if properly 
equipped, some do use other technical means to permit them to ``see'' 
each other).
---------------------------------------------------------------------------
    \2\ All scheduled passenger and cargo flights, plus high-
performance aircraft flying at higher altitudes, are required to use 
ATC services. Small general aviation aircraft can fly to and from 
uncrowded airports under ``visual flight rules'' that do not require 
talking to, or relying on, controllers.
---------------------------------------------------------------------------
    This year's FAA Aerospace Forecasts (for FY 2006 through FY 2017) 
estimates that in 2005, U.S. scheduled air carriers (mainline and 
regionals) boarded 738.6 million passengers on domestic and 
international flights. By 2017, the number of passengers is forecast to 
be 1.07 billion, an increase of 45 percent. The number of aircraft 
handled by the FAA's Air Route Traffic Control Centers are forecast to 
total 47.2 million during 2006 and will grow to 67.7 million by 2017, a 
43 percent increase.
    Experts argue that today's system--with its reliance on ground 
radars, voice communications, and air traffic controllers directing 
each phase of flight--will not be able to accommodate enough new 
capacity to meet future demand. Absent a fundamental change in the 
operation of our ATC system, congestion will become more pervasive and, 
as a consequence, economic growth will become constrained.
The Next Generation Air Transportation System Concept
    While no firm description of a future air traffic management system 
has been agreed to, it is widely accepted that NGATS will: 1) be less 
dependent on ground-based radars, instead relying on equipping future 
aircraft with electronic systems that will self-report their location 
(using Global Positioning technologies) to nearby aircraft and to the 
ground; 2) rely on systems on-board the aircraft to establish 
separation distances, with each plane's electronic systems ``talking'' 
to nearby aircraft, and through the use of sophisticated software, 
allowing aircraft to automatically determine priority of passage and 
separation maneuvers; 3) change the function of air traffic controllers 
from today's hands-on, positive-control role to a more passive one, 
intervening when necessary to de-conflict traffic; 4) allow more 
aircraft to operate in any given segment of airspace; and 5) be much 
more capable of forecasting weather events hours in advance, and 
mitigating weather impacts by increasing the flow of aircraft around 
them.

The Joint Planning and Development Office
    The JPDO has a relatively small staff and limited resources. FAA 
and NASA share the cost of providing operational funding for JPDO. For 
FY06, FAA is providing $20 million and NASA is providing $18 million; a 
level that will remain fairly flat through FY11. These figures include 
funding for civil service and contractor employees, general and 
administrative expenses, support for the Integrated Product Teams 
(described below), and engineering studies. JPDO has a staff of 
approximately 100 civil servant and contractor employees (full-time 
equivalents).
    With the exception of NASA, the proposed R&D budgets for FY07 
devoted to JPDO-directed activities by participating departments and 
agencies have not yet been fully formulated. The budget request for 
NASA's Aeronautics Research Mission Directorate's (ARMD) air traffic 
control R&D is $120 million for FY07, gradually diminishing to $89.4 
million in FY11, totaling $530 million over five years. NASA asserts, 
however, that many other activities in its overall aeronautics research 
portfolio (e.g., quieter engines; more efficient wing designs; robust 
flight management systems) also contribute toward the NGATS. Most of 
this work is performed at NASA's Ames Research Center, CA, and the 
Langley Research Center, VA.
    On December 4, 2004, the JPDO delivered the ``Next Generation Air 
Transportation System Integrated Plan'' to Congress. (A complete copy 
of the plan, about 36 pages in length, can be found at www.jpdo.aero/
site<INF>-</INF>content/NGATS<INF>-</INF>v1<INF>-</INF>1204.pdf.) It 
establishes high-level objectives, operational concepts, and a list of 
eight specific implementation strategies as key attributes of the 
future system. To address each strategy, an ``Integrated Product Team'' 
was formed, comprising of representatives from relevant departments and 
agencies, with a designated agency lead. The eight teams (with the lead 
agency appearing in parentheses) are:

        1.  Develop airport infrastructure to meet future demand. (FAA)

        2.  Establish an effective security system without limiting 
        mobility or civil liberties. (DHS)

        3.  Establish an agile air traffic system. (NASA)

        4.  Establish user-specific situational awareness. (DOD)

        5.  Establish a comprehensive proactive safety management 
        approach. (FAA)

        6.  Develop environmental protection that allows sustained 
        aviation growth. (FAA)

        7.  Develop a system-wide capability to reduce weather impacts. 
        (DOC/NOAA)

        8.  Harmonize equipage and operations globally. (FAA)

    Vision 100 also directed the JPDO to provide Congress annual 
progress reports, to be submitted at the same time as the President's 
budget request. The first report was submitted in early March of this 
year. A copy can be found at www.jpdo.aero/site<INF>-</INF>content/pdf/
ngats-np<INF>-</INF>progress-report-2005.pdf.
    The JPDO also created an affiliated organization, the NGATS 
Institute, whose members represent other (non-federal) public and 
private entities having a vested interest in our nation's air 
transportation system. They include the Air Transport Association; Air 
Line Pilots Association; Aerospace Industries Association; Airports 
Council International; National Business Aircraft Association; Air 
Traffic Control Association; plus eight others. Institute Members sit 
on the Integrated Product Teams, as well as provide high-level policy 
advice to the JPDO Director.

Outside Reports

            Government Accountability Office (GAO)
    The GAO is in the process of reviewing the work of the JPDO at the 
request of the Science Committee and the Transportation and 
Infrastructure Committee. So far, GAO is concerned that the JPDO may 
not be able to maintain the necessary interagency collaboration when it 
needs to begin asking participating agencies for significant spending 
increases. GAO points out that there is no formalized long-term 
agreement among the participating agencies that clearly defines their 
roles and responsibilities. GAO also has found that the JPDO still must 
convince the private sector that the government is financially 
committed to the NGATS, given FAA's record of starting and stopping 
programs.

            Department of Transportation Office of Inspector General 
                    (IG)
    The Inspector General is also reviewing the work of the JPDO and 
expects to put out a report this summer. Among the recommendations that 
the IG has for the JPDO are that the JPDO needs a strong leader (the 
position is vacant, with an acting director currently leading the 
organization); the JPDO needs to develop and implement mechanisms to 
ensure that the participating agencies will carry out assigned tasks 
and budget adequate funds for them; the JPDO needs to develop a 
strategy for technology transfer to the private sector, an area in 
which the FAA has a mixed record of success; the JPDO R&D agenda needs 
to include human factors research.

            National Academy of Sciences (NAS)
    The NAS report that was released last year urges the JPDO to focus 
first and foremost on resolving increasing the capacity of the air 
traffic control system, while also satisfying requirements for safety, 
security, environmental effects, consumer satisfaction, and industrial 
competition. Second, they urge the JPDO to form three Integrated 
Product Teams (instead of eight) focused on (1) airport operations; (2) 
terminal area operations; and (3) en route and oceanic operations, and 
to provide them, and the JPDO, with strong leadership and more full-
time staff. Third, they recommend that a viable source of funding and a 
governance model for the NGATS be identified. Finally, the committee 
urges JPDO to undertake a more vigorous effort to collaborate with 
foreign governments and institutions to jointly fund collaborative 
research and to define common operational concepts.

Questions for the Witnesses

    The witnesses were asked to address the following questions in 
their testimony:
Questions for Under Secretary Jeffrey N. Shane:

        <bullet>  Who is ultimately responsible for the designing and 
        development of the Next Generation Air Transportation System 
        (NGATS)? Given the roles of the Joint Planning and Development 
        Office (JPDO), the Federal Aviation Administration, and the 
        National Aeronautics and Space Administration, among others, 
        what is being done to ensure that work on the NGATS moves ahead 
        in a coordinated, coherent manner?

        <bullet>  To what extent can the JPDO move ahead with its 
        responsibilities before the Senior Policy Council makes 
        fundamental policy decisions--for example, how the new system 
        will be financed, the role of pilots versus the ground in 
        controlling aircraft, the jurisdictional line between State and 
        federal responsibilities, and requirements for equipage? What, 
        in your view, are the five most important unresolved policy 
        issues that must be addressed by the Council? By what date 
        would they have to be addressed to avoid implementation delays, 
        and by what process will they be decided?

        <bullet>  How is the FAA's budget for JPDO-related research 
        developed? Do the JPDO and its participating agencies sit down 
        together and come up with a single unified budget that is then 
        reviewed by OMB? Or do the agencies develop their own budgets, 
        which are then reviewed by OMB separately?

        <bullet>  Should the JPDO be moved out of the Federal Aviation 
        Administration's Air Traffic Organization to be given greater 
        visibility and authority?

        <bullet>  What role will private industry play in the research, 
        development, and implementation of the NGATS? Should the 
        government, at some point, turn over development of the NGATS 
        to a large systems integrator, and if yes, at what stage might 
        that occur?

Questions for Mr. Bob Pearce, Acting Director, JPDO

        <bullet>  Who is ultimately responsible for the designing and 
        development of the Next Generation Air Transportation System 
        (NGATS)? Given the roles of the Joint Planning and Development 
        Office (JPDO), the Federal Aviation Administration, and the 
        National Aeronautics and Space Administration, among others, 
        what is being done to ensure that work on the NGATS moves ahead 
        in a coordinated, coherent manner?

        <bullet>  When will the JPDO begin providing requirements and 
        milestones to agencies for NGATS-related research and 
        development programs? When will JPDO be able to provide a cost 
        estimate to design, research, and build the NGATS?

        <bullet>  What is the process for JPDO to coordinate activities 
        between each of the participating agencies and set research 
        priorities? Are there sufficient resources to carry out all 
        proposed projects?

        <bullet>  What steps is the JPDO taking to consult with those 
        who will build, operate, and fly in the NGATS? To what degree 
        will the industry's views be considered during formulation of 
        the final design, operating, and equipage requirements?

        <bullet>  What do you see as the biggest near-term and mid-term 
        technical and programmatic challenges facing the JPDO as it 
        attempts to implement the NGATS? What steps can be taken to 
        address those challenges?

Questions for Dr. Lisa Porter, NASA Associate Administrator for 
        Aeronautics

        <bullet>  Who is ultimately responsible for the designing and 
        development of the Next Generation Air Transportation System 
        (NGATS)? Given the roles of the Joint Planning and Development 
        Office (JPDO), the Federal Aviation Administration, and the 
        National Aeronautics and Space Administration, among others, 
        what is being done to ensure that work on the NGATS moves ahead 
        in a coordinated, coherent manner?

        <bullet>  What guidance has NASA received from the Joint 
        Planning and Development Office with respect to the types of 
        research to be conducted by the Aeronautics Research Mission 
        Directorate? Has NASA been able to develop a multi-year 
        research and development plan to support NGATS-related 
        research? Will NASA have sufficient resources to fully execute 
        the research in a timely fashion?

        <bullet>  How is NASA's budget for JPDO-related research 
        developed? Do the JPDO and its participating agencies sit down 
        together and come up with a single unified budget that is then 
        reviewed by OMB? Or do the agencies develop their own budgets, 
        which are then reviewed by OMB separately?

        <bullet>  What do you see as the biggest near-term and mid-term 
        technical and programmatic challenges facing the JPDO as it 
        attempts to implement the Next Generation Air Transportation 
        System? What steps need be taken to address those challenges?

Questions for Dr. Gerald Dillingham, General Accountability Office

        <bullet>  Who should be ultimately responsible for the 
        designing and development of the Next Generation Air 
        Transportation System? Given the roles of the Joint Planning 
        and Development Office, the Federal Aviation Administration, 
        and the National Aeronautics and Space Administration, among 
        others, is enough being done to ensure that work on the NGATS 
        moves ahead in a coordinated, coherent manner?

        <bullet>  What do you see as the biggest programmatic 
        challenges facing the Joint Planning and Development Office as 
        it attempts to implement the Next Generation Air Transportation 
        System? What steps can be taken to address those challenges?

        <bullet>  To what extent does the JPDO seem to be interacting 
        with private industry, and in your view, is the interaction 
        productive?

Questions for Mr. Mike Hudson, National Research Council

        <bullet>  Who is ultimately responsible for the designing and 
        development of the Next Generation Air Transportation System? 
        Given the roles of the Joint Planning and Development Office, 
        the Federal Aviation Administration, and the National 
        Aeronautics and Space Administration, among others, what is 
        being done to ensure that work on the NGATS moves ahead in a 
        coordinated, coherent manner?

        <bullet>  What do you see as the biggest near-term and mid-term 
        technical and programmatic challenges facing the JPDO as it 
        attempts to implement the NGATS? What steps can be taken to 
        address those challenges?

        <bullet>  How clearly does the NGATS Integrated Plan establish 
        priorities? Are they, in your view, the right priorities?

Questions for the Honorable Todd Zinser, Acting DOT Inspector General

        <bullet>  Who should be ultimately responsible for the 
        designing and development of the Next Generation Air 
        Transportation System? Given the roles of the Joint Planning 
        and Development Office, the Federal Aviation Administration, 
        and the National Aeronautics and Space Administration, among 
        others, is enough being done to ensure that work on the NGATS 
        moves ahead in a coordinated, coherent manner?

        <bullet>  What do you see as the biggest near-term and mid-term 
        technical and programmatic challenges facing the JPDO as it 
        attempts to implement the NGATS? What steps can be taken to 
        address these challenges?

        <bullet>  To what extent does the JPDO seem to be interacting 
        with private industry, and in your view, is the interaction 
        productive?
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Appendix B

Excerpts from Title VII of H.R. 2115 (Public Law 108-176)

SEC. 709. AIR TRANSPORTATION SYSTEM JOINT PLANNING AND DEVELOPMENT 
                    OFFICE.

(a) ESTABLISHMENT--(1) The Secretary of Transportation shall establish 
in the Federal Aviation Administration a joint planning and development 
office to manage work related to the Next Generation Air Transportation 
System. The office shall be known as the Next Generation Air 
Transportation System Joint Planning and Development Office (in this 
section referred to as the `Office').

(2) The responsibilities of the Office shall include--

         (A) creating and carrying out an integrated plan for a Next 
        Generation Air Transportation System pursuant to subsection 
        (b);

         (B) overseeing research and development on that system;

         (C) creating a transition plan for the implementation of that 
        system;

         (D) coordinating aviation and aeronautics research programs to 
        achieve the goal of more effective and directed programs that 
        will result in applicable research;

         (E) coordinating goals and priorities and coordinating 
        research activities within the Federal Government with United 
        States aviation and aeronautical firms;

         (F) coordinating the development and utilization of new 
        technologies to ensure that when available, they may be used to 
        their fullest potential in aircraft and in the air traffic 
        control system;

         (G) facilitating the transfer of technology from research 
        programs such as the National Aeronautics and Space 
        Administration program and the Department of Defense Advanced 
        Research Projects Agency program to federal agencies with 
        operational responsibilities and to the private sector; and

         (H) reviewing activities relating to noise, emissions, fuel 
        consumption, and safety conducted by federal agencies, 
        including the Federal Aviation Administration, the National 
        Aeronautics and Space Administration, the Department of 
        Commerce, and the Department of Defense.

(3) The Office shall operate in conjunction with relevant programs in 
the Department of Defense, the National Aeronautics and Space 
Administration, the Department of Commerce and the Department of 
Homeland Security. The Secretary of Transportation may request 
assistance from staff from those Departments and other federal 
agencies.

(4) In developing and carrying out its plans, the Office shall consult 
with the public and ensure the participation of experts from the 
private sector including representatives of commercial aviation, 
general aviation, aviation labor groups, aviation research and 
development entities, aircraft and air traffic control suppliers, and 
the space industry.

(b) INTEGRATED PLAN--The integrated plan shall be designed to ensure 
that the Next Generation Air Transportation System meets air 
transportation safety, security, mobility, efficiency, and capacity 
needs beyond those currently included in the Federal Aviation 
Administration's operational evolution plan and accomplishes the goals 
under subsection (c). The integrated plan shall include--

         (1) a national vision statement for an air transportation 
        system capable of meeting potential air traffic demand by 2025;

         (2) a description of the demand and the performance 
        characteristics that will be required of the Nation's future 
        air transportation system, and an explanation of how those 
        characteristics were derived, including the national goals, 
        objectives, and policies the system is designed to further, and 
        the underlying socioeconomic determinants, and associated 
        models and analyses;

         (3) a multi-agency research and development roadmap for 
        creating the Next Generation Air Transportation System with the 
        characteristics outlined under clause (ii), including--

                 (A) the most significant technical obstacles and the 
                research and development activities necessary to 
                overcome them, including for each project, the role of 
                each federal agency, corporations, and universities;

                 (B) the annual anticipated cost of carrying out the 
                research and development activities; and

                 (C) the technical milestones that will be used to 
                evaluate the activities; and

         (4) a description of the operational concepts to meet the 
        system performance requirements for all system users and a 
        timeline and anticipated expenditures needed to develop and 
        deploy the system to meet the vision for 2025.

(c) GOALS--The Next Generation Air Transportation System shall--

         (1) improve the level of safety, security, efficiency, 
        quality, and affordability of the National Airspace System and 
        aviation services;

         (2) take advantage of data from emerging ground-based and 
        space-based communications, navigation, and surveillance 
        technologies;

         (3) integrate data streams from multiple agencies and sources 
        to enable situational awareness and seamless global operations 
        for all appropriate users of the system, including users 
        responsible for civil aviation, homeland security, and national 
        security;

         (4) leverage investments in civil aviation, homeland security, 
        and national security and build upon current air traffic 
        management and infrastructure initiatives to meet system 
        performance requirements for all system users;

         (5) be scalable to accommodate and encourage substantial 
        growth in domestic and international transportation and 
        anticipate and accommodate continuing technology upgrades and 
        advances;

         (6) accommodate a wide range of aircraft operations, including 
        airlines, air taxis, helicopters, general aviation, and 
        unmanned aerial vehicles; and

         (7) take into consideration, to the greatest extent 
        practicable, design of airport approach and departure flight 
        paths to reduce exposure of noise and emissions pollution on 
        affected residents.

(d) REPORTS--The Administrator of the Federal Aviation Administration 
shall transmit to the Committee on Commerce, Science, and 
Transportation in the Senate and the Committee on Transportation and 
Infrastructure and the Committee on Science in the House of 
Representatives--

         (1) not later than one year after the date of enactment of 
        this Act, the integrated plan required in subsection (b); and

         (2) annually at the time of the President's budget request, a 
        report describing the progress in carrying out the plan 
        required under subsection (b) and any changes to that plan.

(e) AUTHORIZATION OF APPROPRIATIONS--There are authorized to be 
appropriated to the Office $50,000,000 for each of the fiscal years 
2004 through 2010.

SEC. 710. NEXT GENERATION AIR TRANSPORTATION SENIOR POLICY COMMITTEE.

(a) IN GENERAL--The Secretary of Transportation shall establish a 
senior policy committee to work with the Next Generation Air 
Transportation System Joint Planning and Development Office. The senior 
policy committee shall be chaired by the Secretary.

(b) MEMBERSHIP--In addition to the Secretary, the senior policy 
committee shall be composed of--

         (1) the Administrator of the Federal Aviation Administration 
        (or the Administrator's designee);

         (2) the Administrator of the National Aeronautics and Space 
        Administration (or the Administrator's designee);

         (3) the Secretary of Defense (or the Secretary's designee);

         (4) the Secretary of Homeland Security (or the Secretary's 
        designee);

         (5) the Secretary of Commerce (or the Secretary's designee);

         (6) the Director of the Office of Science and Technology 
        Policy (or the Director's designee); and

         (7) designees from other federal agencies determined by the 
        Secretary of Transportation to have an important interest in, 
        or responsibility for, other aspects of the system.

(c) FUNCTION--The senior policy committee shall--

         (1) advise the Secretary of Transportation regarding the 
        national goals and strategic objectives for the transformation 
        of the Nation's air transportation system to meet its future 
        needs;

         (2) provide policy guidance for the integrated plan for the 
        air transportation system to be developed by the Next 
        Generation Air Transportation System Joint Planning and 
        Development Office;

         (3) provide ongoing policy review for the transformation of 
        the air transportation system;

         (4) identify resource needs and make recommendations to their 
        respective agencies for necessary funding for planning, 
        research, and development activities; and

         (5) make legislative recommendations, as appropriate, for the 
        future air transportation system.

(d) CONSULTATION--In carrying out its functions under this section, the 
senior policy committee shall consult with, and ensure participation 
by, the private sector (including representatives of general aviation, 
commercial aviation, aviation labor, and the space industry), members 
of the public, and other interested parties and may do so through a 
special advisory committee composed of such representatives.
    Mr. Hall. [Presiding] Okay, we will call this meeting of 
the Space and Aeronautics Subcommittee to order, and without 
objection, the Chair will be granted authority to recess the 
Committee at any time. Hearing no objection, it is so ordered. 
I ask unanimous consent that the gentleman from Michigan, Mr. 
Ehlers, a Member of the Full Committee, but not a Member of 
this subcommittee, be allowed to participate in today's 
hearing. Is there objection? The Chair hears none; it is so 
ordered. Today our Chairman and our good friend, Ken Calvert, 
has contracted a bug and has asked me to fill in for him here. 
He is not seriously ill, but he doesn't feel well and I think 
that--and I hope he does well in the golf game, if that is 
where he really is. I think he is really sick.
    And specifically, we are going to discuss the future of our 
air transportation system and specifically the research needed 
to realize this new system, and it is a subject that is really 
of great interest to me and of great importance to the American 
people.
    In 2003, the Congress created the Joint Planning and 
Development Office as part of the Vision 100--Century of 
Aviation Reauthorization Act. This committee played a leading 
role in creating the JPDO and charged it with coordinating the 
design, research and implementation of a new air traffic 
control system that will, in the next 20 years, triple our 
nation's current capacity to safely move aircraft through the 
skies. This important joint effort includes participation from 
the Department of Transportation, the Department of Commerce, 
Defense, and Homeland Security and NASA.
    Designing a new air transportation management system is an 
enormously complex and expensive task; thus it is vitally 
important that the JPDO effectively manage this program to 
ensure to learn continuing support and resources from its 
member agencies. And today we hope to hear how the JPDO and its 
early work on the design and development of the Next Generation 
Air Transportation System, called NGATS, has progressed. I 
think we would like to hear whether this is an effective 
organization or if we need to consider changes, and if so, what 
those changes might be.
    We have a lot to learn from our witnesses and we will, I am 
sure, have many questions to help us understand its current 
state and its future challenges. I look forward to hearing from 
each and every one of you and I appreciate each and every one 
of you, and I thank you and thank you for the time back in the 
years past that you have worked hard to prepare yourselves to 
be requested to come and give this service to us, and it does 
take your time and it takes some of your time to get here, it 
takes time while you are here and it takes time to go back, but 
you leave with knowing the interest this Congress has is not to 
be evidenced by the number of Members that sit in and listen to 
it, because we have a record and have--the record is being 
taken down. It will go into the record and every Member of 
Congress will get a copy of it and all the Members of this, the 
Committee and Subcommittee, will read it and study it and use 
it for whatever laws we see. For you folks, we go to you who 
are more intelligent and more advised on the subject than we 
are and ask you to give us some help and we appreciate you.
    So with that I am anxious to recognize the Ranking 
Democrat, a long-time friend of mine, a member of a very famous 
American family, Mr. Udall, for his statement.
    [The prepared statement of Chairman Calvert follows:]

               Prepared Statement of Chairman Ken Calvert

    I want to welcome our illustrious panel today on this subject that 
is of great interest to me and of great importance to the American 
people. As we travel around the country and through the airports, all 
of us cannot help but notice the increasing congestion getting to the 
airports and through the airports. We expect the growth in demand for 
just domestic aviation services over the next two decades to double or 
triple. We need to start addressing this surge in expected demand in 
the next two to four years. I want to hear if we have the most 
effective structure in place to assure the United States' leadership 
role in the international marketplace for designing and manufacturing 
air traffic systems.
    In 2003, the Congress created the Joint Planning and Development 
Office (JPDO) as part of the Vision 100--Century of Aviation 
Reauthorization Act (Public Law 108-176). This committee played an 
active role in setting up the JPDO in this legislation in defining the 
role of NASA, the FAA, OSTP and other agencies. Today, we hope to hear 
how this organization--and more importantly, the design, research and 
development of a Next Generation Air Transportation System (NGATS) 
(pronounced ``en-gatz'') is progressing. Is there a place in the 
Federal Government that this program could be managed even more 
efficiently and effectively? This committee has had an interest in this 
subject and as taken action over the years to support and to improve 
our air traffic management system. This system is critical to our 
success and to our competitiveness in the future.
    Last week, at his request, I hosted in my district Congressman John 
Mica (R-FL), Chairman of the House Aviation Subcommittee, at a hearing 
on aviation congestion in the Southern California area. The hearing was 
very revealing and illustrated the importance of all of us working 
together to come up with the best system that we can develop in a 
timely manner.
    I understand that the FAA and NASA share the cost of providing 
operational funding for JPDO. In this current year, the FAA will 
provide about $20M and NASA will provide about $18M. I would like to 
know if this is the most effective way to spend these funds to lead us 
to this next generation of airspace management.
    I have expressed publicly my concern that we may not be moving out 
quickly enough to maintain our global leadership in this arena. We have 
heard that the Europeans have kicked off a major effort with industry 
to develop a plan for their Air Traffic Management transformation 
initiative, called Single European Skies, that could, if well-funded, 
eclipse our efforts.
    With the organization that is currently in place, I would like to 
hear whether this is an effective organization or if we need to change 
it to make us more competitive and successful. For instance, if I want 
to call the person in charge of this effort in the Federal Government, 
whom do I call?
    A couple of weeks ago on March 15, all the partners for JPDO hosted 
a day of educating folks on the Hill in our hearing room down the hall. 
I attended the kick-off in the morning along with Chairman Boehlert, 
Secretary Mineta, Administrator Blakey, and NASA Associate 
Administrator Lisa Porter who is on our panel today. I am glad that 
this program is beginning to get more visibility. We have a lot of 
questions today on the future of this program that is so important to 
our effectiveness as a partner and our success as a global leader. I 
look forward to hearing from our panel today.
    Mr. Udall, we would be glad to hear your statement now.

    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Today, our Chairman and my friend, Ken Calvert has contracted a 
``bug'' and has asked me to fill in for him at this important hearing. 
I want to welcome our illustrious panel that has convened today to 
discuss the future of our air transportation system, and specifically 
the research needed to realize this new system. This is a subject that 
is of great interest to me and of great importance to the American 
people.
    In 2003, the Congress created the Joint Planning and Development 
Office (JPDO) as part of the Vision 100--Century of Aviation 
Reauthorization Act. This committee played a leading role in creating 
the JPDO and charged it with coordinating the design, research and 
implementation of a new air traffic control system that will--in the 
next twenty years--triple our nation's current capacity to safely move 
aircraft through the skies. This important joint effort includes 
participation from the Departments of Transportation, Commerce, 
Defense, and Homeland Security, and NASA.
    Designing a new air transportation management system is an 
enormously complex and expensive task, thus it's vitally important that 
the JPDO effectively manage this program to ensure it will earn 
continuing support and resources from its member agencies.
    Today, we hope to hear how the JPDO--and its early work on the 
design and development of a Next Generation Air Traffic System (NGATS) 
(pronounced ``en-gatz'')--is progressing. We would like to hear whether 
this is an effective organization or if we need to consider changes, 
and if so, what those changes might be.
    We have a lot to learn from our witnesses, and we will, I'm sure 
have many questions to help us understand its current state, and its 
future challenges. I look forward to hearing from each and everyone of 
you.
    I now recognize the Ranking Democrat, Mr. Udall, for his opening 
statement.

    Mr. Udall. Thank you, Mr. Chairman. Judge Hall, it is 
always a tremendous honor to sit on the podium with you and----
    Mr. Hall. I don't really like to sit by you because you are 
so doggone handsome it makes me look bad. Go ahead now. I will 
give you 15 minutes if you don't----
    Mr. Udall. Is this on the record, Mr. Chairman? I am 
speechless. I would tell you that I do believe Mr. Calvert--
Chairman Calvert is ill because if he was on the golf course, I 
would be with him. I, too, want to join the Chairman in 
welcoming all of you here today for this important hearing 
focused on the future of our air transportation system. As I 
left a meeting to come over here, in mid-meeting, and I told 
the constituents from Colorado the subject of the hearing, they 
are already to get on airplanes tomorrow to fly home, so they 
appreciated the importance of what we are going to discuss here 
today.
    Of course, Members of Congress were in the same--we are not 
in the same boat, we are in the same airplane, aren't we, 
Ralph, because we fly home almost on a weekly basis, and we 
also know how important our air transportation system is to our 
economy. I have a number of constituents in Colorado that are 
in the hospitality business and they always measure, Judge, how 
well we are doing in Colorado economically by how many people 
are getting on and off airplanes.
    Chairman Hall mentioned the interagency Joint Planning and 
Development Office which was created in the 2003 Vision 100--
Century of Aviation Reauthorization Act, and we asked the JPDO 
to tell us how we ought to develop the Next Generation Air 
Transportation System, NGATS. That is a big task. You all today 
are going to give us a sense of what we have accomplished as 
well as what lies ahead. And of course some of the most 
critical challenges involve issues related to transitioning 
from the current Air Traffic Management system to the proposed 
future NGATS concept, and that means new hardware and software, 
equipping fleets of aircraft, addressing a range of workforce 
and training issues, and then, of course, figuring out how to 
pay for it all.
    It also appears, as Judge Hall mentioned, there is a 
significant R&D challenge to be met, if NGATS is to become a 
reality, and I am looking forward to hearing more about that 
R&D challenge from all of you here today on the panel. In 
particular, I want to better understand what is being done to 
identify the key research needs and to align all of the 
agencies' research programs to those needs, and then, of 
course, to make sure that the research programs are relevant to 
the task ahead. That is R&D directly related to NGATS as well 
as R&D on such things as aircraft noise and emissions, and you 
all know that that will have an impact on community acceptance 
of increased airport operations.
    Of course the willingness of agencies to commit the 
necessary budgetary resources to these R&D tasks will be 
another key determinant of our success or failure. And in that 
regard, I am concerned that NASA has planned to cut its 
commitment to NGATS R&D in half over the next five years, and I 
hope that the witnesses will help the Committee understand the 
likely impact of such a cut on JPDO's ability to meet these R&D 
challenges. And finally there is a question of whether or not 
the existing JPDO structure will be sufficient for all that 
lies ahead, or whether it would need to evolve into its own 
program office with its own budgetary authority.
    Mr. Chairman, we clearly have a lot of issues to cover. I 
hope this will just be the first step in a continuing process 
of oversight of the JPDO and NGATS by the Committee NGATS is 
too important to the future--to the Nation's future well-being 
for us to do otherwise. And I am going to borrow a phrase from 
the Space Program. Failure is not an option, either in our 
Space Program or in the NGATS programs that we are proposing. 
So again, welcome and I look forward to your testimony.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good afternoon. I want to join the Chairman in welcoming our 
witnesses. Today's hearing is focused on something that should be of 
interest to all of us--the future of the Nation's air transportation 
system.
    As Members of Congress, we all spend a lot of time on airplanes, 
and we have a vested interest in safe and efficient air travel.
    In addition, of course, the Nation's air transportation system is a 
vital part of our economy, and we need to ensure that it can 
accommodate future anticipated demand.
    As you know, this committee helped establish the intergency Joint 
Planning and Development Office (JPDO) in the 2003 Vision 100--Century 
of Aviation Reauthorization Act. We tasked JPDO with managing the 
development of the Next Generation Air Transportation System (NGATS). 
That's a formidable task.
    Today's witnesses will give us an idea of what has been 
accomplished to date, as well as what challenges lie ahead. Of course, 
some of the most critical challenges involve issues related to 
transitioning from the current Air Traffic Management system to the 
proposed future NGATS concept.
    And that means transitioning to new hardware and software, 
equipping fleets of aircraft, addressing a range of workforce and 
training issues, and figuring out how it will be paid for.
    It also appears that there is a significant R&D challenge to be met 
if the NGATS is to become a reality. I'd like to hear more about that 
R&D challenge from our witnesses.
    In particular, I want to better understand what is being done to 
identify the key research needs and align all of the agencies' research 
programs to those needs--and to ensure that those research programs are 
relevant to the task.
    That includes R&D directly related to the NGATS as well as R&D on 
such things as aircraft noise and emissions--problems that will have a 
big impact on community acceptance of increased airport operations.
    Of course, the willingness of agencies to commit the necessary 
budgetary resources to the R&D tasks will be another key determinant of 
the success or failure of the JPDO.
    In that regard, I am concerned that NASA is planning to cut its 
commitment to NGATS R&D in half over the next five years. I hope that 
the witnesses will be able to help this committee understand the likely 
impact of such a cut on the JPDO's ability to meet the R&D challenges 
facing the NGATS.
    And finally, there is the question of whether or not the existing 
JPDO structure will be sufficient for all that lies ahead, or whether 
it will need to evolve into a Program Office with its own budgetary 
authority.
    Well, Mr. Chairman, we have a lot of issues to consider. I hope 
that today's hearing will be just the first step in a continuing 
process of oversight of the JPDO and NGATS by this committee.
    NGATS is too important to the Nation's future well-being for us to 
do otherwise. To borrow a phrase from the space program: ``Failure is 
not an option'' as far as NGATS is concerned. With that, I again want 
to welcome our witnesses, and I yield back the balance of my time.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Le me first thank the Space and Aeronautics Subcommittee Chairman 
Calvert and Ranking Member Udall for holding this hearing today on a 
very important issue to my district of Houston, Texas. We are here 
today to examine how research and development (R&D) are progressing on 
the creation of a new air traffic control system that would be able to 
handle three times as much air traffic as the current system can. If 
our nation expects to stay on the cutting edge and lead the world's 
development of new technologies, it cannot afford to leave aeronautics 
research behind.
    The Federal Aviation Administration (FAA) aerospace forecasts 
estimates that in 2005, U.S. carriers boarded 738.6 million passengers 
on domestic and international flights. By 2017, the number of 
passengers is forecast to be 1.07 billion, an increase of 45 percent. 
The number of aircraft handled by the FAA's air traffic control centers 
is predicted to be 47.2 million during 2006 and will grow to 67.7 
million by 2017, a 43 percent increase.
    Experts argue that today's system--with its reliance on ground 
radars, voice communications, and air traffic controllers directing 
each phase of flight--will not be able to accommodate this explosion in 
future demand. Because of Industry reliance on the hub-and-spoke 
system, congestion has evolved from an occasional nuisance into a 
national problem that faces travelers on an almost daily basis. Absent 
a fundamental change in the operation of the system, congestion will 
become more pervasive and, as a consequence, economic growth will 
become constrained.
    The answer to our air traffic control congestion problems is said 
to be the Next Generation Air Transportation System (NGATS, pronounced 
``en-gatz''). This year FAA is providing $20 million and NASA is 
providing $18 million a year. To oversee that R&D, Congress in 2003, 
created the joint Planning and Development Office (JPDO) within the 
Federal Aviation Administration (FAA). JPDO was created to guide the 
activities of seven federal agencies, particularly the FAA and the 
National Aeronautics and Space Administration (NASA), as they design 
and implement a Next Generation Air Transportation System (NGATS).
    These issues are so important to my constituency because, I am 
proud to say, Houston has two large airports at its disposal in the 
William P. Hobby Airport, and the Bush International Airport, and one 
civilian/military airport, Ellington Field. These facilities provide 
air travel for an estimated 39 million passengers each year. The long 
established William P. Hobby Airport served 8.86 million passengers in 
1999, making it the 42nd busiest airport in the United States for 
passenger travel. While the Bush International Airport served 31 
million passengers in 1998, making it the 13th busiest airport in the 
United States for total passengers and the 8th largest international 
passenger gateway in the Nation.
    Ellington Field in Houston has the distinction of having the 
largest flying club in Texas and it's the site of the annual Wings Over 
Houston Airshow.
    For people who live and work in the Houston area, the presence of 
these airports is vital to keeping the economic viability of the city 
strong. This makes the subject of increasing air traffic passenger 
capacity, while at the same time improving safety a top priority of 
mine.
    I look forward to hearing from our panel of witnesses on how the 
development of a new, safe, and effective air traffic control system is 
proceeding. Thank you for the time to speak on this important issue Mr. 
Chairman; I yield the remainder of my time.

    Mr. Hall. All right. Mr. Ehlers has just stepped out to 
take a phone call. I was going to recognize him for an opening 
statement, but we will let him make it whenever he wants to in 
between your opening statements. Each of you will have five 
minutes. We are not going to put the watch on you or anything 
like that, stopwatch or anything. We neither urge you to stop 
right at five minutes. We don't urge you even to use your full 
five minutes, unless you think you need it, and if you go over 
a little, that will be all right, because we thank you for 
being here. And at this time I will recognize Mr. Shane for 
five minutes. You can review and take it and use it any way you 
want to use it. Mr. Shane, thank you, sir. Turn your mike on, 
please.

  STATEMENT OF THE HON. JEFFREY N. SHANE, UNDER SECRETARY OF 
  TRANSPORTATION FOR POLICY, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Shane. Forgive me. Thank you again, Congressman Hall 
and Congressman Udall, for those kind remarks for all of us. We 
are delighted that you are having this hearing today and very 
pleased to be able to talk to you about the JPDO and NGATS 
itself. I want to thank you for the opportunity to testify 
today on behalf of the JPDO and its vital role in fostering the 
establishment of the Next Generation Air Transportation System. 
The development of NGATS is a very high priority for Secretary 
Norm Mineta, for FAA Administration Marion Blakey, and for all 
of us at the Department of Transportation and the other 
participating agencies, and I have very pleased to be here with 
you today as DOT's representative.
    The NGATS initiative is unprecedented in its scope and in 
its complexity and in the challenges that it is going to face. 
Our vision of this system is one that encompasses the whole air 
travel experience from the moment the passenger arrives at the 
departure airport to his or her exit from the destination 
airport. NGATS addresses the security, safety and efficiency of 
passenger and cargo air transportation. Aircraft will be able 
to partake of information technology in a more robust way, with 
enhanced capabilities in the cockpit, better navigation and 
landing capabilities, and a far more comprehensive and accurate 
knowledge of weather and traffic conditions in real time. And 
users of the system, who will be flying in a far more diverse 
array of aircraft types than we have today, will experience 
less delay in the current system--than in the current system, 
and with a less intrusive security process, with increased 
safety and all the while, while the system is handling up to 
three times the traffic as the current system handles.
    We have a great air traffic control system today, but NGATS 
will be more flexible and resilient, more scalable, more 
adaptive and more highly automated than today's system. The 
NGATS operational vision is not just related to the air traffic 
system alone, but also includes the preservation and growth of 
airports, of heliports, and other future landing and departure 
facilities to fully incorporate the emerging NGATS' benefits. 
This system will be built in a far more robust information 
network than anything we have seen to date, ensuring that the 
right information gets to the right person at the right time, 
while keeping the Nation safe and the traffic flowing smoothly. 
You will increasingly cut the cord between ground and air as we 
put more information directly into the cockpit of intelligent 
aircraft through sensors and satellites linked together through 
network communications.
    Under the leadership of FAA Administrator Blakey, the JPDO 
now serves as a focal point for coordinating the research 
related to air transportation for agencies across the entire 
Federal Government, including the Departments of 
Transportation, Commerce, Defense, and Homeland Security, as 
well as NASA. It was clear from the outset that an initiative 
of this magnitude and this complexity could never be completed 
successfully by DOT alone, particularly in a post-9/11 world. 
We sought support from others and they delivered. NASA has been 
particularly close as a partner from the beginning, and all the 
other agencies involved have provided invaluable support to the 
JPDO and have helped us establish a strong and collaborative 
atmosphere.
    Another special feature of this initiative is the high-
level participation we enjoy from each of these organizations. 
Secretary Mineta chairs a senior policy committee made up of 
deputy secretary-level officials from the other departments, as 
well as from the President's Office of Science and Technology 
Policy. The senior policy committee directs the effort and will 
be responsible for its ultimate success of failure. The 
participating agencies have been enthusiastically engaged from 
the outset and we are grateful for their continued support.
    I have to emphasize that not all elements of the system, of 
NGATS, as it will look in 2025 are known today. Research will 
continue to help us find the right balance between the 
centralized ground-based system that we have today and the 
totally distributed system we envision for tomorrow, where 
aircraft largely self-manage their flight with full knowledge 
of their environment. That research is being undertaken through 
a close partnership with industry and with other stakeholders. 
The process ensures full coordination of research across agency 
lines and between government and the private sector in ways 
that have not been done in the past. We are already spending 
significant resources each year on air transportation-related 
research. By better coordinating our actions, avoiding 
duplication and tying these activities together through a long-
term integrated national plan, we can maximize the benefits of 
those public and private investments and target our resources 
more effectively.
    We need the best minds in America, from both the public and 
private sectors, working on the task of creating a next 
generation system. To achieve this we have established the 
NGATS Institute to allow stakeholders to get directly involved 
in the transformation process. And while the Aerospace 
Industries Association is the host for the institute, it is co-
chaired by the presidents of the Airline Pilots Association and 
the Air Transport Association, and open for participation by 
all segments of the industry.
    The JPDO achieved important milestones in 2005 towards 
building the NGATS system. The JPDO completed its internal 
organization and created eight government/industry integrated 
product teams, IPTs, to break this large and complex project 
into manageable strategies. These strategies focus on those 
aspects of aviation that hold the keys to capacity and 
efficiency improvements, airport infrastructure, security, a 
more agile air traffic system, shared situational awareness, 
safety, environmental concerns, weather, and global 
harmonization of equipage and operations. Each agency involved 
in the initiative leads at least one of the IPTs. The teams 
work closely with our stakeholders to ensure that they have an 
early window into our thinking and that we take full advantage 
of their expertise at every step of the way.
    The IPTs have already begun the important process of moving 
from the general to the specific, and from objectives to 
capabilities. As of December 2005, nearly 200 industry and 
private sector participants representing about 70 organizations 
and companies were actively involved in the ITP--IPTs planning 
and development work. This participation has been a major 
initial focus of the NGATS Institute. The NGATS concepts of use 
and operations and its enterprise architecture will be released 
for comment this summer. In 2005, the JPDO moved ahead with 
plans to accelerate the development of key next generation 
systems projects, such as Automatic Dependent Surveillance 
Broadcast, ADS-B, System Wide Information Management, or SWIM 
as we call it, and in fiscal year 2007 and in the President's 
budget proposal, the Administration proposed several targeted 
investment areas to promote early implementation of elements of 
the next generation system. These accomplishments are all 
highlighted in the recently published 2005 Progress Report to 
the NGATS Integrated Plan that was transmitted to Congress on 
March the 10th as required by Vision 100, the last aviation 
reauthorization act.
    Another major change in support of NGATS is the 
restructuring of the NASA Aeronautics Program. Under the 
leadership of Administrator Michael Griffin and my colleague on 
this panel, Associate Administrator Lisa Porter, the program 
has been restructured with one of its three tenets being to 
support the development of NGATS. In fact, one of its major 
four elements, the Airspace Systems Program, is completely 
dedicated to the air traffic management requirements of NGATS.
    Congressman Hall and other Members of this subcommittee, 
NGATS will require years of hard work and unparalleled 
coordination among the many federal agencies and stakeholders 
involved. The process has now begun in earnest, however, and by 
aligning our resources and activities through the JPDO, we are 
all confident that we will succeed. We will, of course, need 
strong support from Members of Congress, and therefore we look 
forward to working with all of you as this critical endeavor 
proceeds. That concludes my testimony and of course I will be 
very happy to answer questions at the appropriate time.
    [The prepared statement of Mr. Shane follows:]

                 Prepared Statement of Jeffrey N. Shane

    Good afternoon, Chairman Calvert, Congressman Udall, and Members of 
the Subcommittee. I would like to thank you for the opportunity to 
testify today on such an important subject as the Joint Planning and 
Development Office, or JPDO, and its vital role in fostering the 
establishment of the Next Generation Air Transportation System. The 
development of the Next Generation Air Transportation System, or NGATS, 
is a high priority for Secretary Mineta, Administrator Blakey, and all 
of us at the Department of Transportation. I am very pleased to be with 
you today as the Department's representative.
    The NGATS initiative is unprecedented in its scope, complexity and 
the challenges it will face. Our vision of this system is one that 
encompasses the whole air travel experience--from the moment the 
passenger arrives at the departure airport to his or her exit from the 
destination airport. The NGATS System includes security, safety, and 
efficiency of passenger, cargo and aircraft operations. Aircraft will 
be able to use information technology in a more robust way, with 
enhanced capabilities in the cockpit, better navigation and landing 
capabilities, and far more comprehensive and accurate knowledge of 
weather and traffic conditions in real time. And, the users of the 
system, who will be flying in a far more diverse array of aircraft 
types, will find the system works with less delay than the current 
system, with a less intrusive security process, and with increased 
safety, all while handling significantly increased traffic as compared 
to the current system.
    We have a great air traffic control system today. But the Next 
Generation Air Transportation System will be more flexible, resilient, 
scalable, adaptive, and highly automated than today's system. The NGATS 
operational vision is not just related to the air traffic management 
system alone, but also includes the preservation and growth of 
airports, heliports, and other future landing and departure facilities 
to fully incorporate the emerging NGATS benefits. This system will be 
built on a far more robust information network than anything we have 
seen to date, ensuring that the right information gets to the right 
person at the right time, while keeping the Nation safe and the flow of 
traffic running smoothly. We will increasingly cut the cord between 
ground and air as we put more information directly into the cockpit of 
intelligent aircraft through sensors and satellites linked together 
through network communications.
    The importance of developing this system of the future is also 
quite clear to policy-makers in Europe, where a comparable effort is 
well underway. This presents both a challenge and an opportunity to the 
United States. Creating a modernized, global system that provides 
inter-operability could serve as a tremendous boost to the aerospace 
industry, fueling new efficiencies and consumer benefits. 
Alternatively, we could also see a patchwork of duplicative systems and 
technologies develop, which would place additional cost burdens on an 
industry already struggling to make ends meet.
    Under the leadership of FAA Administrator Blakey, the JPDO now 
serves as a focal point for coordinating the research related to air 
transportation for agencies across the Federal Government, including 
the Departments of Transportation, Commerce, Defense and Homeland 
Security, as well as NASA. Early on, we realized that an initiative of 
this magnitude and complexity could never be successfully completed by 
DOT alone, especially in a post-9/11 world. We sought support from 
others, and they delivered. NASA has been a close partner from the 
beginning, and all the other agencies involved have provided invaluable 
support to the JPDO that has helped us establish a strong, 
collaborative atmosphere.
    Another special feature of this initiative is the high-level 
participation from each of these organizations. Secretary Mineta chairs 
a Senior Policy Committee made up of Deputy Secretary-level officials 
from the other organizations, and the White House Office of Science and 
Technology Policy (OSTP). The Senior Policy Committee directs the 
effort and will be responsible for its ultimate success or failure. The 
participating agencies have been highly engaged from the outset, and we 
are grateful for their continued support.
    Our overarching goal in the NGATS System initiative is to develop a 
system that will be flexible enough to accommodate a wide range of 
users--very light jets and large commercial aircraft, manned and 
unmanned air vehicles, small airports and large, business and vacation 
travelers alike, while handling a significantly increased number of 
operations with no diminution in safety, security and efficiency. I 
must emphasize that not all elements of the NGATS system in 2025 are 
known today. Research will continue to help us find the right balance 
between a centralized ground system and a totally distributed system, 
where aircraft ``self-manage'' their flight with full knowledge of 
their environment.
    That research is being undertaken through a close partnership with 
the research community, industry and other stakeholders. This process 
ensures full coordination of research across agency lines and between 
government and the private sector in ways that have not been done in 
the past. The fact is that we already have a sizable amount of 
resources being spent each year on air transportation-related research. 
By better coordinating our actions, avoiding duplication and tying 
these activities together through a long-term, integrated national 
plan, we can maximize the benefits of those public and private 
investments and target our limited resources more effectively.
    Existing Federal Advisory Committees will be used to ensure all 
plans and decisions receive broad review and public comment. These 
committees include senior-level executives from across industry 
empowered to provide advice on strategy and transition issues.
    We need the best minds in America across both the public and 
private sectors working on the task of creating a NGATS system. To 
achieve this, we have established a Next Generation Air Transportation 
System Institute (the NGATS Institute) that allows stakeholders to get 
directly involved in the transformation process. And, while the 
Aerospace Industries Association (AIA) is the host for the Institute, 
it is co-chaired by the presidents of the Air Line Pilots Association 
and the Air Transport Association and open for participation by all 
segments of the industry.
    The Joint Planning and Development Office (JPDO) achieved important 
milestones in 2005 towards building the NGATS system. The JPDO 
completed its internal organization and created eight government/
industry Integrated Product Teams (IPTs) to break this large and 
complex project into manageable strategies. These strategies focus on 
those aspects of aviation that hold the keys to capacity and efficiency 
improvements--airport infrastructure, security, a more agile air 
traffic system, shared situational awareness, safety, environmental 
concerns, weather and global harmonization of equipage and operations. 
Each agency involved in the initiative leads at least one of the 
Integrated Product Teams. The Teams work closely with our stakeholders 
to ensure that they have an early window into our thinking and that we 
take full advantage of their expertise every step of the way. What 
truly sets this new structure apart is that it eliminates duplication 
of effort and gets everyone involved in aviation across the Federal 
Government working toward a common goal--creation of a NGATS system.
    The IPTs have already begun the important process of moving from 
the general to the specific, and from objectives to capabilities. As of 
December 2005, nearly 200 industry and private sector participants 
representing around 70 organizations and companies were actively 
involved in the IPTs' planning and development work. This participation 
has been a major initial focus of the NGATS Institute. The NGATS 
Concepts of Use and Operations, and a preliminary Enterprise 
Architecture will be released for comment this summer. In 2005, the 
JPDO moved ahead with plans to accelerate the development of key NGATS 
projects, such as Automatic Dependent Surveillance-Broadcast (ADS-B), 
and System Wide Information Management (SWIM). In its Fiscal Year 2007 
budget proposal, the Administration proposed several targeted 
investment areas, to promote early implementation of elements of the 
NGATS system. The details of these programs will evolve over time as 
the Enterprise Architecture is fully developed and system requirements 
are established. These accomplishments are highlighted in the recently 
published ``2005 Progress Report to the NGATS Integrated Plan'' that 
was transmitted to Congress on March 10th as required by Vision 100.
    One of these very promising initiatives, with potential for broad 
operational applications, is the Automatic Dependent Surveillance-
Broadcast (ADS-B) system, a technology that will replace ground-based 
radar systems and revolutionize air navigation and surveillance. For FY 
2007, the President's budget includes $80 million for the FAA for the 
ADS-B program. The ADS-B system was the key enabling technology for the 
Capstone demonstration program in the Alaska Region.
    Capstone is a technology-focused safety program in Alaska that 
seeks near-term safety and efficiency gains in aviation by accelerating 
implementation and use of modern technology, in both avionics and 
ground system infrastructure. The impetus for the Capstone program was 
a series of meetings between the FAA and aviation interests to address 
the exceedingly high accident rate in Alaska for small aircraft 
operations, which was nearly five times greater than the national 
average. Through 2005, the Capstone Program achieved significant safety 
and efficiency results. Capstone-equipped aircraft have had a 
consistently lower accident rate than non-equipped aircraft. From 2000 
through 2005, the rate of accidents for Capstone-equipped aircraft 
dropped significantly--by 49 percent. That is real progress.
    Another technological innovation, known as Required Navigation 
Performance, or RNP, adds capacity, improves efficiency and reduces 
fuel consumption. RNP uses on-board technology that allows pilots to 
fly more direct point-to-point routes reliably and accurately. RNP is 
extremely accurate, and gives pilots not only lateral guidance, but 
vertical precision as well. RNP reaches all aspects of the flight--
departure, en route, arrival, and approach. For example, in January 
2005, in partnership with Alaska Airlines, we implemented new RNP 
approach procedures at Palm Springs International Airport, which is 
located in very mountainous terrain. Under the previous conventional 
procedures in use at Palm Springs, planes could not land unless the 
ceiling and visibility were at least 2,300 feet and three miles. With 
these new RNP procedures, approved air carriers can now operate with a 
ceiling and visibility as low as 734 feet and one mile. This lower 
landing minima has allowed Alaska Airlines to ``save'' 27 flights 
between January and November, 2005, flights which would have otherwise 
had to divert to Ontario, California--an added distance of at least 70 
miles.
    Given its fundamental importance to the success of the NGATS 
System, establishing an initial Network-Enabled Operations (NEO) 
capability is a high priority. Current efforts focus on identifying the 
network architecture and enacting standards for information and safety 
data sharing. This is the situation today: DOD has already invested 
considerable resources in information technology and telecommunication 
research focused on NEO and information access and sharing. FAA, DHS 
and Commerce are also committed to developing network-centric 
information architectures. The opportunity now exists to synchronize 
these efforts, especially in the areas of data inter-operability and 
compatible network-to-network interface mechanisms. Two on-going DOD 
initiatives--the synchronization of DOD and DHS classified networks and 
DOD's development of its Net-Centric Enterprise Services--will serve as 
templates for this effort.
    In 2005, the JPDO, FAA and an industry team demonstrated how 
network-enabled concepts developed for the military customers can be 
applied to Air Traffic Management. The Joint Network-Enabled Operations 
Security Demonstration connected seven Air Traffic Management and 
security systems distributed over 12 different locations. It showed how 
sharing information in real time across air traffic, air defense, and 
law enforcement domains helps agencies respond to a security incident 
more efficiently. The exciting part of the NEO demonstration project is 
that it enabled communication between agencies' individual, stove-piped 
networks, eliminating the need to throw out all the individual legacy 
systems and create a brand new mega-system, which would be 
prohibitively expensive.
    In July 2006, the JPDO will also conduct a demonstration project 
involving the FAA's System Wide Information Management (SWIM) program--
the beginning of network-centric operation in the National Airspace 
System. The President's budget proposal for Fiscal Year 2007 requests 
$24 million for FAA's SWIM program.
    Another major change in support of NGATS is the restructuring of 
the NASA Aeronautics Program. Under the leadership of Administrator 
Griffin and Associate Administrator Porter, the program has been 
restructured with one of its three tenets being to support the 
development of NGATS. In fact, one of its four major elements--the 
Airspace Systems Program, is completely dedicated to the air traffic 
management requirements of NGATS. The program will be pioneering 
automated, high density, trajectory management technologies to 
completely change the way traffic is managed and controlled in the 
future. Automated trajectory management is at the heart of the NGATS 
operational concept. NASA has been working in this area of research for 
years, with notable successes, like the Traffic Management Advisor, 
which provides time-based metering of aircraft flows. The Traffic 
Management Advisor is in operation today and is in the process of being 
deployed throughout the National Airspace System.
    Mr. Chairman, NGATS will require years of hard work and 
unparalleled coordination among the many federal agencies and 
stakeholders involved. The process has now begun in earnest, however, 
and by aligning our resources and activities through the JPDO, I am 
confident we will succeed. We will, of course, need strong support from 
Members of Congress, and we therefore look forward to working with all 
of you on this critical endeavor.
    This concludes my testimony. Thank you very much for the 
opportunity to appear before you today, and I look forward to answering 
your questions.

                     Biography for Jeffrey N. Shane
    Jeffrey N. Shane was appointed by President Bush as Under Secretary 
of Transportation for Policy in March 2003 following his confirmation 
by the United States Senate. In this position, he serves as principal 
policy advisor to the Secretary of Transportation, with oversight 
responsibility for the Office of Transportation Policy and the Office 
of Aviation and International Affairs. President Bush earlier appointed 
Mr. Shane as Associate Deputy Secretary of Transportation, a position 
in which he served for a year prior to his current appointment.
    Before returning to public service, Mr. Shane was a partner at the 
international law firm of Hogan & Hartson L.L.P. in its Washington, DC, 
office. He had a domestic and international transportation practice, 
with a major emphasis on regulatory, legislative, and transactional 
issues.
    Prior to entering the private practice of law Mr. Shane held a 
number of other positions in transportation policy in the Federal 
Government. At DOT he served as Assistant Secretary for Policy and 
International Affairs (1989-1993), Deputy Assistant Secretary for 
Policy and International Affairs (1983-1985), and Assistant General 
Counsel for International Law. He also served as Deputy Assistant 
Secretary of State for Transportation Affairs (1985-1989).
    From 1994 through 2001 Mr. Shane was Chairman of the Commission on 
Air Transport of the International Chamber of Commerce and Chairman of 
the Military Airlift Committee of the National Defense Transportation 
Association. He was Chair of the American Bar Association's Forum on 
Air and Space Law from 2001 to early 2002. From 1985 through 1989, he 
was Adjunct Professor of Law at Georgetown University, teaching a 
course in International Transportation Law.
    Mr. Shane received his undergraduate degree from Princeton 
University and his law degree from Columbia University, where he was 
Articles Editor of the Columbia Journal of Law and Social Problems. He 
is a member of the District of Columbia Bar.
    Mr. Shane and his wife, Jean Wu, live in Washington, DC.

    Mr. Hall. Thank you very much, Mr. Shane, and express to 
our former colleague, Mr. Mineta, our appreciation for your 
appearing here.
    Mr. Shane. Thank you. I will.
    Mr. Hall. The Chair, at this time, recognizes Dr. Lisa 
Porter, Associate Administrator for Aeronautics of NASA. Dr. 
Porter, you have the right to read your statement, give your 
statement, give a summary of your statement, and we recognize 
you at this time for your statement.

 STATEMENT OF DR. LISA J. PORTER, ASSOCIATE ADMINISTRATOR FOR 
  AERONAUTICS, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION 
                             (NASA)

    Dr. Porter. Thank you, Congressman Hall, and thank you, 
Congressman Udall, for this opportunity to appear before you 
today to discuss the status of the Next Generation Air 
Transportation System, or NGATS. NASA is committed to working 
with our partners at the JPDO to provide the high-quality 
research and technical excellence required to develop the 
NGATS. NASA's Aeronautics Research Mission Directorate is 
currently undergoing a comprehensive restructuring to ensure 
that we have a strategic plan in place that enables us to 
pursue long-term cutting-edge research for the benefit of the 
broad aeronautics community. One of the key principles of our 
reshaping efforts is to directly address the fundamental 
research needs of the NGATS while working closely with our 
agency partners in the JPDO.
    The future air traffic management system must be scalable 
to support increased capacity, as well as flexible to 
accommodate the wide variety of air vehicles that will be 
flying within the system. New concepts and technologies must be 
conceived and developed that will completely transform the 
overarching structure that will coordinate thousands of 
vehicles operating in a national airspace at any given time. 
NASA's Airspace Systems Program will therefore focus on 
developing revolutionary concepts, technologies and 
capabilities that will enable significant increases in the 
capacity, efficiency and flexibility of our national airspace 
system.
    However, it is critical to recognize that the challenges we 
face in developing the future air transportation system are not 
limited to air traffic management alone. Future air vehicles 
will need to address substantial noise, emissions, efficiency 
and performance challenges. These are issues that cannot be 
worked in isolation. A holistic approach to vehicle design will 
be required in order to address multiple and often conflicting 
design requirements. Therefore, a key a focus of NASA's 
Fundamental Aeronautics Program will be the development of 
physics-based predictive design tools that will enable the 
rapid evaluation of new concepts and technologies and that will 
accelerate their application into a wide variety of future air 
vehicles. This capability will only be possible if we are 
dedicated to the pursuit of knowledge across all the 
aeronautics disciplines that are critical in the design of air 
vehicles.
    Furthermore, as we look toward the future, at the projected 
increases in air traffic and future system capabilities, we 
must make a firm commitment to conduct the research necessary 
to ensure that our high safety standards are not compromised. 
NASA's Aviation Safety Program will therefore focus on 
developing cutting-edge tools, methods and technologies 
intended to improve the intrinsic safety attributes of aircraft 
that will be operating in the evolving NGATS.
    In short, NASA's Aeronautics Directorate has constructed a 
balanced research portfolio that draws upon our NASA-unique 
capabilities to address air traffic management, vehicle design 
and safety-related challenges, all of which must be worked in 
order for the NGATS vision to be realized. NASA has interacted 
closely with the JPDO during the past several months to ensure 
proper alignment of our research plans with the needs of the 
NGATS. Our researchers are the NASA centers are currently 
developing detailed technical proposals that will include 
integrated, multi-year research plans with milestones that are 
challenging but also technically sound. These proposals will 
undergo a rigorous review by several government experts, 
including members of the JPDO, to ensure that the plans are 
technically credible and well aligned with the NGATS vision. 
This level of coordination and cooperation will remain an 
ongoing element of NASA's strategic partnership with the JPDO.
    Finally, in addition to conducting research that directly 
addresses the challenges of the NGATS, we have placed a strong 
emphasis on active participation in the JPDO, providing 
personnel, analysis tools, and funds to directly support JPDO 
functions and activities. NASA is actively involved in all of 
the organizational elements of the JPDO, from the integrated 
product teams and the evaluation and analysis division up 
through the senior policy committee.
    Now, obviously, a vision as revolutionary and ambitious as 
that of the NGATS will face some significant challenges in the 
coming months and years. Programmatically, the most obvious 
challenge is preserving the strong cooperation that currently 
exists among the member agencies over the next two decades. It 
is imperative that the JPDO remain focused on close cooperation 
at all levels. Currently, this is accomplished at the technical 
level through the integrated product teams and the joint 
architecture council. From an oversight perspective, a senior 
interagency board is in place to support the senior policy 
committee and ensure that a high-level leadership is engaged in 
all critical aspects of the NGATS development. All member 
agencies of the JPDO must remain committed to supporting these 
processes, and the processes themselves must continue to evolve 
as the NGATS development matures.
    Technically, the most important near-term challenge is the 
development of the enterprise architecture. This step is 
necessary to establish the system-level requirements that are 
clear, verifiable and attainable. While the capabilities 
articulated in the JPDO's NGATS vision have enabled each agency 
to vector its research portfolio in the right direction, the 
establishment of detailed system requirements will allow each 
member agency to better refine its R&D plans. Given that every 
agency has budget constraints and always will, the 
establishment of an enterprise architecture will be critical to 
ensure that each agency can prioritize its R&D investments in 
the manner that provides the maximum return on investment. The 
JPDO intends to provide a preliminary enterprise architecture 
by the summer of 2006.
    Once again, thank you for this opportunity to testify today 
and I would be happy to answer any questions that you may have.
    [The prepared statement of Dr. Porter follows:]

                  Prepared Statement of Lisa J. Porter

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to appear before you today to discuss the status of the 
Next Generation Air Transportation System (NGATS). NASA is committed to 
working with our partners at the Joint Planning and Development Office 
(JPDO) to provide the high-quality research and technical excellence 
required to develop the NGATS.
    NASA's Aeronautics Research Mission Directorate (ARMD) is currently 
undergoing a comprehensive restructuring to ensure that we have a 
strategic plan in place that enables us to pursue long-term, cutting-
edge research for the benefit of the broad aeronautics community. The 
three principles guiding this restructuring are as follows: 1) we will 
dedicate ourselves to the mastery and intellectual stewardship of the 
core competencies of aeronautics in all flight regimes; 2) we will 
focus our research in areas appropriate to NASA's unique capabilities; 
and 3) we will directly address the fundamental research needs of the 
NGATS while working closely with our agency partners in the JPDO.
    Regarding the third principle, one of the research challenges that 
NASA will directly address will be that of Air Traffic Management 
(ATM). While our current ATM system has served the country well, there 
are critical shortcomings that prevent it from meeting anticipated 
future demands. The future ATM system must be scalable to support 
increased capacity as well as flexible to accommodate the wide variety 
of air vehicles that will fly within the system. New concepts and 
technologies must be conceived and developed that will completely 
transform the overarching structure that will coordinate thousands of 
vehicles operating in the national airspace at any given time.
    However, it is important to recognize that the challenges we face 
in developing the NGATS are not limited to ATM alone. For our air 
transportation system to continue to function, future air vehicles will 
need to address substantial noise, emissions, efficiency, and 
performance challenges. These are issues that cannot be worked in 
isolation--a holistic approach to vehicle design will be required in 
order to address multiple and often conflicting design requirements. 
Furthermore, as both the vehicles and the airspace system become 
increasingly complex, we must make a commitment to conduct the research 
necessary to ensure that our high safety standards are not compromised.
    Therefore, NASA's ARMD will conduct the long-term, cutting edge 
research that will be necessary to ensure revolutionary capabilities 
for both the air vehicles of the future as well as the air 
transportation system in which they will fly. Gone are the days when 
one can design innovative vehicles without consideration of the 
airspace, and the converse is, of course, equally true. We have four 
major programs--the Airspace Systems Program, the Aviation Safety 
Program, the Fundamental Aeronautics Program, and the Aeronautics Test 
Program--each of which contributes to the research needs of the future 
air transportation system, as described in more detail below. NASA has 
constructed a balanced research portfolio that draws upon our NASA-
unique capabilities to address ATM, vehicle, and safety-related 
research challenges, all of which must be worked in order for the NGATS 
vision to be realized. Budget allocations across the programs are based 
upon the long-term research needs and goals of each program as well as 
the capabilities currently available at each of the research centers. 
Funding levels among the programs have been balanced to ensure that our 
intellectual stewardship of the core competencies of aeronautics is not 
compromised.
    ARMD has interacted closely with the JPDO during the past several 
months to ensure proper alignment of our research plans with the needs 
of the NGATS. Specifically, members of the JPDO provided feedback 
regarding the content of our preliminary research plans in all of our 
programs before we presented them publicly at an American Institute of 
Aeronautics and Astronautics conference in January 2006. Our 
researchers at the NASA centers are currently developing detailed 
technical proposals that build upon that preliminary work. The 
proposals will include integrated multi-year research plans, with 
milestones that are challenging but also technically sound. These 
proposals will undergo a rigorous review by several government experts, 
including members of the JPDO, to ensure that the plans are technically 
credible and well-aligned with the NGATS vision. This level of 
coordination and cooperation will remain an ongoing element of the ARMD 
strategic partnership with the JPDO.
    Finally, in addition to conducting research that directly addresses 
the challenges of the NGATS, we have placed a strong emphasis on active 
participation in the JPDO itself, providing personnel, analysis tools, 
and funds to directly support JPDO functions and activities. NASA is 
actively involved in all the organizational elements of the JPDO, from 
the Integrated Product Teams (IPTs) and the Evaluation and Analysis 
Division (EAD) up through the Senior Policy Committee (SPC), which 
oversees the work of the JPDO and is chaired by the Secretary of 
Transportation.

Airspace Systems

    The objective of the Airspace Systems Program (ASP) is to develop 
revolutionary concepts, capabilities, and technologies that will enable 
significant increases in the capacity, efficiency and flexibility of 
our National Airspace System (NAS)--an objective that is clearly 
aligned with the JPDO's vision of the NGATS. The ASP consists of two 
projects: the NGATS ATM: Airspace Project and NGATS ATM: Airportal 
Project.
    The NGATS ATM: Airspace Project will develop and explore 
fundamental concepts and integrated solutions that address the optimal 
allocation of ground and air automation technologies necessary for the 
NGATS. The project will focus NASA's technical expertise and world-
class facilities to address the question of where, when, how, and the 
extent to which automation can be applied to moving aircraft safely and 
efficiently through the NAS. Research in this project will address 
Four-Dimensional (4D) Trajectory Operations including advances in the 
science and applications of multi-aircraft trajectory optimization that 
solves the demand/capacity imbalance problem while taking into account 
weather information and forecast uncertainties and keeping aircraft 
safely separated. Our research will develop and test concepts for 
advanced Traffic Flow Management to provide trajectory planning and 
execution across the spectrum of time horizons from ``strategic 
planning'' to ``separation assurance.'' We will also conduct research 
to explore Dynamic Airspace Configuration that addresses the technical 
challenges of migrating from the current structured, static homogeneous 
airspace to a dynamic, heterogeneous airspace that adapts to user 
demand and meets changing constraints of weather, traffic congestion, 
and a highly diverse aircraft fleet. Ultimately, the roles and 
responsibilities of humans and automation touch every technical area 
and will be addressed thoroughly.
    Working in close collaboration with the NGATS ATM: Airspace 
Project, the NGATS ATM: Airportal Project will develop and validate 
algorithms, concepts, and technologies to increase throughput of the 
runway complex and achieve high efficiency in the use of airportal 
resources such as gates, taxiways, runways, and final approach 
airspace. Currently, the growth of air traffic demand and fleet 
diversity is causing the operational volume at hub airports to rapidly 
approach their maximum capacity. NASA research in this project will 
lead to development of solutions that safely integrate surface and 
terminal area air traffic optimization tools and systems with 4D 
trajectory operations. To support super-density and equivalent visual 
operations, NASA will also conduct research in wake hazard sensing and 
prediction.
    Substantial leveraging of research across the two projects will 
occur in areas such as computational science and engineering, applied 
mathematics for system optimization, trajectory design and conformance, 
automation design, and adaptive air/ground automation. Ultimately, the 
results of the two projects will be integrated to ensure gate-to-gate 
solutions that are aligned with the NGATS needs.

Aviation Safety

    Through the vigilance of industry and government, the U.S. Air 
Transportation System is widely recognized as one of the safest 
transportation systems worldwide. Looking toward the future at the 
projected increases in air traffic and future system capabilities, this 
vigilance must continue in order for the U.S. to meet both the public 
expectations for safety and the full realization of the NGATS. To help 
meet these future challenges, the Aviation Safety Program (AvSP) will 
focus on developing cutting-edge technologies intended to improve the 
intrinsic safety attributes of aircraft that will be operating in the 
evolving NGATS. The four projects in the AvSP are as follows: 
Integrated Vehicle Health Management (IVHM), Aircraft Aging and 
Durability (AAD), Integrated Intelligent Flight Deck (IIFD), and 
Integrated Resilient Aircraft Control (IRAC).
    The focus of the IVHM and the AAD projects are to improve the 
inherent resiliency, life-cycle durability, and maintenance of modern 
aircraft and associated on-board systems. The IVHM project will conduct 
research to advance the state of highly integrated and complex flight 
critical health management technologies and systems. Potential benefits 
include reduced occurrence of in-flight system and component failures, 
and on-board systems capable of self-detecting and self-correcting 
anomalies during a flight that could otherwise go unattended until a 
critical failure occurs. The AAD project will develop advanced 
diagnostic and prognostic capabilities for detection and mitigation of 
aging-related hazards. The research and technologies to be pursued will 
decrease the susceptibility of current and next generation aircraft and 
on-board systems to pre-mature deterioration and failures, thus greatly 
improving vehicle safety and mission success.
    New capabilities envisioned for the NGATS such as Super Density 
Operations, Aircraft Trajectory-Based Operations, and Equivalent Visual 
Operations pose potential safety challenges for ensuring optimum crew 
workload distribution and application of advanced flight critical 
automatic and autonomous systems. The AvSP will conduct research on 
advanced vehicle-based capabilities to address potential unintended 
consequences that could compromise vehicle or system safety. The IIFD 
project will pursue flight deck related technologies that will ensure 
that crew workload and situation awareness are both safely optimized 
and adapted to the NGATS future operational environment. The IRAC 
project will conduct research to advance the state of aircraft flight 
control automation and autonomy in order to prevent loss-of-control in 
flight, which is the accident category that currently has the highest 
number of aircraft accidents. Taking into account the advanced 
automation and autonomy capabilities as envisioned by NGATS, the 
research will pursue methodologies to enable an aircraft to 
automatically detect, avoid, and/or safely recover from an unusual 
attitude or adverse condition.

Fundamental Aeronautics

    The Fundamental Aeronautics Program (FA) is dedicated to the 
mastery and intellectual stewardship of the core competencies of 
aeronautics across all flight regimes. Researchers in FA will conduct 
cutting-edge research across multiple disciplines including 
aerothermodynamics, acoustics, propulsion, materials and structures, 
computational fluid dynamics, and experimental measurement techniques. 
The focus of this research is the generation of pre-competitive high-
fidelity data and design tools that will be applicable across all 
flight regimes including subsonics (both fixed and rotary wing), 
supersonics, and hypersonics.
    Future aircraft in the NGATS will need to be quiet and clean to 
meet stringent noise and emissions regulations. Additionally, these air 
vehicles will need to meet challenging performance requirements to make 
them economically viable alternatives to the existing fleet. A holistic 
approach to vehicle design will therefore be required in order to 
address multiple and often conflicting design requirements. This in 
turn requires substantial improvements in our current ability to 
predictively design aircraft.
    Today's design tools can be used for incremental improvements to 
existing engines and airframes. However, because they are based on 
empirical knowledge obtained over a long history of small design 
improvements, they cannot be used to design radically new engines and 
air vehicles. A key focus of FA will be the development of physics-
based Multi-disciplinary Analysis and Optimization (MDAO) tools that 
will enable the rapid evaluation of new concepts and technologies. 
These tools will accelerate the application of new technology to a wide 
array of air vehicles. This revolutionary approach will only be 
possible if we make a firm commitment to the pursuit of knowledge 
across all of the aeronautics disciplines that are critical in the 
design of air vehicles.
    We must acknowledge that the challenges of the future are so 
substantial that we must not falter in our commitment to a long-term 
investment in cutting-edge research. We must conduct high quality 
research to address fundamental scientific and engineering issues in 
such areas as noise source characterization, combustion chemistry, 
alternative fuel chemistry, turbulence modeling, materials design, and 
active flow control. Only by taking a strategic and comprehensive 
approach to air vehicle research will we be able to assure the future 
of air transportation in this country.

Aeronautics Test Program

    NASA has established the Shared Capability Asset Program (SCAP), 
which includes the Aeronautics Test Program (ATP). The ATP ensures the 
long-term availability and viability of the set of aeronautics test 
facilities that NASA, working with the Department of Defense (DOD) and 
the U.S. aircraft industry, considers to be of national strategic 
importance. Several of these facilities will be critical in supporting 
research that directly addresses the research needs of the NGATS. These 
include ground test facilities that are used to simulate adverse 
weather conditions, to measure engine and airframe noise, and to 
measure engine emissions.

Evaluation and Analysis

    In addition to conducting research that directly addresses the 
challenges of the NGATS, NASA provides a direct role in evaluating and 
analyzing proposed systems-level NGATS concepts and architectures. NASA 
personnel are key members of the JPDO Evaluation and Analysis Division 
(EAD), which is now an inherent entity within the JPDO. Many of the 
sophisticated simulations and models being used by the EAD to evaluate 
concepts to ensure that we will be developing a system that will most 
efficiently and effectively meet the needs of tomorrow's air 
transportation system have been developed by NASA. Likewise, NASA 
employs these tools to evaluate the impacts of its own research program 
upon the national objectives for transformation.

Challenges for the JPDO and the Way Ahead

    The JPDO's vision for the NGATS is revolutionary and ambitious and 
therefore faces some significant challenges. Programmatically, the most 
obvious challenge is that of preserving the strong cooperation that 
currently exists among the member agencies for the next twenty years. 
Such cooperation is often personality-driven, but it must be sustained 
as individuals in each organization come and go. It is therefore 
imperative that the JPDO remains focused on close cooperation at all 
levels. Currently, this is accomplished at the technical level through 
the multi-agency IPTs and the joint architecture council. From an 
oversight perspective, a senior interagency board is in place to 
support the SPC and ensure that high-level leadership is engaged in all 
critical aspects of the NGATS development. All member agencies of the 
JPDO must remain committed to supporting these processes, and the 
processes themselves must continue to evolve as the NGATS development 
matures.
    A perhaps less obvious but equally important challenge is the 
necessity to not compromise technical integrity as the JPDO faces the 
reality of maintaining ``advocacy'' among stakeholders. In other words, 
the JPDO must be willing to adjust technical goals and milestones if 
research results determine that it is necessary to do so. The JPDO 
cannot succumb to political pressures of overselling or overstating 
system-level goals that are found to be technically or economically 
infeasible. A commitment to technical integrity will be critical to the 
long-term success of the JPDO.
    Technically, the most important near-term challenge is the 
development of the Concept of Operations and the Enterprise 
Architecture. This step is necessary to establish system-level 
requirements that are clear, verifiable, and attainable. While the 
capabilities articulated in the JPDO's NGATS vision have enabled each 
agency to vector its research portfolio in the right direction, the 
establishment of detailed system requirements will allow each member 
agency to better refine its R&D plans. Given that every agency has 
budget constraints, and always will, the establishment of an Enterprise 
Architecture will be critical to ensure that each agency prioritizes 
its R&D investments in the manner that provides the maximum return on 
investment for the JPDO. The JPDO intends to provide a preliminary 
Enterprise Architecture by the summer of 2006.
    One of the significant ``mid-to-long-term'' technical challenges 
will be the implementation of automation platforms for strategic 4D 
trajectory management and tactical separation assurance. While NASA 
will need to provide sustained and focused research in these areas, 
ultimately it will be the JPDO that must manage the transfer of the 
technology to the FAA for system development and implementation.

Conclusion

    In conclusion, NASA's ARMD is investing in long-term, cutting-edge 
research in areas that are appropriate to NASA's unique capabilities in 
order to enable the NGATS vision. We have aligned our research 
portfolio to meet this challenge with an efficient allocation of 
resources and an unwavering commitment to technical excellence.

                      Biography for Lisa J. Porter
    Lisa J. Porter, the Associate Administrator for the Aeronautics 
Research Mission Directorate, leads the Agency's aeronautics research 
efforts and is co-lead in the development of a national aeronautics 
policy in cooperation with other government agencies. She most recently 
served as the NASA Administrator's senior adviser for aeronautics.
    Porter came to the agency following her service as senior scientist 
in the Advanced Technology Office of the Defense Advanced Research 
Projects Agency in Arlington, Va. While there, she created and managed 
programs in diverse technical areas ranging from fundamental scientific 
research to multi-disciplinary systems-level development and 
integration efforts. Two of her programs focused on developing physics-
based predictive design tools that leveraged advanced computational 
fluid dynamics.
    The Helicopter Quieting Program, focused on developing the 
capability to design quiet rotor blades with minimal impact on aircraft 
performance. The Friction Drag Reduction Program focused on developing 
the capability to implement friction drag reduction technologies on 
naval platforms.
    Porter has a Bachelor's degree in nuclear engineering from the 
Massachusetts Institute of Technology, Cambridge, Mass., and a 
doctorate in applied physics from Stanford University, Calif. She was a 
lecturer and postdoctoral research associate at MIT. She received the 
Alpha Nu Sigma MIT Student Chapter Outstanding Teaching Award in 1996. 
She has authored more than 25 publications in a broad range of 
technical disciplines including nuclear engineering, solar physics, 
plasma physics, computational materials modeling, explosives detection 
and vibration control of flexible structures.

    Mr. Ehlers. [Presiding] Thank you, Dr. Porter. And before 
we proceed, I apologize. Before the shuffle up here, Mr. Hall 
asked me to fill in temporarily and to give you his apologies. 
He had to step to another meeting and I expect he will be back 
shortly. I am truly filling in, in sense, improperly. I am not 
even a Member of the Subcommittee, although I am a Member of 
the Full Committee, but I have a strong interest in this topic, 
partly because I am also in the Aviation Subcommittee. I was 
told I could give an opening statement. I don't want to 
interrupt by getting into a long statement, but I simply will 
say that I recognize and appreciate, and have for some time, 
the incredible importance of the topic today and the work that 
you are doing. The public doesn't realize that, but it is 
absolutely essential. We have an outstanding safety record, but 
we have some very major looming problems, which the airlines, 
given their current financial situation, are not able to handle 
on their own. Neither are the airports. And it is going to take 
an overall federal program.
    I was amused last week when I got on a flight and the pilot 
went through the usual welcoming procedure and he said, we know 
that you have a choice of many different bankrupt airlines and 
we thank you for choosing ours. So that indicates the financial 
situation we are dealing with. What makes it worse is that we 
in the government, and I--by that I include the Congress as 
well, but also the Administration, we have been starving the 
FAA in a number of areas. We have--although we have given a lot 
of money to the Department of Transportation for surface 
transportation, it is a notably small amount of money set aside 
for research and policy planning, and I am sure you recognize 
that as well, Mr. Shane.
    In addition, there is--there are some major looming 
problems on the horizon in terms of capacity, and I am less 
worried about airport capacity than I am about airspace 
capacity, particularly if the very light jet movement takes off 
the way people thinks it will and begins making use of some of 
the smaller less used airports, we are going to have an 
entirely different air traffic situation to deal with. It is 
not impossible. It may not even be hard, but it takes resources 
to plan that. And it is because of all these different things 
happening in a poor economic climate, both within the industry 
and the Nation and particularly the government. Your job is 
going to be very, very difficult, and I hope the public 
realizes what is at stake here and the importance of doing it. 
We have an outstandingly low accident record in this country. 
Even the record for general aviation has gone down remarkably 
the last several years, and I am pleased--they will be at the 
table, although I would rather have them in a more active role 
than being observers, but it is very important for them to be 
there as well, because that is where a lot of the growth in 
traffic is going to come from.
    So we have our work cut out for us, and you, especially, 
have your work cut out for you. I am looking forward to the 
product and I am just very thankful that you are here to tell 
us what some of the issues are going to be.
    With that we will proceed. Mr. Pearce.

   STATEMENT OF MR. ROBERT A. PEARCE, ACTING DIRECTOR, JOINT 
       PLANNING AND DEVELOPMENT OFFICE, FEDERAL AVIATION 
                         ADMINISTRATION

    Mr. Pearce. Thank you for the opportunity to testify with 
Under Secretary Shane and the other distinguished witnesses 
today. I would like to thank you, Mr. Chairman, and the other 
Members of the Committee for the opportunity as well. This 
committee has been with us every step of the way, even before 
the enactment of Vision 100, and we are most grateful for that 
continued leadership and support. Under Secretary Shane 
provided an excellent overview of our progress to date and a 
glimpse of what that future system, it will look like as we 
begin this transformation.
    I am going to give you the bottom line. The bottom line is, 
we have outlined a credible future system. We have done 
modeling and simulation to show that we--that future system can 
in fact meet the kind of goals that we outlined in the 
Integrated Plan, capacity and otherwise. We have done the road 
mapping to show what the pathway is to that future system, and 
we have programs now that are on that roadmap. In fact, as 
Under Secretary Shane mentioned, in the present fiscal year 
2007, there are some critical initial investments on that 
roadmap. One is Automatic Dependent Surveillance Broadcast, 
which is a new more capable means of surveillance that depends 
on aircraft broadcasting its position to provide that 
information into the surveillance system. That capability, 
together with other capabilities such as RNP, Required 
Navigational Performance, will allow us to do things like 
reduce separation standards, eliminate low visibility as a 
constraint system and address critical safety issues such as 
runway incursions.
    There is also the System Wide Information Management that 
was mentioned as well. This program is going to create a 
network approach to information management throughout the 
system. Today the system is very much driven by point-to-point 
communications, lots of hand-offs. What we want to do is create 
a system that overlays a network. We publish and subscribe 
information. More information is available to more players in 
the systems. It provides common situation awareness. In fact, 
this last year, we did a demonstration of just that. In the 
Washington--we network together most of the surveillance, air 
surveillance systems across DOD, DHS and FAA so that we could 
provide a common picture to all of those users, so that we 
could provide a mechanism for collaboration and communication 
among those operators, and make better decisions. So it is 
absolutely a critical key to the future system and that is now 
in the budget as well.
    We are especially pleased with the progress NASA has made 
towards re-planning its program to be aligned with NGATS. I 
have to say, without that research, some of the more 
challenging high payoff aspects of the NGATS vision will go 
unrealized. I certainly that hope that any doubts that this is 
real are being dispelled. NGATS is certainly for real. The JPDO 
is on the job and doing business.
    Today, I would like to provide the Subcommittee a brief 
snapshot of some areas where I believe we can make significant 
process--progress in the coming year and contribute to the 
transformation process. In fact, I think this year is really a 
breakthrough year for the JPDO. We have done a lot of laying 
the groundwork over the last several years, built some momentum 
and now we need to really take advantage of that hard work.
    So first, I want to say that we have really built what I 
think is a remarkable team, with incredible depth, focus and 
sense of purpose. Using the Vision 100 authorization that was 
given to us, we did create the NGATS Institute to bring the 
private sector on board, as was mentioned earlier, and we now 
have nearly 200 private sector participants on the IPTs and we 
are putting them to work. We are--we have already tasked the 
institute, together with the IPTs, to help us build the 
detailed technical definition of NGATS, building on the--what 
you have seen in the progress report that outlined what that 
future system looks like. That technical definition is going to 
raise as many questions as it answers, however, because we 
don't know what the future system is ultimately going to look 
like at this point. So we are also using the institute to 
answer some of those questions. So for example, we know 
satellite navigation is going to be a key capability for the 
future. We also know that we are going to need other 
navigational systems to make sure we have a fully robust system 
for the country. WE need to do the trade-offs and the 
evaluations on what the options are and have the institute 
bring that back to us so we can make decisions in that regard. 
So that is just an example of the kind of things we are going 
to have the institute doing.
    Under Secretary Shane also mentioned the unprecedented 
cooperation amongst the NGATS partner agencies. It is 
absolutely critical that we have that partnership. One of the 
elements is the alignment of resources, the alignment of 
programs across the government. WE made an initial effort last 
year and saw some real success in the fiscal year 2007 budget, 
as I just mentioned, with respect to ADS-B, SWIM, the NASA 
program. In additional, I would like to mention that we are 
working very hard on coordinating the weather research across 
Commerce, DoD, FAA, NASA. We are also coordinating the System 
Wide Information Management, the network centric operations 
that I mentioned earlier, across DoD, DHS and FAA as well. So a 
lot of interagency activity is ongoing right now to help 
coordinate and help align these important activities.
    This year we are already transmitted to the agencies what 
we believe the right portfolio is for the fiscal year 2008 and 
out budgets. We will work with the agencies over the next 
several months to hone that portfolio, value it, do cost 
benefit analysis and so forth to come to a final resolution on 
what we ought to be investing in early in the transformation.
    We have two very important projects scheduled for release 
and public comment and vetting this summer. One is the concept 
of operations that will put a lot more meat on the bones of 
what we transmitted to you in the progress report from a couple 
weeks ago. Over time we will continue to build out this concept 
of operations. Initially, it will be aircraft movement through 
the system. The next generation will include how passengers 
will move through airports and facilities. And finally it will 
include all the key aspects of the air transportation system.
    In addition, we will release the first version of the 
enterprise architecture. It will contain more detail at 
operations level. Ultimately, it will evolve and include 
operational functional performance requirements that will 
essentially fully define the future system. That blueprint is 
what will allow decision-makers to put together the programs 
and help us transition to the next generation system, in a 
consistent and coordinated and cost-efficient integrated 
manner. It is absolutely key to achieving our mission goals. 
Admittedly, this is a first cut. This is a very interim 
process. It is going to take time. These are extremely--it is 
an extremely complex system. It is going to take time to fully 
develop that. In its first iteration, as I said before, will 
probably contain more questions than answers, but doing that 
will help us prioritize those questions, prioritize the issues, 
prioritize the research, get the debate underway, and really 
bring forward very needed enterprise engineering integration 
and discipline into all of this so we can go about doing this 
in a very cogent way.
    We need to understand the cost associated with NGATS and as 
we build the CONOPS and the architecture, we will be better 
able to do that. And under the leadership of Administrator 
Blakey and with the help of our institute partners, we are, in 
fact, convening in late April the first NGATS investment 
analysis workshop. It will be the first of many. We will start 
to develop the basis and assumptions for cost estimates for the 
near-, mid-, and long-term. The institute will host these 
workshops and bring together experts together with our experts 
to get going on this important task. I would say that we will--
we really want to get some clarity to our near-term cost 
estimates and then, over time, understand what the long-term 
might look like, depending on the various options that are 
available to us.
    Finally, I would like to say that we are taking on a great 
international focus. We have--because this is a global system, 
it is going to have to be globally harmonized, so we are 
starting to reach out to our international partners. We do have 
a strategy in that regard. We have a global harmonization IPT 
that is taking the lead for us. So we are actively engaged with 
Europe and EUROCONTROL and starting to discuss how we would 
cooperate with their SESAR initiative, which is a similar 
initiative to the JPDO and NGATS. There is been a long history 
of cooperation with Europe and I am sure that will serve us 
well in the future. Beyond Europe, we are also starting to 
establish cooperative activities with Japan and China. We just 
got back from Japan a few weeks ago, discussing having a 
coordinating committee with them. And in a few weeks we will be 
heading off to China to establish a coordinating committee with 
them. Our work is cut out for us. It is a big globe and it is a 
small JPDO, but we do have a plan for getting out to the--and 
working this with the entire air traffic--air transportation 
community across the globe.
    This concludes my statement. I believe we are really on the 
right track, making solid progress towards delivering a plan as 
well as the system itself. If we stay focused, manage risk and 
maintain the kind of partnership that we have really striven 
hard to build up over the last couple years, I am convinced 
that we will succeed. I will be happy to answer any questions 
at the appropriate time and I thank you very much for having 
the hearing and for having me testify.
    [The prepared statement of Mr. Pearce follows:]

                 Prepared Statement of Robert A. Pearce

    Thank you for this opportunity to testify with Under Secretary 
Shane at today's hearing. Let me add my thanks to you, Mr. Chairman and 
Ranking Member Udall and the entire Subcommittee. You have been with us 
every step of the way--even before the enactment of Vision 100. We are 
most grateful for your continued leadership and commitment to this 
historic effort.
    Mr. Chairman, Under Secretary Shane provided an excellent overview 
of our progress to date and a glimpse into the near future as we put 
into place such key transformational building blocks, as ADS-B and 
SWIM--both of which will deliver Next Generation capabilities and 
benefits. I hope any lingering doubts have been dispelled; the NGATS is 
for real and we mean business.
    And today, I would like to provide the subcommittee with a brief 
snapshot of five key areas where I believe we can also make significant 
progress in the coming year and contribute to the transformation 
process. Indeed, I see 2006 as a breakthrough year for the Next 
Generation System initiative and the JPDO. All of the initial hard work 
is starting to pay off and we must now sustain the momentum generated 
in 2005.
    First, we are building a remarkable team with incredible depth, 
focus and sense of purpose. Following the Vision 100 playbook, this 
unique public/private partnership is working together to make the NGATS 
vision a reality. Through the NGATS Institute, we have now recruited 
and placed on JPDO's eight Integrated Product Teams 200 of the best and 
brightest individuals from 70 different organizations. In 2006, we will 
expand this participation; and it can't come too soon.
    We have already begun tasking the Institute and IPTs with real work 
that has a direct impact on the Next Generation System. For example, we 
know that satellite navigation will be a key enabling technology. But 
we also know that the U.S. must take definitive action this year on a 
GPS backup, as Europe must similarly do with Galileo. We have now asked 
the Institute to perform the research and recommend a fall-back mode, 
whether it's LORAN or another technology.
    And under the leadership of Administrator Blakey, the JPDO is 
convening on April 19-20th the first NGATS Investment Analysis Workshop 
to develop the basis for cost estimates for the initiative's near-, 
mid-, and long-term development. We have asked the Institute to recruit 
the needed experts from across aviation to make this critical endeavor 
a success.
    Second, Under Secretary Shane spoke about the unprecedented 
cooperation among the NGATS partner agencies. One critical part of that 
effort is the alignment of activities and resources towards the Next 
Generation System. To this end, in early summer of 2006, JPDO will 
provide thorough FY 2008 planning and programming guidance to each of 
the participating agencies--a major milestone. That way we are all 
pulling together and maximizing investments.
    Third, using this guidance, we can in turn create and implement 
portfolio management and build business cases against it. This will 
allow us to begin moving beyond the FAA's Operational Evolution Plan to 
the Next Generation System.
    Fourth, we have two very important products scheduled for release 
and public comment and vetting this summer. The first is the Concept of 
Operations which describes how the future system is operated and how we 
move passengers from airport curb to airport curb.
    We will also release the first version of an Enterprise 
Architecture that will contain Concepts of Use. This high-level 
blueprint will help decision-makers better understand the complexity of 
operations and allow us to successfully transition to the Next 
Generation System in a consistent, coordinated, cost-efficient and 
integrated manner. It is key to achieving mission goals. Admittedly 
this first cut will contain more questions than answers, but it will 
help foster greater debate and drive research and a much needed 
enterprise engineering integration discipline.
    Fifth, JPDO will take on a greater international focus. To help 
ensure global inter-operability, we are actively engaged in a number of 
cooperative activities with EUROCONTROL, such as a forthcoming meeting 
where we will compare NGATS and SESAR technology and concepts of use. 
NASA is also working closely with EUROCONTROL to coordinate R&D 
activities. In addition, EUROCONTROL is sending over a senior technical 
representative whose work will involve coordination of programs such as 
SESAR. And beyond Europe, JPDO is beginning to establish cooperative 
activities with Japan and China. Our work is clearly cut out as more 
countries transform their ATM systems.
    Mr. Chairman, this concludes my statement. I believe we are solidly 
on the right track and making solid progress towards delivering the 
Next Generation System. If we stay focused and manage risk, I am 
convinced we will succeed. I would be happy to answer your questions. 
Thank you.

                     Biography for Robert A. Pearce
    Prior to becoming the JPDO Deputy Director, Bob Pearce was 
responsible for strategic planning and analysis and top-level 
requirements definition for NASA's Aerospace Technology Enterprise. As 
such, he led the Enterprise's strategic management efforts, ensuring 
the development and maintenance of long-term strategic goals, 
investment strategies, development of responsive programs, and 
evaluation of program progress against the strategic goals.
    Previously, he held various program management positions within the 
Enterprise, primarily focused on high-performance aircraft systems and 
experimental flight research. Before joining NASA, Bob was employed by 
Grumman Corporation as a design aerodynamics engineer, working on 
advanced military aircraft and concepts, including the X-29 forward 
swept wing demonstrator.
    In addition, Bob worked with the Department of Transportation to 
examine the technology, policy and economic issues associated with new 
technologies for short-haul inter-city transportation.

    Mr. Ehlers. And thank you very much. Next we turn to the 
people who always know what we are doing wrong, the inspector 
general, Mr. Dobbs.

 STATEMENT OF MR. DAVID A. DOBBS, ASSISTANT INSPECTOR GENERAL 
  FOR AVIATION AND SPECIAL PROGRAM AUDITS, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Dobbs. Thank you. Mr. Chairman and Members of this 
subcommittee, I appreciate the opportunity to discuss the JPDO 
and----
    Mr. Ehlers. Is your microphone on?
    Mr. Dobbs. I think so, yeah.
    Mr. Ehlers. Can you pull it closer, please?
    Mr. Dobbs. Is this better?
    Mr. Ehlers. Yes.
    Mr. Dobbs. Okay. I appreciate the opportunity to discuss 
the JPDO and plans for the next generation system. You have 
heard testimony already about the JPDO's important mission to 
develop a vision for the Next Generation Air Transportation 
System and coordinate diverse agency research efforts. Today I 
would like to limit my testimony to three points regarding the 
JPDO.
    First the role the JPDO has in leveraging resources for the 
next generation system. While there is considerable debate 
about how to finance FAA, there is almost universal agreement 
that changes are needed to meet the demand for air travel. Last 
year over 700 million passengers used the system and this 
number is forecasted to grow to over one billion by 2015. The 
current system was not designed to handle that level of 
traffic. A multi-agency approach is critical for a number of 
reasons besides enhancing capacity. One, FAA does not conduct 
much long-term research. Almost 70 percent of FAA's $130 
million request for research focuses on just safety research. 
Two, most of FAA's current $2.5 billion capital account focuses 
on keeping things running and not new initiatives, and only 
about 55 percent of that account actually goes for systems.
    Both NASA and FAA face budget reductions like a lot of 
agencies, but particularly for aviation research in their case. 
The key for the JPDO in today's deficit environment is 
leveraging scarce resources. Business as usual won't work to 
meet the demands for air travel and get new systems on line. 
Despite the tight budget, FAA is requesting funds in 2007 for 
two important efforts that have been discussed today already, 
AS--ADS-B and SWIM. Mr. Shane discussed these programs just a 
few moments ago. They are considered important building blocks 
for the next system. They are not new systems and we have seen 
them in previous budgets before. An important point here is 
that FAA will have to look at its existing acquisition 
portfolio and determine what modifications need to be made 
given JPDO's plans.
    My second point is what progress is being made--while--
excuse me--while progress is being made, considerable work 
remains to align agency budgets. Central to the JPDO's mission 
is the alignment of these--of resources. This is a complex 
task. Each agency conducts research principally for its own 
mission. A majority of the JPDO's work is done through 
integrated product teams, as you have just heard, that focuses 
on strategies to revamp the current system, such as NASA's work 
to develop the automated system to boost controller 
productivity. FAA has not planned nor budgeted for this type of 
research. Accordingly, NASA will need a much clearer picture of 
FAA's requirements and when prototypes will be needed to better 
support the JPDO. The JPDO expects to do much more on this 
front in time for the 2008 budget, as you have heard from Mr. 
Pearce. But today it is hard to assess alignment because JPDO's 
progress reports do not provide details on ongoing research 
projects, their budgets or other agencies.
    My third point focuses on what the actions needed to move 
forward. One is leadership. The position of the JPDO director 
is currently vacant. FAA needs to find the right person to lead 
this effort, particularly given that the JPDO has not authority 
to redirect agency resources. Second is developing and 
implementing mechanisms for alignment, which you have heard a 
little bit about today. The JPDO is working with the Office of 
Management and Budget to develop an integrated budget document 
that provides a single business case that will help align 
efforts. As part of this, the JPDO has promised to provide OMB, 
in the next several months, hopefully by this summer, an 
architecture for the next generation system, as well as a list 
of programs and other agency budgets it intends to leverage. 
This is important, because NGATS's architect will help support 
decisions, adjust plans, track commitments, and will also help 
define costs. However, until these actions are taken, it will 
be difficult for the Congress and aviation stakeholders to 
determine if the JPDO is leveraging the right research, if 
funding is adequate, or how projects will improve the U.S. 
transportation system and at what cost.
    Finally, conducting sufficient human factors research to 
support anticipated changes. The JPDO is planning to make 
fundamental changes in how the system operates and how 
controllers manage traffic. History has shown that insufficient 
attention to human factors can increase the cost of acquisition 
and delay much needed benefits. For example, problems in the 
late 1990s with FAA's Standard Terminal Automation Replacement 
System, also known as STARS, were directly traceable to not 
involving users early enough in the process. The JPDO also 
envisions changing the role to, the pilot's role, and 
accordingly, human factors will be extremely important.
    Mr. Chairman, that concludes my statement. I will be happy 
to answer any questions you or Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Dobbs follows:]

                  Prepared Statement of David A. Dobbs

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to testify on the Federal Aviation 
Administration's (FAA) Joint Planning and Development Office (JPDO) and 
the plans for the next generation air transportation system. Secretary 
Mineta has made these efforts a top priority.
    The JPDO was mandated by Congress to develop a vision for the next 
generation air transportation system (NGATS) in the 2025 timeframe and 
coordinate diverse agency research efforts. This office was established 
within FAA, and the National Aeronautics and Space Administration 
(NASA), the Department of Commerce, the Department of Defense (DOD), 
and the Department of Homeland Security are participating in the JPDO. 
Thus far, we have focused primarily on the JPDO's air traffic 
management efforts that involve NASA, DOD, and Commerce.
    There are a number of compelling reasons for moving toward the next 
generation air transportation system. The current air transportation 
system has served the Nation well but FAA reports that the current 
system (or business as usual) will not be sufficient to meet the 
anticipated demand for air travel or changes in the industry. Last 
year, over 700 million passengers used the system, and this number is 
forecasted to grow to over one billion by 2015. It is also important 
because much of FAA's current capital investment focuses on keeping 
things running--not new initiatives.
    In addition, there is an issue on the horizon that could have 
tremendous implications for air traffic control--micro-jets (relatively 
inexpensive aircraft that seat four to five people). FAA expects that 
over 100 micro jets will enter service next year, growing by 400 to 500 
per year through 2017.
    Because of the forecasted growth in air travel, the JPDO needs to 
continue to work on what can be done much sooner than the 2025 
timeframe. We made this point last year, and the JPDO is working on 
what new systems and procedures can be fast tracked. It will be 
important for the JPDO to show tangible benefits to airspace users from 
its efforts.
    Overall, we found that progress has been made with the JPDO since 
the office was established two years ago. The JPDO has established 
eight integrated product teams, set up an NGATS institute to interface 
with industry, and provided Congress with two progress reports. 
However, the cost and schedule of the next system remains unknown, and 
considerable work remains to align Agency budgets and plans.
    Today, I would like to focus on three points:

        <bullet>  The JPDO's critical role in leveraging resources for 
        the next generation air transportation system.

        <bullet>  Progress and challenges to date in aligning Agency 
        budgets and plans.

        <bullet>  Actions that will help the JPDO keep moving forward 
        in both the short- and long-term.

The Important Role the JPDO Has in Leveraging Resources for the Next 
                    Generation Air Transportation System

    The JPDO is expected to develop a vision for the next generation 
system and has established ambitious, much needed goals to accommodate 
three times more air traffic and reduce FAA operating costs. The JPDO 
also expects a shift from today's ground-based system to an aircraft-
based system and to obtain significant controller productivity 
enhancements through automation. To do so, a multi-agency approach--as 
outlined in Vision 100--is critical given the current deficit 
environment, competition for federal funds, and FAA's tight budget. 
Moreover, leveraging of scare resources is essential to get the most 
from each federal research dollar and prevent duplication.
    There are a number of other reasons why the JPDO is looking to 
other agencies, including the fact that FAA does not conduct much long-
term air traffic management research. Further, most of its current $2.5 
billion capital account goes for keeping things running (sustainment), 
not new initiatives.
FAA's FY 2007 Budget Request for Research, Engineering, and Development
    FAA is requesting $130 million for FY 2007, a decrease of $6.6 
million from last year's appropriated level of $136.6 million. This 
includes $18 million specifically for the JPDO. Figure 1 illustrates 
the makeup of the FY 2007 request by major lines of effort.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As shown above, almost 70 percent of FAA's research budget, or $88 
million, focuses on improving safety--not new air traffic management 
initiatives. This includes projects on fire safety and aging aircraft 
systems, which focus on preventing accidents and making them more 
survivable. The remaining funds are requested for efficiency, 
environmental research, and mission support efforts.
    FAA is also requesting research funds from its airport account for 
safety and efficiency issues. FAA is requesting $17.8 million in FY 
2007 for research in the areas of, among other things, airport pavement 
and airport markings. In addition, FAA is requesting $10 million in FY 
2007 for airport cooperative research projects with airports, including 
efforts to enhance safety and improve airport lighting.
Perspectives on FAA's Capital Account
    FAA's capital account--or the Facilities and Equipment (F&E) 
account--is the principal vehicle for modernizing the National Airspace 
System. It represents about 18 percent of the Agency's FY 2007 budget 
request of $13.7 billion. For FY 2007, FAA is requesting $2.5 billion 
for the F&E account, which is $50 million less than last year's 
appropriation. FAA has a long history of cost growth, schedule slips, 
and performance shortfalls with its air traffic control modernization 
efforts.
    As illustrated in Figure 2, only about 55 percent of FAA's FY 2007 
request for F&E (or $1.4 billion) will actually go for acquiring air 
traffic control systems. The remaining funds will be spent on 
personnel, mission support, and facilities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As we have noted in the past, the majority of FAA's capital account 
now goes for keeping things running (i.e., sustainment), not new 
initiatives. A review of the top 10 projects by dollar amount in the FY 
2007 request shows some projects will form important platforms for JPDO 
initiatives. For example, the $2.1 billion En Route Automation 
Replacement Program is replacing the current software and hardware for 
facilities that manage high-altitude traffic. Attachment A provides 
details on key, ongoing modernization programs that will likely play a 
role in JPDO efforts.
    However, the bulk of funds are requested for projects that have 
been delayed for years, as well as for efforts to improve or maintain 
FAA facilities or replace existing radars. It is important to recognize 
that FAA's existing investments will heavily influence NGATS 
requirements and schedule. FAA will have to assess how JPDO plans 
affect ongoing acquisition projects and determine which ones need to be 
accelerated or re-scoped.
    These are a number of reasons why there is so much discussion about 
the next generation air traffic management system. For example, over 
the last several years, FAA has deferred or canceled a number of 
projects as funding for the capital account has remained essentially 
flat. This includes efforts for a new air-to-ground communication 
system, controller-pilot data link communications, and a new satellite-
based precision landing system.
    Notwithstanding a tight budget, FAA is requesting funds for two 
projects in the F&E account that are considered ``building blocks'' for 
the next generation system and have potential for enhancing capacity 
and reducing delays. These are not new programs, per se, and have been 
under development or been funded in previous budgets.

        <bullet>  Automatic Dependent Surveillance-Broadcast (ADS-B) is 
        a satellite-based technology that allows aircraft to broadcast 
        their position to others. In FY 2007, FAA is requesting $80 
        million for this satellite-based technology. In prior budgets, 
        ADS-B was funded under the Safe Flight 21 Initiative, which 
        demonstrated the potential of ADS-B and cockpit displays in 
        Alaska and the Ohio River Valley. FAA expects to make a 
        decision about how quickly to implement ADS-B and at what cost 
        later this year. Airspace users will have to equip with the new 
        avionics to get benefits, and FAA may have to rely on rule-
        making initiatives to help speed equipage. This illustrates why 
        the JPDO must address complex policy issues as well as 
        research.

        <bullet>  System Wide Information Management (SWIM) is a new 
        network information architecture that will allow airspace users 
        to access a wide range of information on the status of the 
        National Airspace System and weather conditions securely and 
        seamlessly. It is analogous to an Internet system for all 
        airspace users. FAA is requesting $24 million for this program 
        in FY 2007.

FAA Has Historically Relied on NASA for Long-term Air Traffic 
        Management Research
    NASA makes a significant investment in aviation research and is 
requesting $724 million for aeronautics research in FY 2007, less than 
last year's appropriated level of $884 million. Although NASA is in the 
process of restructuring its aeronautics research portfolio, officials 
are committed to supporting JPDO efforts. Table 1 illustrates NASA 
investments in aeronautics research for FY 2005 and FY 2006, as well as 
its request for FY 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    FAA had close ties with NASA before the establishment of the JPDO, 
and we see this relationship continuing. FAA and NASA have different 
roles. While FAA focuses its research and development efforts (in both 
the research and capital accounts) on the near-term, NASA focuses on 
long-term, cutting-edge technologies. In fact, NASA has conducted the 
majority of long-term research for air traffic management. FAA has also 
looked to DOD in the past for developing aerospace concepts and 
technologies, including the Global Positioning System. Attachment B 
provides information on potential agency contributions to the JPDO and 
each agency's areas of expertise.

Progress Is Being Made in Coordinating Diverse Agency Efforts but 
                    Considerable Work Remains To Align Agency Budgets 
                    and Plans

    The law requires the JPDO to coordinate and oversee research that 
could play a role in NGATS. Central to the JPDO's mission--and making 
it an effective multi-agency vehicle--is alignment of agency resources. 
This is a complex task, and the law provides no authority for the JPDO 
to redirect agency resources.
    The Secretary of Transportation has played an important role in 
coordinating various efforts by chairing the Senior Policy Committee. 
This committee was established by Vision 100 and includes, among 
others, deputy secretary level representatives from Commerce and 
Homeland Security, as well as the Secretary of the Air Force. It also 
includes the FAA and NASA Administrators. This committee provides high-
level guidance, resolves policy issues, and identifies resource needs. 
Each participating agency conducts research tailored for its specific 
mission.
    The JPDO's March 2006 progress report to Congress outlined various 
accomplishments to date, including the establishment of multi-agency 
teams and the NGATS institute (a mechanism for interfacing with the 
private sector). However, the report did not provide details on 
specific ongoing research projects or funding that the JPDO expects to 
leverage at FAA or other agencies. Without this information, it is 
difficult to assess progress with alignment of budgets.
    The majority of JPDO's work is done through eight Integrated 
Product Teams (IPT) that focus on eight strategies, such as how to use 
weather information to improve the performance of the National Airspace 
System. The teams are composed of FAA, other federal agencies, and the 
private sector. Attachment C provides details on the JPDO's IPTs and 
their major areas of emphasis.
    The National Research Council recently examined JPDO plans and was 
critical of the IPT structure. The Council's report found that even 
though the teams have multi-agency participation, they are functioning 
primarily as experts in specific disciplines rather than as cross-
functional, integrated, multidisciplinary teams organized to deliver 
specific products. One of the report's recommendations was that the 
IPTs be reduced in number and made more ``product driven.'' Although we 
have not reached any conclusions on how to best structure the IPTs, we 
do agree that a more product-driven focus would be an important step 
forward.
    Our work on three important IPTs shows that there is considerable 
coordination but little alignment of agency budgets to date. Moreover, 
the IPT leaders have no authority to commit agency resources to JPDO 
efforts and often have no products other than plans. The following 
illustrates progress and challenges to date with the three IPTs we 
examined in detail.

        <bullet>  The Weather IPT is led by the National Oceanic 
        Atmospheric Administration (NOAA), an agency of the Department 
        of Commerce. FAA, NASA, DOD, and NOAA are all conducting 
        weather research tailored for their specific missions. Thus 
        far, this team's efforts have focused on contributions to FAA's 
        Traffic Flow Management Program (which assists traffic managers 
        to optimize air traffic by working with airlines). NOAA is also 
        helping the JPDO refine its concept of a fully automated 
        system. Integrating new, up-to-date weather forecast systems 
        into planned automation efforts will be challenging.

             We note that JPDO has not yet determined if a considerable 
        amount of applied research and development conducted by NOAA at 
        the Office of Atmospheric Research and the National 
        Environmental Satellite Data and Information Service could be 
        leveraged for next generation initiatives. We have shared our 
        concerns about effectively leveraging weather research with the 
        JPDO, which recognizes it can do a better job.

        <bullet>  The Shared Situational Awareness IPT is led by DOD. 
        All participating agencies are adopting network-centric 
        systems.\1\ As noted earlier, FAA is developing its own network 
        system called SWIM. While there are considerable opportunities 
        for leveraging net-centric efforts, there is also potential for 
        duplication of effort. Challenges here focus on taking an 
        approach pioneered by DOD and applying it specifically to air 
        traffic control to get benefits in terms of enhanced capacity 
        and delay reduction.
---------------------------------------------------------------------------
    \1\ A net-centric system uses Internet protocols to transfer data.

             An active role by DOD is vital because it is both a 
        provider and a consumer of air traffic services. Thus far, work 
        with this IPT has focused almost exclusively on maximizing 
        agency network capabilities in DOD, such as the Global 
        Information Grid, which is a net-centric communication system 
        DOD is developing for global use. Moreover, DOD's real-world 
        experiences and lessons learned in sharing data (from air and 
        ground systems) in actual operations and in real-time have not 
        been tapped and will prove invaluable in reducing cost and 
---------------------------------------------------------------------------
        technical risks in developing the next generation system.

        <bullet>  The Air Traffic Management IPT is led by NASA. It is 
        expected to play a key role by helping develop the automated 
        systems to boost controller productivity. FAA has neither 
        planned nor budgeted for this type of research. Major 
        challenges focus on establishing requirements and gaining a 
        full understanding of the risks associated with developing and 
        acquiring these new software-intensive systems before making 
        financial commitments. This is important because future 
        automation efforts will be a major cost driver for the next 
        generation system.

             We see potential for the most progress with coordination 
        and alignment between the JPDO and NASA. Even though NASA is 
        restructuring its aeronautical research program and spending 
        less than in the past, the JPDO and NASA are working on several 
        complex concepts for new automation systems and the timing of 
        research efforts. This work will be funded via NASA efforts 
        associated with ``airspace systems.'' However, experience shows 
        that NASA will need a much clearer picture of FAA's 
        requirements--and when prototypes would be needed--to better 
        support the next generation system.

Several Actions Are Critical for the JPDO To Make Progress in Both the 
                    Short- and Long-Term

    Key questions for FAA and the JPDO focus on what the new office can 
deliver, when, and how much it will cost. They are central questions in 
the discussion about how to best finance FAA and will shape the size, 
requirements, and direction of the capital program for the next decade. 
We understand that the JPDO is planning to conduct workshops with 
industry to help determine the costs, requirements, and milestones 
associated with the next generation system.
    Moving to the next generation system is important to meet the 
demand for air travel, change the way FAA provides services, and reduce 
Agency costs. However, it is also a high-risk effort, given the 
complexity of the task and the policy and regulatory issues that must 
be addressed. To make progress, several steps are needed.

        <bullet>  Leadership. The position of the JPDO Director is 
        currently vacant--FAA needs to find the right person to lead 
        this effort. The JPDO does not have authority to redirect 
        agency resources. The former JPDO director was also the 
        director of the Air Traffic Organization's (ATO) planning 
        organization. We think experience has shown that one person 
        cannot effectively do both jobs because of complex technical 
        issues and important policy decisions facing FAA and the JPDO. 
        Leadership will be important to bridge the gap between the 
        ATO's near-term planning horizon and the JPDO's longer-term 
        mission to transform the National Airspace System.

        <bullet>  Developing and Implementing Mechanisms for Alignment. 
        As noted earlier, much work remains to align agency budgets. 
        There is a need for mechanisms to help the JPDO align diverse 
        agency efforts over the long haul.

             The JPDO recognizes that more needs to be done and is 
        working with the Office of Management and Budget (OMB) to 
        develop an integrated budget document that provides a single 
        business case (a document similar to the ``OMB Form 300'') to 
        make sure efforts are indeed aligned.\2\ As part of this, JPDO 
        has promised to provide OMB in the next several months with an 
        architecture for the next generation system, as well as a 
        specific list of programs in other agency budgets it intends to 
        leverage. We will follow up on this step during our ongoing 
        audit.
---------------------------------------------------------------------------
    \2\ OMB Form 300 was established as a source of information on 
which decisions about budgetary resources consistent with 
Administration priorities, planning, management and use of capital 
investments are consistent with OMB policy and guidance.

             JPDO's ongoing efforts to develop an enterprise 
        architecture,\3\ or overall blueprint for the next generation 
        system, will help in setting goals, supporting decisions, 
        adjusting plans, and tracking agency commitments. The 
        architecture will also show requirements from FAA and the 
        Departments of Defense and Homeland Security and where various 
        agency efforts fit in the next generation system. It will prove 
        helpful in the future in resolving difficult policy decisions, 
        including who pays for what elements of the system.
---------------------------------------------------------------------------
    \3\ Enterprise Architecture can be viewed as a blueprint that links 
an enterprise's strategic plan to the programs and supporting systems 
in terms of interrelated business processes, rules, and information 
needs. This includes the transition from the ``as-is'' to the ``to-be'' 
environment.

             JPDO is taking an incremental approach to architecture 
        development and plans to have an initial version this summer. 
        However, considerable work remains to link current systems with 
        future capabilities and develop technical requirements, 
---------------------------------------------------------------------------
        particularly for new concepts for automation.

             Until these actions are taken, it will be difficult for 
        the Congress and aviation stakeholders to determine if the JPDO 
        is leveraging the right research, if funding is adequate for 
        specific efforts, or how projects will improve the U.S. air 
        transportation system and at what cost. Therefore, we think the 
        JPDO should include in its periodic reports to Congress a table 
        of specific research projects with budget data of other 
        agencies it is leveraging and how that ongoing research is 
        supporting the JPDO.

        <bullet>  Examining Barriers to Transforming the National 
        Airspace System That Have Impacted Past FAA Programs and How 
        They Can Be Overcome. Our work on many major acquisitions shows 
        the importance of clearly defined transition paths, expected 
        costs (for both FAA and airspace users), and benefits in terms 
        of reduced delays. This is particularly the case for 
        initiatives that call airspace users to equip with new 
        avionics.

             For example, FAA canceled the controller-pilot data link 
        communications program specifically because of uncertain 
        benefits, concerns about user equipage, cost growth, and the 
        impact on the Agency's operations account. The inability to 
        synchronize data link with other modernization efforts, such as 
        the multi-billion dollar En Route Automation Replacement 
        Program was also a factor.

             Other critical barriers to be overcome include how to 
        ensure new systems are certified as safe for pilots to use and 
        getting the critical expertise in place at the right time. 
        Problems with FAA's multi-billion Wide Area Augmentation System 
        (a new satellite navigation system) that led to cost growth and 
        schedule slips were directly traceable to problems in 
        certifying the new satellite-based system.

        <bullet>  Developing a Strategy for Technology Transfer. 
        Technology transfer--the movement of technology from one 
        organization to another--is a central issue for the JPDO 
        because the law envisions new capabilities developed by other 
        federal agencies (or the private sector) being transitioned 
        into the National Airspace System. The JPDO will have to pay 
        greater attention to this matter as it moves forward.

             Our past work shows that FAA has experienced mixed success 
        in transitioning systems developed by others into the National 
        Airspace System. For example, FAA ultimately abandoned work on 
        a new controller tool developed by NASA (the Passive Final 
        Approach and Spacing Tool) for sequencing and assigning runways 
        to aircraft because of complex software development and cost 
        issues. As we noted in our review of FAA's Free Flight Phase 1 
        Program, the use of ``technology readiness levels'' could be 
        useful to help assess maturity of systems and ease issues 
        associated with the transfer of technology. Both NASA and DOD 
        have experience with categorizing technical maturity. This 
        could help reduce cost, schedule, and technical risk with 
        implementing JPDO initiatives.

        <bullet>  Conducting Sufficient Human Factors Research To 
        Support Anticipated Changes. The JPDO is planning to make 
        fundamental changes in how the system operates and how 
        controllers manage traffic to accommodate three times more 
        aircraft in the system. Currently, the union that represents 
        controllers is not yet participating in JPDO efforts for a 
        variety of reasons.

             History has shown that insufficient attention to human 
        factors can increase the cost of acquisition and delay much 
        needed benefits. For example, problems in the late 1990s with 
        FAA's Standard Terminal Automation Replacement System were 
        directly traceable to not involving users early enough in the 
        process.

             The need for focused human factors research extends well 
        beyond the traditional computer-machine interface (such as new 
        controller displays) and has important workforce and safety 
        implications. For example, FAA expects the controller's role to 
        change from direct, tactical control of aircraft to one of 
        overall traffic management. There also will be significant 
        human factors concerns for pilots, who will be expected to rely 
        more on data link communications. It will be important to have 
        sufficient human factors analysis and studies to ensure that 
        the changes envisioned by the JPDO can be safely accommodated.

    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you or other Members of this subcommittee might 
have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachment C. Integrated Product Teams

    IPTs are multi-agency teams that are defining the specific 
concepts, and capabilities and coordinating the actions necessary to 
make possible the transformation in each of the eight strategies 
articulated in the NGATS Integrated Plan.

        1.  Develop Airport Infrastructure To Meet the Future Demand--
        FAA

        2.  Establish an Effective Security System Without Limiting 
        Mobility or Civil Liberties--DHS

        3.  Establish an Agile Air Traffic System--NASA

        4.  Establish User-Specific Situational Awareness--DOD

        5.  Establish a Comprehensive Proactive Safety Management 
        Approach--FAA

        6.  Develop Environmental Protection That Allows Sustained 
        Aviation Growth--FAA

        7.  Develop a System-Wide Capability To Reduce Weather 
        Impacts--Commerce/NOAA

        8.  Harmonize Equipage and Operations Globally--FAA

                      Biography for David A. Dobbs
    Mr. Dobbs was appointed to his current position with the Office of 
Inspector General, U.S. Department of Transportation, in February 2000. 
Mr. Dobbs is responsible for the overall management and supervision of 
auditing and evaluating activities relative to aviation programs, 
functions, and operations of the Department of Transportation.
    Prior to his current appointment, Mr. Dobbs was the Director of 
Aviation Operations Audits and prior to that the Director of 
Department-wide Audits with the Department of Transportation's Office 
of Inspector General. Mr. Dobbs has managed numerous reviews on FAA's 
Air Traffic Organization including personnel reform, ATC labor 
agreements, modernization efforts, and financing issues. In addition, 
Mr. Dobbs has directed a wide-range of reviews on FAA's safety 
oversight of the airline industry and the Agency airport improvement 
programs.
    Mr. Dobbs is a graduate of the University of Oregon and resides in 
Fairfax Station, Virginia.

    Mr. Hall. Mr. Dobbs, thank you very much and we will give 
you a chance to do that in just a little bit. I recognize now 
Mr. Mike Hudson, the Chairman of the Committee on Technology 
Pathways, Assessing the Integrated Plan for N-G-A-T-S, NGATS, 
the National Research Council. I will recognize you, Mr. 
Hudson.

  STATEMENT OF MR. S. MICHAEL HUDSON, CHAIRMAN, COMMITTEE ON 
   TECHNOLOGY PATHWAYS, DIVISION ON ENGINEERING AND PHYSICAL 
  SCIENCES, NATIONAL RESEARCH COUNCIL, THE NATIONAL ACADEMIES

    Mr. Hudson. I believe I have got the mike on. I think I do. 
As you noted, I am here, since I was the chair of NRC's 
committee assessing the JPDO plan. Before we address this, we 
looked at the two tasks that they had been assigned. One was 
the development of the plan itself, the other was to oversee 
and coordinate the necessary research among the federal and 
private--federal agencies and private industries. Our 
assessment was that they are working with limited authority and 
limited fiscal resources to get this job done during the period 
of time that we made our review. We thought that the integrated 
product teams involved all of the interested agencies, and it 
ensured that the people who had the responsibility for 
implementing pieces of the system were directly involved.
    These initials IPTs, the initial IPT structure addressed 
the complexity of the problem, but it was our feeling that they 
should eventually evolve into a more a operational product-
oriented group of IPTs. The--you asked the question, who is the 
ultimate--who is ultimately responsible for leadership and 
success. It was the Committee's assessment that strong 
leadership is required from the senior product--I am sorry--the 
senior policy committee and at the JPDO level, but the ultimate 
responsibility lies with the Secretary of Transportation.
    We were asked to comment on priorities. The committee felt 
that the--all of the priorities needed to be focused with the 
demand and the resulting increase in capacity that is required 
to meet the future demands. The operational concepts that we 
felt that the program needed to be prioritized under were 
airport operations, terminal area operations, and route and 
oceanic operations. There was the issue of global collaboration 
that came up. WE felt that vigorous U.S. leadership in 
implementing global collaboration is required to ensure the 
continued competitiveness of the U.S. industry. I would point 
out that the international language for ATC happens to be 
American English.
    In terms of technical and programmatic challenges, you 
asked us to--for the biggest near and midterm technical 
challenges and programmatic challenges, and then what needs to 
be done to address these. When we looked at the technical 
challenges, there wasn't one single large technical challenge 
like cold fusion or any other stealth technology that surfaced. 
It was a requirement to continue the core research in a broad 
field--in broad fields. If we had to identify two areas, we 
would have said automation and human factors were the two areas 
that could stand directed research. Those are key, we felt, to 
any future system.
    In terms of programmatic issues, our assessment was, in 
terms of resources, that currently they were inadequate, that 
there is a requirement for stable funding over a long period of 
time. We felt that the departments involved must also respect 
the stability, since we are dependent on the work of each of 
the independent departments to support the JPDO. And finally, 
there is a need for the public and private participation. The 
U.S. Government--none of the agencies involved make the 
equipment that is required to do the job, so ultimately there 
will have to be participation by the manufacturers and of 
course by the users themselves.
    In terms of organization, we had mentioned--I had mentioned 
earlier that the initial IPTs were important because they did 
involve the various agencies. But in the long-term, it was our 
feeling that those needed to be consolidated and aligned with 
the three operational phases of air transportation, in other 
words, become more product oriented as product teams, not 
specialized in safety and other areas, which are discipline 
areas. The--we did go on to say, though, that the multi-agency 
membership is positive and they have--and it has resulted in a 
high degree of awareness of the technical issues.
    Those were findings. They are available in the report that 
was published. We have provided you a summary of that report 
and a written testimony and we stand to answer questions as--at 
the appropriate time.
    [The prepared statement of Mr. Hudson follows:]

                Prepared Statement of S. Michael Hudson

Assessing the Integrated Plan for a Next Generation Air Transportation 
                                 System

    Good afternoon, Mr. Chairman, and Members of the Committee. Thank 
you for the opportunity to testify before you today. My name is Michael 
Hudson. I retired as Vice Chairman of Rolls-Royce North America in 
2002. I appear before you today in my capacity as Chair of the National 
Research Council's committee assessing the JDPO's Integrated Plan for a 
Next Generation Air Transportation System. The National Research 
Council is the operating arm of the National Academy of Sciences, 
National Academy of Engineering, and the Institute of Medicine of the 
National Academies, chartered by Congress in 1863 to advise the 
government on matters of science and technology.
    In early 2004, NASA requested that the National Research Council 
(NRC) establish the Committee on Technology Pathways: Assessing the 
Integrated Plan for a Next Generation Air Transportation System under 
the auspices of the Aeronautics and Space Engineering Board. The 
committee was charged with assessing the first edition of the NGATS 
Integrated Plan, which the JPDO submitted to Congress in December 2004 
(see <www.jpdo.aero>). The assessment committee met with staff from the 
JPDO and some of the integrated product teams (IPTs) that the JPDO has 
formed. Our committee's report was released in October of 2005.
    Transforming the air transportation system is essential to meet the 
needs of the traveling public and other system users, to sustain the 
Nation's economic growth, and to help the United States maintain 
continued global aviation leadership. The Federal Aviation 
Administration (FAA) Reauthorization Act of 2004, which directs the 
Secretary of Transportation to establish the Next Generation Air 
Transportation System (NGATS) Joint Planning and Development Office 
(JPDO), creates the opportunity for all federal agencies with a stake 
in aviation to bring their resources to bear on this critical issue. 
Previous initiatives to modernize the U.S. aviation system have enjoyed 
limited success. The JPDO's multi-agency approach affords new 
possibilities for overcoming the substantial barriers inherent in the 
significant undertaking of developing and deploying an NGATS. The 
Secretary of Transportation and the FAA Administrator have both been 
supportive of the JPDO through public statements and through direct 
involvement in the Senior Policy Committee, which oversees the work of 
the JPDO and provides interdepartmental coordination.
    The assessment committee considers the timely preparation of the 
first edition of the Integrated Plan to be a positive first step. Even 
so, substantial improvements in the Integrated Plan and the method by 
which it is being implemented are essential.
    The next edition of the Integrated Plan should clearly state that 
increased demand is the key driver that mandates implementation of 
NGATS. The JPDO should redirect its efforts to focus on development of 
a systematic, risk-based approach for achieving the primary objective, 
which is to resolve demand issues and increase capacity, while also 
satisfying enabling, interrelated requirements for safety, security, 
environmental effects, consumer satisfaction, and industrial 
competitiveness. The Integrated Plan should make sure that secondary 
objectives, such as alignment of existing interagency efforts, do not 
overshadow the primary objective of meeting increased demand.
    The JPDO should define operational concepts to satisfy future 
demand by phase of operation:

        <bullet>  airport operations

        <bullet>  terminal area operations

        <bullet>  en route and oceanic operations

    Operational concepts for airport operations will be needed for 
flight operations during approach, landing, and takeoff; for ground 
operations; and for curb-to-gate processing of passengers within the 
terminal.
    Operational concepts for terminal area operations will be needed 
for flight operations between the last en route waypoint and the 
initial approach waypoint at major airports. This includes multi-center 
operational concepts for terminal areas that are so close together that 
responsible traffic control centers should take a collaborative 
approach to traffic flow management.
    Operational concepts for en route and oceanic operations will be 
needed for aircraft operating between the terminal areas at their 
points of origin and destination, including aircraft operating in 
oceanic airspace. Operational concepts at this level should also 
encompass national traffic flow management.
    Even though the current IPTs have multi-agency membership, they are 
functioning primarily as experts in specific disciplines rather than as 
cross-functional, integrated, multi-disciplinary teams organized to 
deliver specific products that will improve operational capabilities of 
the air transportation system. To better support the core goal of 
meeting increased demand in each phase of operation, the JPDO's IPT 
structure should be realigned and simplified. All of the current IPTs 
(except for the Master IPT) should be disbanded and replaced with three 
new IPTs, one for each of the above operational concepts. Safety, 
security, weather, and other elements of the existing IPTs should be 
embedded in each of the three new IPTs, as appropriate, and the JPDO 
should establish goals related to cost, schedule, and level of 
performance that can be quantified using appropriate figures of merit.
    Adequate support for all core technologies and processes that will 
be included in NGATS is crucial to validate the Integrated Plan. In 
particular, the NASA administrator should continue--and the Senior 
Policy Committee and the JPDO should advocate for continuation of--
research on core NGATS technologies and processes. Likewise, the JPDO 
itself must receive adequate resources. The members of the Senior 
Policy Committee should ensure that the federal agencies they direct or 
represent allocate funding and staff to (1) provide the JPDO with the 
resources it needs to define NGATS and draw up an appropriate 
implementation plan and (2) ensure departmental and agency research in 
civil aeronautics is consistent with plans developed by the JPDO and 
endorsed by the Senior Policy Committee to enable and implement new 
operational concepts.
    The first edition of the Integrated Plan has little to say about 
implementation other than to acknowledge that the IPTs will need to 
address implementation and transition issues. Successful implementation 
of NGATS requires an Integrated Plan that does the following:

        <bullet>  Clearly addresses the needs of the traveling public, 
        shippers, and other system users, which vary with fluctuations 
        in the economy.

        <bullet>  Establishes a source of stable funding suitable for 
        development, implementation, and operation of NGATS, including 
        capital improvements.

        <bullet>  Proposes reforms in governance and operational 
        management that assure accountability and limit the effect of 
        traditional external influences. The interests of individual 
        stakeholders should be balanced with the common good in a way 
        that expedites the deployment of optimal technologies and 
        procedures and achieves the primary goal of meeting increased 
        demand.

        <bullet>  Defines an NGATS that efficiently interfaces with the 
        rest of the global air transportation system.

    The Secretary of Transportation, as Chair of the Senior Policy 
Committee, and the FAA administrator, as a member of the Senior Policy 
Committee, should help the JPDO accomplish each of the above goals by, 
for example, supporting jointly funded, collaborative research to 
define NGATS operational concepts suitable for global implementation. 
They should also lead the development of a proposal to adequately fund 
the development, implementation, and operation of NGATS.
    The assessment committee's overall guidance is summarized in the 
following recommendation:

    The Secretary of Transportation, the FAA Administrator, the rest of 
the Senior Policy Committee, and the JPDO should invigorate 
development, implementation, and operation of the Next Generation Air 
Transportation System, especially with regard to the development of 
core technologies and processes, as follows:

        <bullet>  Focus the work of the JPDO on development of a 
        systematic, risk-based approach for achieving the primary 
        objective, which is to resolve demand issues and increase 
        capacity while also satisfying enabling, interrelated 
        requirements for safety, security, environmental effects, 
        consumer satisfaction, and industrial competitiveness.

        <bullet>  Restructure the JPDO as a product-driven organization 
        with three coordinated operational concepts and three IPTs 
        focused on (1) airport operations, (2) terminal area 
        operations, and (3) en route and oceanic operations (plus the 
        Master IPT for systems integration and oversight).

        <bullet>  Consistently provide the JPDO and its IPTs with 
        strong, fully involved leadership and program management 
        capabilities, along with more full-time staff.

        <bullet>  Draw up a plan to establish a viable source of stable 
        funding and a governance structure suited to the Next 
        Generation Air Transportation System.

        <bullet>  Undertake a more vigorous effort to collaborate with 
        foreign governments and institutions, to include jointly 
        funded, collaborative research to define operational concepts 
        suitable for global implementation.

    Thank you for the opportunity to testify. I would be happy to take 
any questions the Committee might have.

COMMITTEE ON TECHNOLOGY PATHWAYS: ASSESSING THE INTEGRATED PLAN FOR A 
                    NEXT GENERATION AIR TRANSPORTATION SYSTEM

S. MICHAEL HUDSON, Chair, Rolls-Royce North America (retired), 
        Indianapolis, Indiana

THOMAS M. COOK, T.C.I., Dallas, Texas\1\
---------------------------------------------------------------------------
    \1\ Resigned May 7, 2005.

---------------------------------------------------------------------------
VAUGHN CORDLE, Airlineforecasts, LLC, Clifton, Virginia

JERALD M. DAVIS, Aviation Consultant, Daytona Beach, Florida

JOHN B. HAYHURST, The Boeing Company (retired), Bellevue, Washington

RICHARD MARCHI, Airports Council International-North America, 
        Washington, D.C.

AMY R. PRITCHETT, Georgia Institute of Technology, Atlanta

EDMOND L. SOLIDAY, United Airlines (retired), Valparaiso, Indiana

HANSEL E. TOOKES II, Raytheon International, Inc. (retired), Palm Beach 
        Gardens, Florida

IAN A. WAITZ, Massachusetts Institute of Technology, Cambridge

DAVID C. WISLER, GE Aircraft Engines, Cincinnati, Ohio
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for S. Michael Hudson
    Mike Hudson assumed the position of Vice Chairman, Rolls-Royce 
North America in early 2000 and continued in that role through his 
retirement in the spring of 2002. Prior to that he held the position of 
President, Chief Executive Officer of Rolls-Royce Allison following its 
acquisition by Rolls-Royce in 1995. He also served as Chief Operating 
Officer and Chief Financial Officer at various times during this 
period. Mr. Hudson was one of two managers who with Clayton Dublier 
acquired Allison Gas Turbine from General Motors Corporation. He has 
served on the management boards of several joint venture companies in 
which Rolls-Royce Allison has had interest. Mr. Hudson is a member of 
the Board of directors of the Indianapolis Water Company.
    Mr. Hudson has served as Chief Engineer for advanced technology 
engines, Chief Engineer for small production engines, supervisor of 
design for the Model 250 engines, Chief of Preliminary Design and Chief 
Project Engineer in vehicular gas turbines during his tenure at 
Allison. Mr. Hudson joined Allison in 1968 as the project engineer for 
the ATEGG core engine demonstrator program.
    A major re-engineering of the company was successfully completed 
including the implementation of the SAP ERP system during the period of 
his leadership. Also during this period the company executed the 
development and introduction into service of several models and series 
of military and commercial turbofan, turboprop and turboshaft engines 
as well as making significant technical advances in the area.
    Following graduation from the University of Texas with a degree in 
mechanical engineering, Mr. Hudson was employed by Pratt & Whitney 
Aircraft from 1962 to 1968 working in aircraft engine design, 
installation and performance, engine development and demonstration, and 
industrial and marine engine application engineering.

PROFESSIONAL AND CIVIC ACTIVITIES

    Mr. Hudson is a Fellow of the Society of Automotive Engineers and 
the Royal Aeronautical Society, an honorary Fellow of the American 
Helicopter Society and an Associate Fellow of the American Institute of 
Aeronautics and Astronautics.
    In professional society work, Mr. Hudson has been a member of the 
American Institute of Aeronautics and Astronautics Propulsion Committee 
and the American Helicopter Society Propulsion Committee and has been 
Chairman of the American Helicopter Society Board of Directors. Mr. 
Hudson has been a member of the Board of Directors of the National 
Association of Manufacturers and of the Society of Automotive 
Engineers, and has served as Chairman of the SAE's Aerospace Council, 
been on their Aerospace Program Office Committee and their Finance 
Committee. He has received the SAE Franklin W. Kolk Air Transportation 
Progress Award and the Royal Aeronautical Society British Gold Metal 
and has been associated with five Collier Trophy winning programs. He 
has served on the Aerospace Industries Association Technical Council 
and chaired their Civil Aviation Division. Publications range from 
technical work on propulsion to defense procurement and business 
initiatives.
    Mr. Hudson has served on Air Force and Department of Defense review 
groups including ad hoc committees to the Science Advisory Board, the 
Defense Science Board Task Force on Commercial Procurement, and the 
Industry Review Group of the Integrated High Performance Turbine Engine 
Technology Initiative.
    For NASA, Mr. Hudson was a member of the Aeronautics Advisory 
Committee and the Subcommittee on Rotorcraft Technology and chaired the 
Propulsion Aeronautics Research and Technology Subcommittee. He also 
served on the National Research Council Committee on Strategic 
Assessment of the U.S. Aeronautics Program, the Committee on 
Aeronautics Research and Technology for Environmental Compatibly, the 
Committee on Aeronautics Research and Technology for Vision 2050 and 
the Committee on NASA's Revolutionize Aviation Strategic Plan and is a 
member of their Aeronautics and Space Engineering Board.
    Mr. Hudson is on various local university and civic boards and has 
chaired or been a member of charitable fund raising activities. He has 
served as a Visiting Professor at Cranfield University in the United 
Kingdom and is a member of the Board of Trustees of Marian College.

    Mr. Hall. Thank you very much, Mr. Hudson. At this time I 
recognize Dr. Gerald Dillingham, Director of Civil Aviation 
Issues, Government Accountability Office. And I will say at 
this time, since we are approaching the last witness, that I 
want to thank every one of you and we are aware of the fact 
that you are in the midst of a study on the JPDO, and started 
sometime last fall and I appreciate the efforts that all of you 
put in on it. We have seen an early draft of it and it seems to 
be very thorough and I think--I want to thank you, Dr. 
Dillingham, and thank others. It seems like every one of you 
have had a little bit of push and a thrust in it. I do 
appreciate it and we recognize you, Dr. Dillingham, to close 
out the panel's----

   STATEMENT OF DR. GERALD L. DILLINGHAM, DIRECTOR, PHYSICAL 
    INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Dillingham. Thank you, Chairman Hall, Mr. Udall, Mr. 
Ehlers, and Members of the Subcommittee. At your request, the 
GAO has been studying how the JPDO has organized itself and the 
planning activities that have been undertaken for the Next 
Generation Air Transportation System. You asked that we examine 
the status of the JPDO's activities in three areas. First, to 
what extent has the JPDO been successful in getting the partner 
agencies to work together and align their resources? Second, 
how is JPDO involving stakeholders in the planning process? And 
third, to what extent is the JPDO conducting the technical 
planning necessary to develop the NGATS? This afternoon my 
testimony will highlight some of our key preliminary findings 
and identify some potential challenges as the JPDO moves 
forward.
    With regard to getting the partner agencies to work 
together and align resources, we found that the JPDO is 
employing several practices in this area that have been shown 
to be effective in facilitating collaboration among federal 
agencies. As you have already heard, the JPDO is leveraging 
resources by staffing its organization with employees of the 
partner agencies. JPDO has also reviewed the partner agencies' 
R&D programs to identify early opportunities to leverage 
ongoing or planned activities that could support NGATS. The 
office has also begun to work with OMB to develop a systematic 
way to consider NGATS as a program rather than disconnected 
line items in separate agency budget requests. By using these 
and other practices to promote collaboration among the 
agencies, we think that the JPDO has gotten off to a positive 
start in this area.
    However, there are some potentially important challenges 
also in this area. For example, maintaining this collaboration 
over the long-term. This challenge may become a serious issue 
as the JPDO moves further along in its planning efforts, where 
it may require more staff time and other resources from the 
partner agencies. Another potential challenge for JPDO will be 
to obtain adequate resources in a timely fashion to be able to 
conduct the activities such as needed research and 
demonstration projects, to develop tools and to test concepts. 
We found, in past reviews of ATC modernization, that the lack 
of adequate funds being available in a timely fashion was an 
important contributing factor to some modernization projects 
being years behind and costing millions over budget.
    Mr. Chairman, with regard to the Subcommittee's second area 
of concern, the actions that the JPDO has taken to ensure 
adequate involvement of the stakeholders in the planning 
process, we found that the JPDO has incorporated federal and 
non-federal stakeholders throughout its organization. However, 
one of the most critical challenges in this area is that the 
current air traffic controllers are not participating in the 
JPDO. We found that when key stakeholders were not involved 
throughout the modernization process, it can be a major 
contributing factor to significant delays in implementing new 
technologies and billions of dollars in cost overruns.
    Another potential challenge is convincing industry 
stakeholders that the government is fully committed to NGATS. 
There have been cases in the past where FAA has asked industry 
to equip for a new technology or procedure, but subsequently 
canceled the program or was significantly delayed in deploying 
the technology or deploying the necessary procedures. The 
financial condition of the aviation industry today does not 
leave much room for investments that do not yield a benefit for 
them in the short-term.
    Mr. Chairman, I would like to turn now to the 
Subcommittee's final area of concern, which is the extent to 
which JPDO is conducting the technical planning needed to 
develop NGATS. We found that the JPDO is addressing the 
technical planning needed to develop NGATS by assembling a 
suite of models to analyze the interactions among system 
performance parameters, demand and economic factors. However, 
there is a critical gap in the technical planning area, that 
is, extending some of the human factors modeling that JPDO has 
begun with regard to air traffic controller workload, to look 
at how the shift in workload from air traffic controllers to 
pilots will affect pilot performance. Any shift in workload 
from air traffic controllers to pilots is a critical issue, 
because a key premise of the NGATS is that many functions that 
the air traffic controllers now conduct will be performed by 
pilots in the future. JPDO is also developing an enterprise 
architecture, or blueprint, for NGATS. We found that the JPDO 
is using a phased approach to develop the enterprise 
architecture. We think this is a reasonable approach and is 
similar to the build a little, test a little approach which we 
have advocated for FAA's current ATC modernization program.
    Mr. Chairman, we believe that in the final analysis, the 
success of the JPDO and the broader NGATS is a shared 
responsibility of the JPDO partner agencies, industry and other 
stakeholders, as well as the Congress. These responsibilities 
are substantial, and failure to perform by any one of these 
stakeholders will significantly affect the JPDO's chances of 
planning for a system that will accommodate a threefold 
increase in airspace capacity by 2025. Thank you, Mr. Chairman. 
That concludes my statement.
    [The prepared statement of Dr. Dillingham follows:]

               Prepared Statement of Gerald L. Dillingham

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to participate in today's hearing to 
discuss the status of the Joint Planning and Development Office (JPDO) 
after its first two years of existence. The health of our nation's air 
transportation system is critical to our citizens and economy. However, 
the current approach to managing air transportation is becoming 
increasingly inefficient and operationally obsolete. In November 2002, 
the congressionally chartered Commission on the Future of the United 
States Aerospace Industry recommended transforming the U.S. air 
transportation system as a national priority.\1\ Transforming the 
system to accommodate what is expected to be three times the current 
amount of traffic by 2025, providing adequate security and 
environmental safeguards, and doing these things seamlessly while the 
current system continues to operate, will be an enormously complex 
undertaking.
---------------------------------------------------------------------------
    \1\ Commission on the Future of the United States Aerospace 
Industry, Final Report (Nov. 2002).
---------------------------------------------------------------------------
    In 2003, Congress passed the Vision 100--Century of Aviation 
Reauthorization Act, which created JPDO within the Federal Aviation 
Administration (FAA) to manage work related to the creation of a ``next 
generation air transportation system'' (NGATS). JPDO has responsibility 
for coordinating the research efforts of its partner agencies--the 
Departments of Transportation (DOT), Commerce (DOC), Defense (DOD), and 
Homeland Security (DHS); FAA; and the National Aeronautics and Space 
Administration (NASA). JPDO is also working with its final partner 
agency--the White House Office of Science and Technology Policy--to 
coordinate funding with the Office of Management and Budget. 
Additionally, JPDO has responsibility to consult with the public; to 
coordinate federal goals, priorities, and programs with those of 
aviation and aeronautical firms; and to ensure the participation of 
stakeholders from the private sector, including commercial and general 
aviation, labor, aviation research and development entities, and 
manufacturers. JPDO is jointly funded through FAA and NASA. The JPDO 
Director reports to the FAA Administrator and to the Chief Operating 
Officer of FAA's Air Traffic Organization.\2\
---------------------------------------------------------------------------
    \2\ The Air Traffic Organization is FAA's business unit that is 
responsible for operating, maintaining, and modernizing the Nation's 
current air traffic control system.
---------------------------------------------------------------------------
    Vision 100 directed JPDO to develop an integrated plan for the 
NGATS and to include in the plan, among other things, a vision 
statement for an air transportation system that meets potential air 
traffic demand by 2025; a description of the demand and required 
performance characteristics of the future system; and a high-level, 
multi-agency roadmap and concept of operations for the future system. 
Key tenets of the plan are transitioning from the current largely 
ground-based navigation system to one that is more focused on aircraft 
and satellite-based navigation, and automating many of the routine air 
traffic control functions. In addition, the integrated plan discusses a 
strategy to harmonize the NGATS with equipage and operations around the 
world to enhance safety and efficiency on a global scale. As directed 
by Vision 100, the FAA Administrator provided this integrated plan to 
Congress in December 2004 and issued the first annual progress report 
earlier this month.
    My statement today provides preliminary results from our ongoing 
study of the status of JPDO and focuses on three specific questions. 
(1) To what extent is JPDO facilitating the federal interagency 
collaboration and aligning the human and financial resources needed to 
define and perform the centralized planning function for the detailed 
implementation of the NGATS? (2) What actions or initiatives has JPDO 
implemented to ensure adequate involvement of stakeholders in the 
planning process? (3) To what extent is JPDO conducting the technical 
planning needed to develop the NGATS? My statement is based on our 
analysis of documents provided by JPDO and its partner agencies; the 
perspectives of agency officials and stakeholders with whom we have 
spoken; the results of a panel of experts that we convened earlier this 
month; and our review of relevant literature, including the integrated 
plan and the progress report. We also draw upon our prior work on FAA's 
national airspace system modernization program, which we have listed as 
a high-risk program since 1995. To assess JPDO's prospects for 
facilitating collaboration among its partner agencies, we compared its 
practices to those that we have found to be effective in facilitating 
other federal interagency collaborative efforts.\3\ We also reviewed 
the National Research Council's 2005 report on JPDO, which provided a 
technical assessment of the research, development, and technology 
components of JPDO's integrated plan.\4\ In addition, we reviewed 
relevant documents and interviewed officials and stakeholders regarding 
Europe's effort to harmonize and modernize its air traffic management 
system. Later this year, we expect to issue a detailed report that will 
provide our assessment of the status of JPDO's efforts as it works to 
develop the NGATS. We are performing our work in accordance with 
generally accepted government auditing standards.
---------------------------------------------------------------------------
    \3\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration Among Federal Agencies, GAO-06-15 
(Washington, D.C.: Oct. 21, 2005).
    \4\ National Research Council, Technology Pathways: Assessing the 
Integrated Plan for a Next Generation Air Transportation System 
(Washington, D.C.: 2005).
---------------------------------------------------------------------------
    In summary:

        <bullet>  JPDO is implementing a number of practices that our 
        work has shown facilitates collaboration among federal 
        agencies, but faces a challenge in maintaining this 
        collaboration over the long-term. These practices include 
        defining and articulating a common outcome, establishing 
        mutually reinforcing or joint strategies to achieve that 
        outcome, and identifying and addressing needs by leveraging 
        resources among partner agencies. JPDO's legislation 
        established a common outcome--a transformed national airspace 
        system by 2025--that JPDO expanded on in its integrated plan, 
        which establishes an overarching framework and goals for its 
        activities. The plan also laid out eight joint strategies for 
        partner agencies to use as they help develop the NGATS. 
        Additionally, JPDO is leveraging partner agency resources by 
        staffing its organization with employees of the partner 
        agencies, many of whom work for JPDO as a collateral duty. JPDO 
        has also reviewed these agencies' research and development 
        programs to identify work that could support the NGATS. By 
        using these practices for facilitating collaboration, JPDO has 
        gotten off to a positive start. However, because JPDO is 
        fundamentally a planning and coordinating body, it does not 
        have authority over the partner agencies' human and financial 
        resources that it needs to continue performing the centralized, 
        interagency planning function for detailed implementation of 
        the NGATS. Consequently, leveraging resources will continue to 
        be critical to JPDO's success, particularly in future years as 
        partner agencies begin to implement projects on a larger scale. 
        JPDO was successful in prompting FAA to request funding to 
        accelerate system development for two key NGATS systems in its 
        fiscal year 2007 budget request. However, JPDO officials told 
        us that, while FAA did receive an increase, it did not receive 
        the full amount requested in the budget formulation documents 
        submitted to the Office of Management and Budget. Our work on 
        FAA's current air traffic control modernization program has 
        shown that receiving fewer resources than planned was a 
        contributing factor in schedule delays and subsequent cost 
        increases. To its credit, JPDO is working with its partner 
        agencies to align their fiscal year 2008 budget requests to 
        support the NGATS. JPDO has also opened a dialogue with the 
        Office of Management and Budget to develop a systematic means 
        of reviewing partner agency budget requests so that NGATS-
        related programs can be easily identified.

        <bullet>  JPDO has incorporated representatives from federal 
        and non-federal stakeholders throughout its organization. 
        Federal stakeholders from the partner agencies work with JPDO 
        throughout multiple levels of the organization. The NGATS 
        Institute was created as the mechanism for involving non-
        federal stakeholders and has obtained their participation and 
        assigned them to work with JPDO's federal stakeholders. The 
        NGATS Institute Management Council, composed of top officials 
        and representatives from the aviation community, provides a 
        means for advancing consensus positions on critical NGATS 
        issues. However, a critical stakeholder in the Nation's air 
        traffic control system has yet to become an active participant 
        in this forum. Air traffic controllers, who work in the current 
        system and will play a key role in the NGATS, have not been 
        involved in JPDO's efforts. In the past, FAA's failure to 
        adequately involve air traffic controllers in its acquisition 
        of new technologies, such as the Standard Terminal Automation 
        Replacement System--a workstation for air traffic controllers--
        contributed to costly rework and schedule delays. A challenge 
        for JPDO could be sustaining non-federal stakeholders' 
        participation in an effort where tangible benefits may not be 
        realized until several years in the future. JPDO also faces the 
        challenge of convincing non-federal stakeholders that the 
        government is financially committed to the NGATS. Additionally, 
        JPDO could face a challenge in resolving the divergent 
        perspectives that are represented by its non-federal 
        stakeholders.

        <bullet>  JPDO is using an iterative process to address the 
        technical planning needed to develop the NGATS that appears 
        reasonable in light of the system's complexity. The office has 
        assembled a suite of models to iteratively analyze and 
        understand the interactions among system performance 
        parameters, demand, and economic factors, and has developed an 
        enterprise architecture, or ``blueprint,'' for the NGATS. JPDO 
        is testing the adequacy of its suite of models, publishing the 
        results, and seeking peer review opportunities. However, these 
        modeling efforts, including those addressing human factors, are 
        currently in the early stages, and more time and field testing 
        will be needed to increase confidence that the final range of 
        solutions for the NGATS is based on realistic assumptions. With 
        respect to enterprise architecture, JPDO has established the 
        organizational structure for enterprise architecture 
        development--an important first step--and anticipates having an 
        initial version of the architecture by the end of fiscal year 
        2006. Recognizing that further work will be required, JPDO is 
        using a multi-year phased planning approach in which the 
        enterprise architecture will be continuously refined. This 
        ``build a little, test a little'' approach is similar to a 
        process that we have previously advocated for FAA's major 
        system acquisition programs.

Background

    FAA, with research assistance from NASA, has had the primary 
responsibility for planning and implementing national airspace system 
modernization since these efforts began more than 20 years ago. 
Recently, FAA placed the modernization program under a new Air Traffic 
Organization, headed by a Chief Operating Officer. JPDO's approach 
differs from FAA's past modernization efforts in that its scope is 
``curb-to-curb,'' encompassing in-terminal passenger and baggage 
security screening and environmental issues. Additionally, JPDO's 
approach will require unprecedented consensus and cooperation among 
many stakeholders--federal and non-federal--about necessary system 
capabilities, equipment, procedures, and regulations. JPDO seeks to 
leverage the resources of NASA and the Departments of Transportation, 
Commerce, Defense, and Homeland Security, each of which has expertise 
and technology that will play a part in the NGATS. For example, the 
Department of Defense has deployed ``network centric'' systems, 
originally developed for the battlefield, which are being considered as 
a framework to provide all users of the national airspace system--FAA 
and the Departments of Defense and Homeland Security--with a common 
view of that system.
    Concurrent with JPDO's efforts, the European Commission\5\ is 
conducting a project to harmonize and modernize the pan-European air 
traffic management system. Known as the Single European Sky Air Traffic 
Management Research Programme (SESAR), the project is being managed by 
the Air Traffic Alliance, an industry partnership that was awarded the 
management contract by the European Organisation for the Safety of Air 
Navigation (Eurocontrol).\6\ Eurocontrol develops, coordinates, and 
plans for the implementation of pan-European air traffic management 
strategies. While the U.S. and European efforts are both directed at 
modernization, Europe faces the additional challenge of harmonizing its 
air traffic control system--currently operated through a patchwork of 
national air navigation service providers. The work of the SESAR 
effort, which was scheduled to officially start this month, is being 
done by a 30-member consortium of airlines, air navigation service 
providers, airports, manufacturers, and others. The consortium is 
receiving 60 million euros ($73 million)\7\ to conduct a two-year 
definition phase and produce a master plan for SESAR. The next steps 
following the definition phase, from 2008 to 2013, are currently under 
discussion. One proposal would develop the technologies for the new 
system and would be funded annually at 300 million euros ($363 million) 
per year, with equal contributions being provided by the European 
Commission, Eurocontrol, and other parties.
---------------------------------------------------------------------------
    \5\ The European Commission is a politically independent 
institution that prepares and implements legislative instruments.
    \6\ Eurocontrol is an autonomous organization established in 1963 
with the intention of creating a single upper airspace.
    \7\ A portion of this funding is in-kind services from Eurocontrol. 
To convert euros to U.S. dollars, we used 1.2098, the foreign exchange 
rate for Tuesday, March 21, 2006, as published in The Washington Post.
---------------------------------------------------------------------------

JPDO Is Engaging in Effective Practices for Interagency Collaboration, 
                    But Faces Challenges in Leveraging Resources and 
                    Defining Responsibilities

    Our work to date shows that JPDO has engaged in practices to 
facilitate federal interagency collaboration, including defining and 
articulating a common outcome; establishing mutually reinforcing or 
joint strategies; and beginning to leverage the partner agency 
resources needed to perform the centralized, interagency planning 
function for the detailed implementation of the NGATS. However, JPDO 
faces a challenge in leveraging resources because it is fundamentally a 
planning and coordinating body that lacks authority over the key human 
and financial resources needed to continue developing plans and system 
requirements for the NGATS. Additionally, JPDO faces the challenge of 
clearly defining roles and responsibilities among its partner agencies. 
Our work has shown that collaborating agencies should work together to 
define and agree on their respective roles and responsibilities, 
including how the collaborative effort will be led. To its credit, JPDO 
is taking some actions to mitigate these challenges.

JPDO Has Articulated a Common Outcome, Established Mutually Reinforcing 
                    or Joint Strategies, and Begun to Leverage 
                    Resources

    JPDO's integrated plan provides a vision statement that elaborates 
on the broadly stated common outcome set forth by the Vision 100 
legislation--an air transportation system that meets potential air 
traffic demand by 2025. In working together to develop JPDO's 
integrated plan, the partner agencies agreed upon a broad statement of 
future system goals, performance characteristics, and operational 
concepts. Our research shows that, for interagency collaborative 
efforts to overcome significant differences in agency missions, 
cultures, and established ways of doing business, the agencies must 
have a clear and compelling rationale to work together. JPDO's partner 
agencies agreed to a vision statement: a transformed air transportation 
system that provides services tailored to individual customer needs, 
allows all communities to participate in the global economy, and 
seamlessly integrates civil and military operations.
    The plan also provides eight strategies--again developed by the 
partner agencies--that broadly address the goals and objectives for the 
NGATS. JPDO has formed eight integrated product teams (IPTs), one for 
each strategy. Our work has shown that mutually reinforcing or joint 
strategies help in aligning the partner agencies' activities, core 
processes, and resources to accomplish the common outcome. In addition 
to jointly identifying the strategies for the NGATS, the various 
partner agencies have taken the lead on specific strategies. (See Table 
1.) JPDO is currently reevaluating whether all of these IPTs should be 
expected to create products. For example, the IPT that is addressing 
the global inter-operability strategy might be more likely to have 
cross-cutting influence over the other seven IPTs, rather than 
developing a product of its own, according to JPDO officials.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The National Research Council, in its recent study of JPDO, noted 
the IPT structure is oriented by discipline, which the Council believes 
works against a product orientation. The Council recommended that JPDO 
reorganize into three IPTs that parallel the way FAA currently 
organizes its operations--airport, terminal, and en route/oceanic. JPDO 
officials do not agree with this recommendation. They told us that the 
existing airspace segmentation by phase of flight--airport, terminal, 
and en route--creates inefficiencies. As aircraft transition from one 
phase of flight to the next, they encounter a ``speed bump.'' For 
example, operations are slowed as en route air traffic controllers 
transfer responsibility for aircraft to terminal controllers. This 
segmentation is not part of JPDO's vision for the NGATS. In our view, 
if JPDO's IPT structure begins to show evidence that it is hindering 
rather than promoting progress toward achieving NGATS goals, JPDO might 
look again at the Council's recommendations to determine whether a 
different structure or fewer IPTs would help it achieve its goals. In 
the end, the progress and outcomes achieved by the structure are as 
important, if not more important, than the organizational model 
selected.
    JPDO has begun leveraging the resources of its partner agencies, 
which is another practice that we have found helps facilitate 
interagency collaboration. Our research shows that collaborating 
agencies should identify the human, information technology, physical, 
and financial resources needed to initiate or sustain their 
collaborative effort. To leverage human resources, JPDO has staffed its 
organization with partner-agency employees, many of whom work for JPDO 
as a collateral duty. The JPDO board, which provides coordination 
between partner agencies and JPDO, is composed of key executives of the 
partner agencies who can facilitate bringing agency resources to bear 
on NGATS development. JPDO's eight IPTs, which are developing the plans 
and requirements for the NGATS, include staff from the partner 
agencies. Additionally, Vision 100 created the Next Generation Air 
Transportation Senior Policy Committee, composed of partner agency 
senior executives, to provide ongoing policy review and identify 
resource needs from the partner agencies. (See Fig. 1.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To further begin leveraging resources, during the past year JPDO 
conducted an interagency program review of its partner agencies' 
research and development programs to identify the work that could 
support the NGATS, as well as identify areas for more effective 
interagency collaboration. Through this process, JPDO identified early 
opportunities that could be pursued during fiscal year 2007 to produce 
tangible results for the NGATS. For example, JPDO noted that FAA had 
amassed considerable technical expertise in the standards, protocols, 
and near-term air traffic applications for Automatic Dependent 
Surveillance-Broadcast (ADS-B). ADS-B is a technology through which an 
aircraft broadcasts information on its position to ground-based 
transceivers, rather than having its position detected by ground-based 
radars. JPDO envisions FAA beginning to purchase ADS-B transceivers, 
decommission obsolete ground-based radars, and develop air traffic 
procedures that would permit ADS-B-equipped aircraft to obtain near-
term operational benefits such as routings that save fuel.

JPDO Faces Challenges in Continuing to Leverage Resources and Defining 
                    Roles and Responsibilities

    Although JPDO's legislation, integrated plan, and established 
governance structure provide the framework for institutionalizing 
collaboration among multiple federal agencies, JPDO is fundamentally a 
planning and coordinating body that lacks authority over the key human 
and financial resources needed to continue developing plans and system 
requirements for the NGATS. Consequently, leveraging resources on a 
continuing basis will be critical to JPDO's success. Our research has 
also shown that agreement on roles and responsibilities facilitates 
interagency collaboration. However, in JPDO's situation, some important 
roles and responsibilities have not yet been clearly defined.
    The challenge of leveraging resources will likely intensify 
beginning in 2008, when JPDO expects a significant increase in the 
workload of its IPTs. JPDO anticipates needing more resources for the 
IPTs to, among other things, plan demonstrations of potential 
technologies to illustrate some of the early benefits that could be 
achieved from the transformation to the NGATS. JPDO officials told us 
that, although the partner agencies have not yet expressed concerns 
over the time that their employees spend on JPDO work, it remains to be 
seen whether partner agencies are willing to allow their staff to 
devote larger portions of their time to JPDO as the office develops 
more detailed plans and requirements for the NGATS. Partner agencies 
have a variety of missions and priorities other than supporting the 
NGATS. Some partner agency employees, including some IPT directors, 
have been told by their partner agencies that their work for JDPO is 
approved so long as it does not interfere with their regular assigned 
duties. Such resource issues would ultimately go to the Senior Policy 
Committee for resolution. However, the role of the committee's members, 
as stated in Vision 100, is only to make recommendations to their 
respective agencies for the required resources.
    The challenge of leveraging financial resources has already 
manifested itself. As JPDO requested, FAA included in its fiscal year 
2007 budget request to the Office of Management and Budget funding to 
accelerate systems development of ADS-B and System Wide Information 
Management (SWIM),\8\ which are two key systems identified for the 
NGATS. However, JPDO officials told us that, while FAA did receive an 
increase, it did not receive the full amount requested in the budget 
formulation documents submitted to the Office of Management and 
Budget.\9\ Our past work on FAA's national airspace modernization 
program has shown that, among other factors, receiving fewer resources 
than planned contributed to delays in implementing technologies and 
significant cost increases. For example, reduced funding was one factor 
that caused FAA to reduce the initial deployment of its ASR-11 digital 
radar system from 111 systems to 66 systems, and defer decisions on 
further deployment pending additional study. In the meantime, FAA will 
have to continue to maintain the aging analog radars that the new 
system was intended to replace.
---------------------------------------------------------------------------
    \8\ SWIM would support the transition to network-centric operations 
by providing the infrastructure and associated policies and standards 
to enable information sharing among all authorized users, such as the 
airlines, other government agencies, and the military.
    \9\ FAA's fiscal year 2007 budget request for research and 
development includes about $18 million for JPDO, which is supplemented 
by matching funds from NASA. NASA has committed to continuing this 
match in the future, according to a JPDO official. JPDO uses these 
funds to conduct planning and studies. Outyear funding plans for JPDO 
show a slight decline through fiscal year 2010. Vision 100 authorized 
$50 million annually for seven years for JPDO.
---------------------------------------------------------------------------
    JPDO also faces the challenge of clearly defining roles and 
responsibilities among its partner agencies. Our work has shown that 
collaborating agencies should work together to define and agree on the 
respective roles and responsibilities, including how the collaborative 
effort will be led. In JPDO's case, there is no formalized long-term 
agreement on the partner agencies' roles and responsibilities in 
creating the NGATS. According to JPDO officials, a memorandum of 
understanding that would define partner agency relationships was being 
developed as of August 2005, but has not yet been completed.
    Defining roles and responsibilities is particularly important 
between JPDO and FAA's Air Traffic Organization, since both 
organizations have responsibilities related to planning national 
airspace system modernization. JPDO's planning must build upon the Air 
Traffic Organization's existing modernization program, while the Air 
Traffic Organization must ensure that its ongoing modernization efforts 
are consistent with JPDO's plans. JPDO's former director served 
concurrently as the Air Traffic Organization's Vice President for 
Operations Planning, which helped with coordination between the two 
organizations. However, FAA now plans to establish separate positions 
for the JPDO Director and the Air Traffic Organization Vice President 
for Operations Planning. Doing so increases the importance of having a 
clearly defined relationship between these organizations.
    Ultimate decision-making authority is another role and 
responsibility that has not been clearly defined. According to JPDO, 
decisions are the collective responsibility of the government agencies. 
The Senior Policy Committee makes decisions through consensus of the 
members. If there are any issues that the committee cannot resolve 
among themselves, JPDO officials expect that the Secretary of 
Transportation would elevate these issues to the appropriate White 
House-level policy council, such as the Domestic Policy Council. 
Although JPDO strives to make decisions and resolve disputes through 
its collaborative bodies, its experience thus far is limited. It is not 
clear whether this process will be effective as the NGATS planning and 
implementation effort moves forward. As part of our ongoing work, we 
will further explore the decision-making and dispute resolution 
mechanisms within JPDO.
    To its credit, JPDO, in concert with the Air Traffic Organization, 
has begun to address these challenges. To assist with leveraging 
resources, JPDO has issued guidance to its partner agencies identifying 
areas that JPDO would like to see emphasized in their fiscal year 2008 
budget requests. The Air Traffic Organization, in recognition of the 
need to align its plans with the 20-year planning horizon of JPDO, has 
extended its planning horizon. Finally, JPDO is working with the Office 
of Management and Budget to develop a systematic means of reviewing 
partner agency budget requests so that the NGATS-related funding in 
each budget request is easily identified. Such a process would help the 
Office of Management and Budget consider NGATS as a unified program 
rather than as disconnected line items across partner agency budget 
requests. To better define roles and responsibilities, JPDO planned to 
transmit the proposed memorandum of understanding to the JPDO board 
this month.

JPDO Established Mechanisms to Involve Stakeholders But Faces 
                    Challenges

    As required by Vision 100, JPDO developed and implemented 
mechanisms for soliciting the expertise and views of federal and non-
federal stakeholders as it plans the NGATS. Although JPDO has obtained 
the involvement of over 180 participants from over 70 organizations for 
the IPTs, the current air traffic controllers--who will play a key role 
in the NGATS--have not been involved in JPDO's efforts. In addition, 
JPDO may face challenges in sustaining stakeholder involvement over the 
long-term.

JPDO Is Involving Federal and Non-federal Stakeholders

    JPDO has structured itself in a way that involves federal and non-
federal stakeholders throughout its organization. Vision 100 directed 
JPDO to involve federal and non-federal stakeholders as it fulfills its 
mission. Our work shows that involving stakeholders can, among other 
things, increase their support for the collaborative effort. Federal 
stakeholders from the partner agencies participate with JPDO through 
the Senior Policy Committee, the JPDO board, and the IPTs. To 
incorporate the expertise and views of stakeholders in private 
industry, State and local governments, and academia, the NGATS 
Institute (the Institute) was created by an agreement between the 
National Center for Advanced Technologies and FAA.\10\
---------------------------------------------------------------------------
    \10\ The National Center for Advanced Technologies is a nonprofit 
unit within the Aerospace Industries Association.
---------------------------------------------------------------------------
    Within the Institute, the Institute Management Council (the 
Council), composed of top officials and representatives from the 
aviation community, oversees the policy and recommendations of the 
Institute. The Council provides a means for advancing consensus 
positions on critical NGATS issues. It is co-chaired by the president 
of the Air Transport Association, which represents commercial airlines, 
and the president of the Air Line Pilots Association, which represents 
airline pilots. The Institute has solicited participation from non-
federal stakeholders and assigned them to each IPT. Additionally, the 
Institute planned to hold its first public meeting on March 28, 2006, 
to solicit information from other interested stakeholders who are not 
involved in the Council or the IPTs.
    JPDO officials are generally pleased with the quality of 
stakeholder participation. Through the Institute, JPDO obtained the 
participation of over 180 stakeholders from over 70 organizations for 
the IPTs. The Institute received positive feedback from IPT directors 
on the skills, insight, and expertise of the private sector volunteers. 
Additionally, an official affiliated with the Institute told us that 
the collective quality and breadth of expertise of applicants for the 
IPTs has exceeded expectations.
    However, JPDO has experienced difficulties with soliciting the 
participation of current air traffic controllers, who will play a key 
role in the NGATS. The current air traffic control system is based 
primarily on the premise that air traffic controllers direct pilots to 
maintain safe separation between aircraft. In the NGATS, this premise 
could change and, accordingly, JPDO has recognized the need to conduct 
human factors research on such issues, including how tasks should be 
allocated between humans and automated systems, and how the existing 
allocation of responsibilities between pilots and air traffic 
controllers might change. JPDO is tapping the expertise of former air 
traffic controllers, but current air traffic controllers are not yet 
involved with JPDO.
    Specifically, the National Air Traffic Controllers Association 
(NATCA)--the labor union that represents air traffic controllers--is 
not participating in the development of the NGATS. In July 2005, FAA 
terminated the controller liaison program, wherein active controllers 
were assigned to, among other things, provide input on national 
airspace modernization projects. At that time, the union disengaged 
from participating on all FAA workgroups and technological projects, 
including JPDO. Although the Institute Management Council includes a 
seat for the union, an official of that union told us that the union's 
head had been unable to attend the Council's meetings. According to 
JPDO officials, the Council has left a seat open in hopes that the 
controllers will participate in the NGATS effort at the end of the 
contract negotiations between FAA and NATCA.
    The lack of current air traffic controllers' participation could 
result in future problems. The input of current air traffic controllers 
who have recent experience controlling aircraft is important in 
considering human factors and safety issues. Our work on FAA's current 
national airspace modernization program has shown that early and 
continuing stakeholder input is important, particularly concerning 
human factors, in avoiding costly rework and schedule delays late in 
system development efforts. For example, as FAA procured new air 
traffic controller workstations (known as Standard Terminal Automation 
Replacement Systems (STARS)), not adequately including stakeholders 
during the development phase contributed to unplanned work which, in 
turn, contributed to cost growth, schedule delays, and eventually a 
reduction in the number of systems to be deployed.\11\
---------------------------------------------------------------------------
    \11\ GAO, National Airspace System: Transformation will Require 
Cultural Change, Balanced Funding Priorities, and Use of All Available 
Management Tools, GAO-06-154 (Washington, D.C.: Oct. 14, 2005).
---------------------------------------------------------------------------
    Another method for stakeholder involvement is through JPDO's 
facilitation of technology transfer in its requests for studies to be 
contracted out through the Institute. For example, at JPDO's request, 
the Institute plans to analyze trade-offs between potential 
technologies to narrow the range of options that are most critical for 
the NGATS. JPDO has sent to the Institute its first request for 
studies, including an analysis of satellite navigation backup 
technology.
    The Institute also creates industry-government partnerships through 
advanced-technology demonstrations. These demonstrations provide a 
mechanism for collaboratively testing operational concepts, refining 
requirements, and sharing technology between the public and private 
sectors. To date, two demonstration projects have been conducted by 
JPDO partner agencies, including demonstrations on the Small Aircraft 
Transportation System and Network Enabled Operations.

JPDO Faces Challenges in Maintaining Non-federal Stakeholder Support 
                    Over the Long-Term

    Although JPDO has developed the mechanisms for involving 
stakeholders and brought stakeholders into the process, JPDO faces 
challenges in sustaining non-federal stakeholder participation over the 
long-term. Much as with the federal partner agencies, JPDO has no 
direct authority over the human and financial resources of its non-
federal stakeholders. To date, these stakeholders' investment in the 
NGATS effort has been through their pro bono participation on the IPTs 
and the Institute Management Council. The non-federal stakeholders' 
participation varies from approximately 10 to 25 percent of their time 
per week on the IPTs and involves approximately one meeting per month 
for members of the Council. The challenge for JPDO is to maintain the 
interest and enthusiasm of these non-federal stakeholders, who will 
have to juggle their own multiple priorities and resource demands in 
order to maintain this level of participation, when some tangible 
benefits may not be realized for several years. For example, 
stakeholder support will be important for programs such as SWIM, which 
is a necessary prerequisite to future benefits, but may not produce 
tangible benefits in the near-term.
    Rather than obtaining voluntary, pro bono participation from non-
federal stakeholders, several members of our expert panel suggested 
JPDO should outsource the NGATS planning efforts, as Europe has done. 
As previously noted, the European SESAR effort is led by an industry 
consortium under a contract with Eurocontrol. The contract calls for 
the consortium to deliver a master plan at the end of a two-year 
definition phase. JPDO officials told us that they considered various 
ways to structure their work, such as having the government formulate 
plans with industry comment, or having industry formulate plans and 
provide them to the government. JPDO settled on the existing model, 
which is a hybrid that involves initial government work with close 
industry participation. Because of the different circumstances 
surrounding the U.S. and European approaches (such as the European need 
to harmonize various national systems), we have not taken a position on 
which approach might be more effective.
    In the wake of past national airspace modernization efforts, JPDO 
also faces the challenge of convincing non-federal stakeholders that 
the government is financially committed to the NGATS. While FAA's major 
air traffic control acquisitions programs are currently on track, 
earlier attempts at modernizing the national airspace system 
encountered many difficulties. In one instance, for example, FAA 
developed a controller-pilot data link communications system that 
transmitted scripted e-mail-like messages between controllers and 
pilots. One airline equipped its aircraft with this new technology, but 
because of funding cuts, FAA ended up canceling the program.\12\ In a 
similar vein, we have reported that some aviation stakeholders 
expressed concern that FAA may not follow through with its airspace 
redesign efforts and are hesitant to invest in equipment unless they 
are sure that FAA's efforts will continue.\13\ One expert with whom we 
spoke suggested that a way to mitigate this issue would be for the 
government to make an initial investment in a specific technology 
before requesting that airlines or other industry stakeholders purchase 
equipment.
---------------------------------------------------------------------------
    \12\ JPDO noted that FAA used this technology to conduct an 
operational data link demonstration that will provide valuable 
information for developing future requirements and reducing development 
and implementation risks.
    \13\ GAO-06-154.
---------------------------------------------------------------------------
    Finally, JPDO could face a challenge in resolving the potentially 
divergent perspectives that are represented by its non-federal 
stakeholders. The range of non-federal interests that JPDO has 
solicited for this effort is broad and varied, and potentially 
conflicting (for example, the interests of commercial airlines versus 
the interests of general aviation aircraft owners and pilots). While 
the intent is to ensure that all stakeholders are given the opportunity 
to participate in developing the NGATS, dissension among these 
stakeholders is nevertheless possible. A large portion of the non-
federal stakeholder participation is through the IPTs. JPDO officials 
told us that they expect IPT directors to resolve potential disputes 
among stakeholders and obtain a ``convergence of opinion,'' which is 
defined by JPDO as working toward as close to a single position as 
possible while recognizing that the IPT director might need to make a 
final decision. JPDO officials told us that depending on the issue, the 
IPT director may elect to elevate the different views to the collection 
of IPT directors and senior JPDO officials for resolution. In such a 
situation, JPDO will be challenged to settle the dispute without 
alienating those non-federal stakeholders who might believe themselves 
to be adversely affected by the decision.

JPDO Is Using an Iterative Technical Planning Process

    JPDO is using an iterative technical planning process that appears 
to be reasonable in light of the complexity of the NGATS. The planning 
process includes conducting modeling--a technique that mathematically 
represents the NGATS' system performance parameters, demand, and 
economic factors--as well as developing an enterprise architecture--a 
blueprint to guide NGATS development.

JPDO Has Begun to Use System Performance Modeling

    JPDO has formed an Evaluation and Analysis Division (EAD), composed 
of FAA and NASA employees, and contractors, to assemble a suite of 
models that mathematically represent the interactions among system 
performance parameters, demand, and economic factors for the NGATS. 
These models iteratively test the relationships and interactions among 
factors based on a set of assumptions. For example, using models based 
on broad assumptions concerning fleet mix and passenger and flight 
demand, EAD has evaluated how the current air transportation system and 
proposed NGATS alternatives react. EAD has also used modeling to 
determine whether current airport capacity is sufficient to support a 
tripling of air traffic. The modeling results will help JPDO further 
refine its plans for the NGATS, leading to additional modeling that 
uses more precisely defined assumptions, all the while narrowing the 
range of potential solutions. In addition, EAD is modeling costs and 
benefits of proposed NGATS solutions, as well as interactions among 
system performance parameters, demand, and economic factors, to 
demonstrate to JPDO management and the Office of Management and Budget 
that the proposed solutions are a cost-effective way to meet strategic 
goals and objectives.
    Rather than creating its own models, EAD is assembling a suite of 
existing models from FAA, other agencies, and contractors. To assess 
the adequacy of these models, EAD has compared the results obtained 
from them to known previous conditions. For example, to assess how 
accurately a model reflects the impact of adverse weather on airport 
capacity, EAD has compared the model's results to what actually 
happened in a previous bad-weather event. In this case, the model 
proved to be accurate, thereby validating its further use.
    EAD recognizes the importance of human factors in designing the 
NGATS, but has just begun studying this issue. Specifically, EAD has 
used modeling to study how possible changes in the duties of key 
individuals, such as air traffic controllers, could affect the workload 
and performance of others, such as airport ground personnel. NGATS 
could shift some tasks now done by air traffic controllers to pilots. 
However, EAD has not yet begun to model the effect of this shift on 
pilot performance because, according to an EAD official, a suitable 
model has not yet been incorporated into the modeling tool suite. 
According to EAD, addressing this issue is difficult because data on 
pilot behavior are not readily available to use in creating such 
models. Furthermore, EAD has not studied the training implications of 
various NGATS-proposed solutions because further definition of the 
concept of operations for these solutions has not been completed. As 
the concept of operations matures, it will be important for air traffic 
controllers and other affected stakeholders to provide their 
perspectives on these modeling efforts.
    EAD plans to use outside experts to review the adequacy of its 
work. EAD will continue to publish results of its work in peer-reviewed 
journals. EAD officials said they are also exploring the possibility of 
pursuing a peer review relationship with SESAR officials. So far, 
however, EAD's modeling efforts are in the early stages and more time 
will be needed to conduct additional modeling and field testing to 
increase confidence that the final range of solutions for the NGATS is 
based on realistic assumptions.

JPDO Has Taken the First Steps Toward Developing an Enterprise 
                    Architecture

    An enterprise architecture is a tool, or blueprint, for 
understanding and planning complex systems. It can facilitate NGATS 
planning by providing a strategic and integrated approach to decision-
making. For example, enterprise architecture can help planners decide 
between various scenarios that involve flight takeoff, flight landing, 
and en route flight in bad weather. The NGATS enterprise architecture 
will provide the means for coordinating among the partner agencies and 
private sector manufacturers, aligning relevant research and 
development activities, and integrating equipment. The enterprise 
architecture will describe the current national airspace system, the 
NGATS, and the sequence of steps needed to transition between them.
    JPDO has taken the initial steps towards developing an enterprise 
architecture and plans to have an early version by the end of fiscal 
year 2006. The office has established and filled a chief architect 
position and established an NGATS Architecture Council composed of 
representatives from each partner agency's chief architect office. This 
provides the organizational structure and oversight needed to develop 
an enterprise architecture. While this is an important first step and 
consistent with effective practices that we have identified in 
enterprise architecture development, JPDO's enterprise architecture 
development is currently a work in progress. JPDO is working toward 
completing two tasks that we have also identified as effective 
practices. First, JPDO is planning to use the Federal Enterprise 
Architecture Security and Privacy Profile, currently under development 
by the Federal Chief Information Officer Council, to help ensure 
effective integration of security and privacy requirements across NGATS 
enterprise architecture. Second, JPDO is developing metrics that are to 
be compliant with guidance from us and the Office of Management and 
Budget to measure the enterprise architecture's progress in development 
and effectiveness-in-use by the end of fiscal year 2006. JPDO 
recognizes that the development of the NGATS architecture will be a 
multi-year process that will involve a series of interim architectures.
    JPDO's phased ``build a little, test a little'' approach for 
developing and refining its enterprise architecture is similar to a 
process that we have advocated for FAA's major system-acquisition 
programs. After completing the initial version of its enterprise 
architecture, JPDO plans to undertake a comprehensive assessment to 
determine if additional efforts are necessary to improve the 
architecture and address any gaps that may have been identified. In 
addition, this phased development process will allow JPDO to 
incorporate evolving market forces and technologies in its 
architecture, and thus, to better manage change.

Concluding Observations

    In closing, Mr. Chairman, ultimate responsibility for the success 
of JPDO and the broader NGATS effort is shared among JPDO and its 
partner agencies, non-federal stakeholders, and the Congress. JPDO and 
its partner agencies have responsibility to develop a plan, test 
technologies through demonstrations, and implement technologies to 
transform the current national airspace system in a timely and cost-
efficient manner. Non-federal stakeholders, including industry 
representatives, state and local government officials, and members of 
academia, must actively participate in developing the plan. Some of 
these stakeholders--such as commercial airlines and general aviation 
operators--will have to follow through by equipping their aircraft to 
realize the benefits of the NGATS. Finally, the success of the NGATS 
will undoubtedly require support from Congress to obtain the resources 
and authority necessary to complete the planning and testing stage, 
acquire the necessary technologies, and develop procedures. 
Consequently, Congress will face difficult decisions on how to 
prioritize funding to support the NGATS with other national priorities. 
These responsibilities are substantial, but failure in any one of these 
areas will significantly affect JPDO's chances of achieving a three-
fold increase in airspace capacity by 2025.
    This concludes my statement. I would be pleased to respond to any 
questions that you or other Members of the Subcommittee may have at 
this time.

                   Biography for Gerald L. Dillingham
    Dr. Dillingham is currently serving as the Director of Civil 
Aviation Issues for the U.S. Government Accountability Office (GAO) in 
Washington, D.C. The GAO is the investigative and research arm of the 
U.S. Congress. He is responsible for directing program evaluations and 
policy analyses related to all aspects of civilian aviation, including 
safety, finance, environment, air traffic control, airport development 
and international aviation issues.
    Dr. Dillingham received his Master's and Doctorate degrees from the 
University of Chicago and was a postdoctoral scholar at the University 
of California-Los Angeles. Recognized as a national authority on 
aviation issues, he has testified as an expert witness before numerous 
committees of the U.S. Congress and served on the National Commission 
on Terrorist Attacks Upon the United States (9/11 Commission)--Aviation 
and Transportation Security Team.

                               Discussion

    Mr. Hall. Thank you, Dr. Dillingham. That concludes the 
testimony of the witnesses and at this time we will tell you 
that your entire statement will go in the record, unless there 
is objection. Is there objection? The Chair hears none. They go 
into the record and we thank you for that.

                          Leadership of NGATS

    I will kick it off by asking a couple of questions here, 
and I guess this question would be to Dr. Porter or to either 
Mr. Shane or Mr. Pearce or maybe the three of you want to 
cooperate on it. Who would be ultimately responsible for 
ensuring that the research for NGATS actually gets 
accomplished? With all these parties playing there, who is to 
take that lead?
    Mr. Pearce. Well, the responsibility for the research 
really depends on the area in which the research has to occur. 
So in many cases, for example, in the air traffic management 
area, we are depending on NASA to perform that research in 
cooperation with the FAA and others. I think the real question 
comes in is with respect to the transfer of that technology 
into operation. That is where it gets tricky. The whole idea 
behind the JPDO and NGATS is to get everybody on the same plan. 
Where technology transfer generally works is when everybody is 
working to the same plan, there is a--and there is a resource 
plan for that handoff and the technical folks are working 
together and we end up with a smooth transition. It is where 
we--when we don't have consistency in our goals, we don't have 
consistency in our plans, where we start to stumble in terms of 
that transfer and the implementation of specific technology, so 
we are depending on NASA, but really, for them to be 
successful, we have to have everybody following a consistent 
plan so that there is a handoff than can be made to the folks 
who have to implement.
    Mr. Hall. Dr. Porter, do you want to add to that?
    Dr. Porter. No, I think that covers it very well.
    Mr. Hall. I guess I would kind of like to know who, at the 
higher level or the highest level, would be responsible for 
this? I am not asking for a name. I would take a name if you 
had it, but a position. Who would do that? Yes, Mr. Shane.
    Mr. Shane. Well, I will give you the name, Mr. Chairman. It 
is Norm Mineta, the Secretary of Transportation, who, of 
course, chairs the senior policy committee. The senior policy 
committee really is an innovation, I think, in the way we have 
operated within the government in the past. It is, as I 
indicated in my prepared remarks, a bit of a departure. It 
involves only the participating agencies at the responsible 
level, at a political level, and the net result of that is that 
for each of the participating agencies, you have somebody, the 
Secretary of Transportation, the Deputy Secretary of Commerce, 
the Deputy Secretary of DHS, the Secretary of the Air Force, 
the President's science advisor. Each of these people is 
actually engaged in the NGATS initiative and each of these 
folks, particularly those that sit at the top of their 
respective departments, are in a position to make sure that the 
priorities established by the senior policy committee actually 
trickle down to the working level so that nobody is any doubt 
about the priorities that NGATS is pursuing. Those priorities 
are agreed in a collaborative fashion through the SPC, the 
senior policy committee. It is there that the ultimate 
responsibility resides and it is there that the direction for 
collaboration is issued. So I think it is the members of the 
senior policy committee, ultimately led by the Secretary of 
Transportation, who would have the ultimate responsibility in 
ensuring that the research is properly focused and is 
delivering real results in real time.

                   The Outlook for Budget Integration

    Mr. Hall. With that participation and probably led by the 
Secretary of Transportation, would there be a single integrated 
budget that includes the contribution of each of them, of each 
of the agencies that involved in NGATS?
    Mr. Shane. I think that each of us would say that that 
would be devoutly to be wished, that we continue to work toward 
that goal. As has already been discussed, we have, in fact, 
been working together and with OMB to align our budgets to--it 
is not merely a question of the agencies themselves working 
with each other to align budgets. We have to get the Office of 
Management and Budget to align their examiners, who have their 
own little stovepipes and who look at our individual budgets in 
normal times individually, they have to begin to spread 
themselves across some of those lines in order to bring about 
what we might call a cross-cut or an integrated budget for 
NGATS. I think we are approaching that. We are moving in the 
direction of an integrated budget, but it would be an 
overstatement to say that we have it today.
    Mr. Hall. Dr. Porter, Mr. Pearce, do either of you have 
anything to add or disagree with him on that? It sounds like he 
knows what he is talking about to me.
    Dr. Porter. He covered that one well, too.
    Mr. Hall. Yeah, okay. All right, well, my time is up. At 
this time I recognize Mr. Udall.

             Ensuring Agency Commitments Match NGATS' Needs

    Mr. Udall. Thank you, Mr. Chairman. I want to join the 
Chairman in thanking the panel for your comments and testimony. 
It is very helpful. If I could, Under Secretary Shane, come 
back at you again and pursue both this funding question and 
also the cross-agency budget comment that you made. Can you 
tell me how the JPDO and the senior policy committee make sure 
that the agency commitments match the needs of the NGATS's 
effort?
    Mr. Shane. The leadership comes from the senior policy 
committee. It is there that the political leaders of each of 
the participating agencies come together and the needs of NGATS 
are spelled out in presentations by JPDO in real detail. It 
enables the participating members of the senior policy 
committee to really sink their teeth into this material in 
advance of the meeting, of course, and then discuss it during 
the meeting and then reach a consensus about the need for 
alignment. Now each of us is struggling with the same scarcity 
of resources. That is not--there are no differences among us in 
that regard, and so it is not easy to align these budgets in 
the way that I think all of us would like. But the 
prioritization of activities and the development of a 
cooperative understanding within the framework of the SBC is 
what really enables us to move forward at the working level and 
begin to move these resources into the right place.

                   Agency Coordination of Budget Cuts

    Mr. Udall. If I could, let me follow up and ask a specific 
question tied to that request. And I know Dr. Porter and I 
talked before the hearing and I certainly want to give her a 
chance to comment as well and we are going to follow up 
downstream. But when NASA decided to cut the R&D funding level 
literally in half, from $146 million to about $71 million, was 
that decision coordinated in advance with the SBC and the JPDO?
    Mr. Shane. We were certainly--we were notified of that and 
there was a lot of opportunity for discussion of it. NASA was 
obviously in a position of having to again prioritize the use 
of resources that all of us would probably say are too scarce 
for the amount of responsibility that NASA has. So I won't say 
that NASA said is this okay with everybody? This is what we are 
planning to do, but we certainly discussed it.
    Mr. Udall. It sounds like you were notified as opposed to 
collaborating or being involved in the process.
    Mr. Shane. I was treated as a fait accompli on the one 
hand, but we weren't given the opportunity to approve it nor 
would it have been appropriate, I think, for us to have been 
given that opportunity.

                    Cross-Agency Budget Coordination

    Mr. Udall. That is on the record and I do want to, at some 
point, have a chance to further that line of questioning here. 
But Judge Hall talked about the question of funding and the 
annual coordinated cross-agency budget. Do you know if OMB 
intends to require you to do that and if so, when?
    Mr. Shane. Frankly, Congressman, I don't know precisely the 
answer to that question as I sit here today. Administrator 
Blakey and I went to see the deputy director of the Office of 
Management and Budget some months ago to talk about this very 
issue and we were accompanied by several members of the JPDO 
and it was very clear. They had a variety of examiners sitting 
there from different sectors of OMB and that was the only thing 
we were talking about, is how to get these budgets better 
aligned. I think we are making progress, but I don't want to 
overstate the case. I think we are making good progress.
    Mr. Udall. Can you provide that information for the record?
    Mr. Shane. I would be happy to, yes.

                  Major Policy Issues Regarding NGATS

    Mr. Udall. I think what I am trying to get at is do we 
need, as I said in my opening statement, a program office that 
would really drive this, really that question, that comment. 
You noted in your testimony that the NGATS initiative is 
unprecedented in scope, complexity and the challenges it will 
face. From your perspective, what are the main policy issues 
that will have to be resolved over the next few years if NGATS 
is to be successfully developed and implemented?
    Mr. Shane. I think you have heard a number of the witnesses 
talk about those, Congressman. We have to address the human 
factors issue in a big way. We are really changing in a very 
serious way, as NGATS proceeds, what people in the aviation 
sector do when they come to work in the morning, whether they 
are pilots or air traffic controllers or other participants in 
the system. They are going to have different kinds of jobs, 
hopefully far more managerial jobs and far more technology-
driven jobs and they have to be developed with a clear view of 
how to maintain the extraordinary level of safety that we have 
established over the years. There is not going to be any 
compromising of that. The idea is to enhance that.
    I personally think another major issue for NGATS, although 
we haven't talked very much about it today, is how to build 
security into the system in a far more effective way. After 9/
11, of course, we did the only thing we could do, which was to 
layer security on top of a system that was not designed for the 
kind of security that we decided we needed after 9/11. With the 
kind of information technology that is being developed as part 
of NGATS, it is every reason to believe that security will be 
embedded in the system, not layered on top of it, that you will 
have far more information about every aspect of the system. It 
will deliver a level of security that we have only dreamed 
about thus far. Those are two of the major issues, I think, 
that are important. And of course the technology issues 
themselves are of course the main, the core activity going on 
with JPDO.
    Mr. Udall. Thank you.
    Mr. Ehlers. [Presiding] The gentleman's time has expired. I 
am sure we will have time for one or two more rounds if 
necessary and if there is interest. The--let me get at a few 
questions that follow up on questions I asked earlier. I 
continue to be very worried about the budget aspects of it and 
we have had a few questions on that already. Let me just say 
that, to emphasize the importance of that, and I was not being 
critical of either you or anyone in the Administration with my 
comments about budgets being starved, but literally they are. 
And we as a Congress and we as Americans have to understand 
that, and I grew up in the depression era and I heard over and 
over, there is no such thing as a free lunch and you get what 
you pay for, and that is still true today. And, Dr. Porter, I 
think you probably suffered the most in the budget and you are 
smiling and cheering on as best you can, but we all recognize 
the difficulty you face, and I just want to get a word of 
caution out for the record, that I think you really going to 
have to have more funding and better integrated funding if you 
are going to complete this project, not just the research 
aspects, but particularly the implementation of the program 
that you are setting--set out on.

                       NGATS Research Challenges

    Having gotten that off my chest, as a research scientist, I 
am very interested in the research challenges you face and 
could you--let me just ask for anyone who wants to respond to 
this. What would you say are the three greatest research 
challenges you face in this entire effort? And then, after you 
have given that, I am going to ask you what ideas you have to 
resolve those. Who would like to volunteer? Mr. Pearce.
    Mr. Pearce. I think, as has been noted a few times, the 
area of human factors is going to contain a number of 
challenges, and more specifically, as we look at the control 
within the system and how different--how the system operates, 
the changes that we would envision between potentially the 
roles and responsibilities of a air traffic controller or a 
pilot and then the automation itself that we are planning on 
adding, sort of where that locus of control finally ends up is 
an enormously complicated challenge from a human factors 
perspective, as well as computer science perspective, to bring 
all of that together. So that is certainly one area.
    I think another key area is in the automation itself. So if 
we are going to be embedding enormously complicated 
optimization routines into automation and they have got to work 
in a very failsafe way so that level of complexity, that level 
of automation, the number of parameters that are going to have 
be considered, is an extremely challenging research area. Those 
two really come to mind. Then outside the--you know, sort of 
the core air traffic, I think the continuing--if we are going 
to continue to be able to grow this system from an 
environmental perspective, I think the vehicle challenges, you 
know, we are running--actually, we are sort of running out of 
the easy answers to reducing noise and reducing emissions. And 
so the continuing reduction, you know, in noise and emissions 
is going to have to be done through some fairly, fairly 
rigorous research, a lot more work in embedding our knowledge 
into very complex computer software and codes in order to be 
able to do the design work that will lead to aircraft that 
demonstrate those kind of reductions that we are looking at.
    And then finally I guess would just say, in the area of 
security and sensors, if we really want a sort of a seamless 
view of how you would pass through an airport with the remote 
sensing of various aspects of individuals and cargo and so 
forth, it is going to take some fairly sophisticated sensor 
development and the integration of that information to create 
risk profiles. So those areas are some that--I mean, there is a 
whole more, but those areas come to mind.

                     Air Traffic Control Automation

    Mr. Ehlers. Just a quick question on some of the things you 
mentioned. Theoretically, you could design an air traffic 
control system in which there would have to be very little 
human involvement, either in the tower or in the plane. Is that 
not correct? The failsafe part might be a little tougher, but--
--
    Mr. Pearce. Yeah, theoretically right. Yeah, there is--
yeah.
    Mr. Ehlers. Yeah, it wouldn't be all that hard to do, 
actually.
    Mr. Pearce. Well, well----
    Mr. Ehlers. But the failsafe part would be difficult.
    Mr. Pearce. Yeah, yeah. Sort of the idea behind it is 
relatively straightforward to explain, but it is a very--even 
just getting the basic automation in place, let alone the 
failsafe part, is----
    Mr. Ehlers. Yeah.
    Mr. Pearce. The nature of that optimization is very 
complicated. Then to make it all failsafe is very, very 
difficult.
    Mr. Ehlers. Right, I recognize that.
    Mr. Pearce. Right.
    Mr. Ehlers. But you--we could enter an era where much of it 
is automated and the pilots and the controllers are the 
failsafe mechanisms.
    Mr. Pearce. Yeah, I believe we can, otherwise, you know, we 
wouldn't be pursuing the concepts we are. I absolutely believe 
that we can, we can get this job done. We do have automation 
aids operating in the system today that demonstrate some of the 
basic algorithms that we will be using for the future, so it is 
not--these algorithms are not unknown and I think we are in a 
good position to pursue this research and find ourselves 
successful.
    Mr. Ehlers. All right. The difficulty, of course, would be 
the--not every airplane is going to be that well equipped. 
Obviously the large ships will be, but many of the smaller ones 
won't be.
    Mr. Pearce. Well, that is certainly a difficult policy 
issue that we are going to have to address, which is the----
    Mr. Ehlers. Yeah.
    Mr. Pearce.--equipage and mandates and those issues.
    Mr. Ehlers. Right. And there may not be such a thing as VFR 
anymore. That is a definite----
    Mr. Pearce. Right.
    Mr. Ehlers.--possibility.
    Mr. Pearce. Right.
    Mr. Ehlers. All right, my time has expired. Next, we will 
recognize Mr. Costa.

                     NGATS Implementation Roadmaps

    Mr. Costa. Thank you very much, Mr. Chairman. It is--I do 
agree as well that it is important that the Subcommittee hear 
the subject matter this afternoon because of it is significance 
and importance today and tomorrow for travel and commerce as it 
relates not only to our country, but internationally. I have 
several questions, all which will not be able to be able to 
asked because of time allotment, but I do want to submit them 
for the record and hopefully we will get a response back to 
those.
    But let me begin, first, as the Joint Planning and 
Development, and I don't know, Mr. Pearce, if you want to 
respond or Dr. Porter, I believe that the great effort that you 
expended upon today that is going on with NGATS, that it will 
be able to handle three times the traffic, if the Nation's 
major airports are not modernized as well, because obviously 
that is a challenge.
    Mr. Pearce. Yeah, and it is a total system solution that we 
need to look at. And I would also say that the point we are 
trying to make is that what we are really looking for is a 
system that can scale and so----
    Mr. Costa. Well, are you looking at prioritizing, then, 
because I mean we have the major airports and hubs throughout 
the country, and then of course I represent a number of smaller 
airports----
    Mr. Pearce. Right.
    Mr. Costa.--regional airports.
    Mr. Pearce. Right, right.
    Mr. Costa. I mean, how do--have you discussed an 
implementation phase?
    Mr. Pearce. Well yeah, indeed, we are looking at--we have 
put together operational approved roadmaps----
    Mr. Costa. Have you----
    Mr. Pearce.--that have laid out when we would need to make 
these kinds of improvements.
    Mr. Costa. Because Dr. Porter mentioned in her testimony 
that money will always be short and therefore I think it would 
be helpful to the Subcommittee and the larger Committee to know 
what your prioritization is and how we can maybe impact that by 
providing maybe additional funding. This is a serious issue we 
are talking about.
    Mr. Pearce. I guess I would request to get back to you for 
the record in terms of what are--how our current roadmaps are 
laid out.

                         Bad Weather and NGATS

    Mr. Costa. I would like you to provide that information to 
the Subcommittee in terms of the roadmap and the timelines that 
are certain to that roadmap. Let me ask you another question. 
To mitigate the impact, NGATS obviously is hoped to impact the 
severe weather that we have in our system, and while better 
airborne radar would be able to provide some benefits, is it 
not reality that not only the aircraft of today, but the 
aircraft during--that will be developed over the next 20, 25 
years doesn't intend to travel through that bad weather? I 
mean, obviously, I don't think the airlines would want to be 
advertising those kinds of rides. So bad weather 25 years from 
now is still going to look much like it does today. So I mean, 
how does that benefit?
    Mr. Pearce. There are two kinds of weather. There is----
    Mr. Costa. Good weather and bad weather.
    Mr. Pearce. Well, there are two kinds of bad weather. There 
is that kind of weather that is, in fact, dangerous. It is 
severe.
    Mr. Costa. Today we have got good weather.
    Mr. Pearce. And then there is just low visibility 
conditions. The low visibility conditions is a very solvable 
problem and they cause a lot of delay issues in the system 
today. That occurs a lot more often than like what I would call 
severe weather, like convective thunderstorms and so forth. We 
don't--we have no plans on flying through convective 
thunderstorms or anything like it. We--but better ability to 
manage the system around severe weather is really what we are 
looking to do.
    Mr. Costa. Well, I just don't want to oversell the benefits 
of that, is my point, obviously.
    Mr. Pearce. We are putting all of this through modeling 
simulation so we know precisely what the benefits are of the 
technologies we are looking at.

                    Airport Modernization and NGATS

    Mr. Costa. Keeping in mind that most of today's delays are 
due to severe weather, as you noticed, and runway limitations 
and over-scheduling, is it reasonable for us to believe that 
your efforts and proposals are going to be able to be 
implemented, and the Chairman spoke to this, in terms of the 
cost implementation, in fact, that NGATS obviously already is 
dealing with delay problems. I mean, it just doesn't seem 
that--again, not wanting to oversell your efforts with this new 
technology, if you don't expand runways, if you don't provide 
additional modernization, there are limitations to what the 
technical advances are going to provide, right?
    Mr. Pearce. Yeah----
    Mr. Costa. Or am I wrong?
    Mr. Pearce. We can do--we can certainly do more with the 
runways we have. We can increase the productivity of those 
runways with technology, but that does not take away from the 
fact that additional runways will need to be required for the 
future. There is an airport improvement plan that will have to 
continue out into the future and those investments will have to 
be made, but we can do more to create capacity with the runways 
we do have today.
    Mr. Costa. One--you put your finger on it. I know I am out 
of time, Mr. Chairman, but you mentioned it several times and 
that is the resources will have to be found, because without 
doing that, we are literally living on borrowed time. Thank you 
very much. I will submit the balance of my questions.
    Mr. Ehlers. And thank you. The gentleman's time has expired 
and next I am pleased to recognize the gentlewoman from Texas, 
Ms. Jackson Lee.

                       NGATS Budget Cuts at NASA

    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and I 
think the witnesses would be able to affirm that most of the 
Members on this committee are strong advocates of research and 
development and likewise strong advocates of new aeronautical 
technology and as well, space, and I might add, supporters of 
NASA as well. So the questioning is not to be intended as 
reflecting on our personal commitment to the work that each of 
you may be engaged in, but I do want to make the general 
comment that anyone who has flown has heard the redundant 
conversation about air traffic controllers, delayed flights 
because of congestion, long stays on tarmac because of 
congestion, bright sunny days--and I note that one my 
colleagues just mentioned sunny days or good weather, but I 
would venture to say to you that there are very often delays 
with bright sunshine; airports that are basically off limits 
during certain periods, La Guardia, Newark, and I am not 
pointing the finger because I happen to come from one of the 
best airports, Houston. But I will say that they probably have 
good reason, but many times it is often credited to air traffic 
controllers and the needs that they have.
    So let me--and let me also put on the record that in spite 
of my strong advocacy for space exploration, I tended to side 
with the scientists who were quite disappointed in the large 
cuts of R&D and research that--or science that we had hoped we 
would see moving forward under NASA. Certainly, we are 
supporters of the exploration program and our desires to go to 
Mars, but frankly, I believe we can do both. So, Dr. Porter, 
let me ask--which may have been asked and answered, but give me 
a more detailed response to the budget cut from $146.4 million 
in fiscal year 2006 down to a paltry $71.7 million in fiscal 
year 2011, that--how does that comport with the research that 
we are looking to do? In essence, what information do you have 
from JPDO regarding NGATS's R&D needs that gave NASA the 
confidence that you cut R&D levels by that amount over the next 
five years? And what other factors influence the five-year 
funding profile for air traffic management R&D at NASA?
    I would also like--Dr. Dillingham, let me thank you for 
your presence. But one of the issues I think is prominent, 
because we know what the air traffic controllers suffered 
some--almost 20-some years ago. I think it was to our loss, 
where we scattered professional air traffic controllers across 
America by busting the union; unnecessary and I think, frankly, 
a blight on American history. You mentioned in your testimony 
that you didn't see or have seen that the--there was a lack of 
participation of the Nation's air traffic controllers in 
NGATS--in the NGATS initiative. Frankly, give me the truth of 
that in terms of the seriousness of that problem and what we 
need to do to gain the experience of these now some seasoned 
air traffic controllers who managed to stay and come back and 
then others who have gained experience because, of course, they 
were newly hired but they have been on for some two decades. So 
let me yield to Dr. Porter with my frustration of this paltry 
funding and whether or not we can be on track with this lack of 
luster--lackluster participation from NASA.
    Dr. Porter. Thank you for the opportunity to answer that 
question, because I actually wanted to make a correction for 
the record. Earlier in February, when our budget it was 
submitted, there was a mislabel and in fact, I want to make it 
clear that the entire airspace systems budget, as Mr. Shane 
referenced, is dedicated directly to the air transportation--
air traffic management challenge, the R&D. A very important 
point that I tried to make in my oral testimony, however, is 
that NASA's commitment to NGATS is not just about the air 
traffic management research. Our safety research is also a very 
important element of the NGATS vision and we have a safety 
portfolio that, in fiscal year 2006, is $148.4 million.
    Ms. Jackson Lee. And that is shared with the safety issues 
dealing with space exploration, I take it?
    Dr. Porter. No, it is for aeronautics--aviation safety for 
the current and future vehicles, and the program is being 
structured to be proactive to look to the long-term and to ask 
the--what are the challenges that we are going to face as the 
NGATS itself evolves? What are the vehicle-related challenges 
we need to address from a safety perspective?
    Ms. Jackson Lee. Is $141 and the $71 incorrect numbers? Do 
you have----
    Dr. Porter. The $146 and the $71 that you quoted were from 
a sub-element of the Airspace Systems Program, and that was my 
fault. I had mislabeled a slide from back in February and I 
have since corrected it for the record.
    Ms. Jackson Lee. Correct for me again.
    Dr. Porter. But I will certainly correct it for you again.
    Ms. Jackson Lee. What is it?
    Dr. Porter. It is $174 in 2006.
    Ms. Jackson Lee. Uh-huh.
    Dr. Porter. And $89.4 in fiscal year 2011, which is over 
the six years that you were referencing. That is the Airspace 
Systems Program.
    Ms. Jackson Lee. And does that include NGATS funding?
    Dr. Porter. That includes the air traffic management 
element of NGATS.
    Ms. Jackson Lee. And do you believe that--because that 
still is a decline.
    Dr. Porter. That is certainly a decline.
    Ms. Jackson Lee. And so I am still going to wage or at 
least give my criticism and dissent from that, but is that 
going to produce what we are trying to produce in a timely 
fashion?
    Dr. Porter. Okay, let me finish answering the first part of 
your question, because I also want to make the point that in 
addition to the safety, which is also a robust element of our 
research portfolio----
    Ms. Jackson Lee. Absolutely.
    Dr. Porter.--the vehicle research that you have heard from 
testimony from Mr. Pearce, as well, is an incredibly important 
element of the NGATS. You can't talk about enhancing the 
capacity of the system unless you talk about enhancing the 
capabilities of the vehicles that will fly in that system. So 
our subsonic project is also dedicated to the advancement, the 
revolutionary capabilities that are going to be required of 
those vehicles in terms of noise, emissions, fuel efficiency, 
which, as you know, is a big challenge today, and just the 
general performance of those vehicles.
    Ms. Jackson Lee. So the new wave of airplanes is a 
component to the new wave of technology----
    Dr. Porter. Absolutely.
    Ms. Jackson Lee.--for the air traffic controllers?
    Dr. Porter. Absolutely.
    Ms. Jackson Lee. But you still feel that those components 
match up to the monies?
    Dr. Porter. I believe that we have done here and what our 
budget reflects is a balanced portfolio that allows us to 
address all of those elements, and we would be remiss if we did 
not address all of those elements.
    Ms. Jackson Lee. Mr. Chairman, indulge me. I thank you very 
much. I would given a question to Dr. Dillingham, if he would 
follow up on my question of input, and I would only say, Dr. 
Porter, you are a good general in terms of carrying the banner. 
I will continue to express my consternation that it is not 
enough money, but I do appreciate the efforts you are making 
and the kind of--and the research that is being pursued. I 
would say this, Mr. Chairman, I will ask for a timeline, a sort 
of progress report that shows me that we are keeping up with 
the research that we are making promises on. But, Dr. 
Dillingham, the input of air traffic controllers.

                   Air Traffic Controllers and NGATS

    Dr. Dillingham. Yes, ma'am. What I said was in fact truth, 
as you started out. The situation as we understand it is that 
FAA asked that the technical liaisons that were attached to 
headquarters and other parts of FAA return to the towers and to 
the boards. At that point in time, the air traffic controller 
union indicated that they would take all of the air traffic 
controllers out of both the JPDO and as well as the technical 
liaisons. So the bottom line of it is there are no current air 
traffic controllers that are working as a part of the JPDO. 
Instead, what we do have is that FAA has some representatives 
that were previously on the boards and active controllers, and 
they have--and when we were preparing for this hearing, they 
indicated that they were holding a space open for the president 
of the union on the Institute Management Council. Again, we 
think this is a serious problem because of the experience in 
the past when the controllers or the persons who are going to 
be interfacing with that equipment are not a part of the 
development, that when it comes time to put the equipment in 
the system and they see a problem that can be defined as a 
safety problem, it means that that equipment will not go into 
the system, it will be delayed and each time a system is 
delayed, not only are the benefits delayed, but the cost 
increases substantially.
    Ms. Jackson Lee. Mr. Chairman, I ask unanimous consent for 
an additional one minute because I think we have hinted on, and 
I am not sure whether this was hinted on or landed on before I 
got here, but a fatal flaw. First of all, because there is a 
tiff between agencies or between constituencies, we have a 
blatant abuse of the process by eliminating, if you will, the 
option for those who are the midst, who can provide insight, to 
be engaged in this NGATS process. The other downside of this, 
of course, is a fear of existing air traffic controllers is 
that what this research will do is to eliminate their 
positions. So obviously, they are at arms and we have done 
nothing to allay those fears and we are losing their talents. 
So I am going to ask this committee to ask the FAA and ask the 
unions to present with what the tiff is about or why we are in 
this present frustration.
    I see a representative from the Department of 
Transportation, which I hope might have some information on 
this. But I don't think we can go forward if we are at odds. We 
are at--in essence, a large piece is missing from the progress, 
Mr. Chairman, that we are trying to make and I don't think 
there is any, how should I say it, substance in the holistic 
approach to what is occurring without this involvement and I 
appreciate Dr. Dillingham's willingness to at least bring this 
to our attention. I don't know how long this has been going on, 
I don't know if this is a permanent state of affairs. I see 
there is a seat, an empty seat, is doing nothing. What is an 
empty seat doing? Empty hat, empty head, empty seat.
    So I don't understand what that means for anyone, but I do 
believe that this is an important research and having 
experienced the devastation of air traffic controllers in the 
'80s, knowing the results of that, knowing how we had to sort 
of reconstruct ourselves and here we are going to the next 
level, sophisticated air trafficking technology, new 
aeronautical vehicles, new airplanes and air traffic control. 
There will have to be some human involvement. I don't believe 
that we will be all--is that my--Dr. Dillingham, there will 
have to be some human involvement.
    Dr. Dillingham. That is my understanding.
    Ms. Jackson Lee. This is not robotic. There will have to be 
some human component to this and why they are not involved, I 
don't know. It may be a minute past--Dr. Shane, excuse me.
    Mr. Hall. You asked for a minute and----
    Ms. Jackson Lee. I did.
    Mr. Hall.--and you took four minutes to ask the question.
    Ms. Jackson Lee. Four minutes.
    Mr. Hall. I have got to yield you five minutes to cover up 
for the minutes that you have already taken.
    Ms. Jackson Lee. I am happy to be here with my Texan and--
--
    Mr. Hall. And I am happy to yield you another two minutes, 
if you need it.
    Ms. Jackson Lee. Mr. Chairman, you are very kind. Mr.--
Secretary Shane, are you able to solve this problem?
    Mr. Shane. Yes, Congresswoman. First of all, as Dr. 
Dillingham explained, we have invited the elected 
representative of the air traffic controllers to participate 
directly in one of the boards that is overseeing the entire 
initiative and I cannot offer you a reason why he has chosen 
not to show up for those meetings. That is an opportunity for 
all of the controllers to be prominent in the process of 
developing the system, but quite apart from that, there is no 
question that we can't move forward with NGATS without the 
controllers being with us and the--JPDO is, because of the way 
in which the FAA has organized the project, voted to the Air 
Traffic Organization, that is the organization that is the 
organization that runs the air traffic control system on a day-
to-day basis, the technologies that are being developed through 
the NGATS initiative, through the JPDO, are already being built 
in to the air traffic control system.
    They are being accelerated by NGATS and becoming part of 
the system. They are becoming part of the system only because 
controllers are using these technologies. The folks that run 
the Air Traffic Organization are controllers, the rank and file 
are controllers, so it would be, I think, a mistake to 
characterize NGATS as somehow proceeding without the 
involvement of controllers. We seek greater involvement, make 
no mistake about that, and we hope that we will see that 
greater involvement as time goes on, perhaps after we finish 
our negotiations with the union there will be less of a 
reluctance to participate straight up, but that is certainly 
what we have asked for, that is what I hope we will be able to 
see, but there is no question, Congresswoman, that as we 
proceed, this will be done in lock step with what our air 
traffic controllers tell us about what the system needs and 
what it can do.
    Ms. Jackson Lee. I thank you and out of respect for the 
Chairman, let me just close by saying I still believe, to the 
Committee, that I would like to have a more detailed 
explanation as to why there is this schism of the air traffic 
controllers in the room and I would hope that they would be 
able to provide Members of this committee some direct 
information, but I expect that the Committee should write and 
receive a sort of a detailed explanation. I don't think the 
definition that you have given me satisfies me, though I am 
gratified that what you are saying is there is some 
participation by way of utilization of some of the new 
technology. It is not the actual input of air traffic 
controllers and I would frankly say that one seat on the, on 
whatever structure it is really does not speak to the general 
issue of making sure that the air traffic controllers have a 
wide depth of participation and also that they don't view this 
as, in essence, technology outsourcing and that they understand 
that this, they have to be part of the solution and not part of 
the problem. I yield back, Mr. Chairman, with those expressions 
of concern.
    Mr. Hall. Would you yield to tell Members what questions 
you want answered and I understood you wanted a timeline for a 
report?
    Ms. Jackson Lee. Yes, sir, Mr. Chairman. I understood----
    Mr. Hall. I ask unanimous consent of the Committee and you 
and I will have an awful lot to do about whether we grant that 
unanimous consent.
    Ms. Jackson Lee. I have unanimous consent, Mr. Chairman. 
Thank you. I would appreciate, even with Dr. Porter's 
explanation, a more detailed response to the budget decline 
that NASA is engaged in with respect to the NGATS study. I am 
not convinced that it is not enough money for the R&D. I want 
to see where the monies are going, specifically the safety 
money and I want to know that there is a timeline that says 
that we are not getting off the timeline of research and 
development because we don't have enough money, so I want to be 
able to match money with timeline and whether we are doing all 
the research and development we were supposed to do originally.
    Mr. Hall. Do you direct that to the entire committee or do 
you specify anyone that you want to give that--which of you are 
more capable of giving that information?
    Ms. Jackson Lee. That would be a good broad and I would 
specifically encourage NASA to provide us with that answer.
    Mr. Hall. Dr. Porter, can you do that? And the time limit, 
can you do it--how much time will you need?
    Dr. Porter. What was your question, the time?
    Mr. Hall. Do you need a couple of weeks' time?
    Dr. Porter. Yes.
    Mr. Hall. Is that satisfactory.
    Dr. Porter. Yes.
    Ms. Jackson Lee. Mr. Chairman, I would also add Secretary 
Shane, as well, if he would provide that answer.
    Mr. Hall. Okay. I thank you very much.
    Ms. Jackson Lee. And I have a second question, is to try to 
have an explanation of this either schism or break between the 
air traffic controllers union, I understand, and the lack of 
sitting on the seat and whether or not we truly have, as Dr. 
Dillingham has brought to our attention, full participation of 
air traffic controllers, plural; not a seat, but a way to have 
their involvement so that the technology can be reflective of 
their knowledge. I would imagine that we would hear from 
Secretary Shane, that we would hear from the--Dr. Dillingham 
may want to contribute further on this discussion and it looks 
as if the acting director of JPDO might also be--and then Mr. 
David Dobbs, who is the Assistant Inspector General. You all 
can provide me with your insight on this issue. Thank you, Mr. 
Chairman, for your indulgence.

                Human Factors Research Supporting NGATS

    Mr. Hall. All right, thank you. I just have a question or 
so. Mr. Dobbs, based on planning documents that you have seen 
to date, what are your views about the adequacy of human 
factors research supporting the NGATS? Is it turned on?
    Mr. Dobbs. Yes, I think it is on now, right?
    Mr. Hall. Yes, sir.
    Mr. Dobbs. Okay.
    Mr. Hall. And I asked Dr. Dillingham the same questions, so 
be ready.
    Mr. Dobbs. Okay. Could you repeat the question, please?
    Mr. Hall. Based on planning documents that you have seen to 
date, and I think you, some of your testimony alluded to that, 
what are your views about the adequacy of human factors 
research supporting NGATS?
    Mr. Dobbs. I think the----
    Mr. Hall. Dr. Dillingham, do you know what I am asking?
    Dr. Dillingham. Yes. Yes, sir.
    Mr. Hall. Let us give him some help there.
    Dr. Dillingham. We don't usually help the IG, but in this 
case.
    Mr. Hall. It is late.
    Dr. Dillingham. I think one of the most important elements 
of human factors research that we have identified as a possible 
gap is to try to understand what it is going to mean when you 
move so much of the control from the air traffic controllers to 
the pilots and our understanding, from talking with JPDO is 
that they have not yet been able to identify a model that will 
allow them to model that and that is compounded by trying to 
locate data that they can use to operate that model. So that 
probably is the biggest human factors issue that we see, in 
addition to the point that we don't want to raise anymore the 
fact that the air traffic controllers, the current air traffic 
controllers are not participating in the IPTs.
    Mr. Hall. Well, if Ms. Jackson Lee was here, I know she 
would want me to ask this question, so are human factors being 
given the resources it is going to require or it deserves? That 
would be her question and I will ask it in her behalf a lot 
quicker than she would ask it.
    Dr. Dillingham. Our interviews and research at JPDO doesn't 
indicate that human factors is being shortchanged and in fact, 
it is a part of the suite of models that they have developed 
and in fact, there is some work actually going on with human 
factors with regard to the controllers, themselves. It is just 
a matter--it is our understanding that it is just a matter of 
locating an appropriate model and the data to run the model for 
the pilots, themselves.
    Mr. Hall. I thank you for that. Mr. Dobbs, do you want to 
add anything to it or disagree with him?
    Mr. Dobbs. I agree with that.

       NRC's Recommendations Concerning Integrated Project Teams 
                                 (IPTs)

    Mr. Hall. All right. Mr. Hudson and Mr. Pearce, in 2005 the 
National Research Council recommended that the JPDO restructure 
its integrated product teams and to do it in the three 
coordinated areas, airport operations, terminal operations and 
en route operations, rather than the eight current teams and 
the JPDO decided not to implement this recommendation and I 
guess my first question there is can you explain why they 
didn't implement the recommendation?
    Mr. Hudson. I believe Mr. Pearce and answer the question 
and I can expand on why we thought there should be three 
instead of eight.
    Mr. Pearce. You said offer a couple of reasons. One is that 
our understanding of why the NRC focused on those three was, 
one was to really emphasize capacity as the real driving goal 
and metric of the JPDO. And so those IPTs are the ones that 
we--or that structure would be best suited to address the 
capacity goal. Our mission, however, as structured and as we 
are currently implementing it, includes not only changes, not 
only transformation of the air traffic system and the ability 
and capacity, but also transformations in how we manage safety, 
transformations in how we do security in the system, 
environmental performance and so forth, so given the scope, the 
continued broad scope we have for JPDO, we didn't think that it 
was appropriate to narrow down to those specific IPTs.
    The other concern we had is that in looking at--even if we 
just looked at the air traffic management portion of this, we 
didn't necessarily want to over emphasize kind of the current 
structure of terminal and en route, oceanic, airport 
environment and so forth, because what we are really looking at 
is how do we integrate those environments and create a very 
smooth operation from gate to gate and so we didn't want to 
necessarily stovepipe it in that way and potentially lose the 
synergies of working across those domains. So those were the 
rationale for not necessarily adopting those specific IPTs. 
What we have talked about quite a bit and what I think is very 
valid out of there, out of the NRC study is that it is very 
difficult to manage eight IPTs, so the more IPTs we have the 
more difficult it is from potentially having stovepipes and 
just managing across all those boundaries, so that is very, 
very valid and we continue to be concerned and we are certainly 
paying attention to those part of the recommendations.
    Mr. Hall. I thank you for that. Mr. Hudson, you were going 
to tell us why the NRC thinks that it was a better approach.
    Mr. Hudson. When we looked at it, the first--our first 
thought was that this is a valuable tool to use the eight, 
because you do get the involvement of the various agencies and 
the structure of the eight somewhat parallels the stakeholders 
in the organization. As we looked deeper, it appeared to us 
that they were not addressing the final products which would 
come out of these IPTs and that they needed to be structured 
along the way operations actually happen the airline business 
or in the air transport business. I would use the example of 
safety. Having a safety IPT sounds like a good idea, but it is 
somewhat analogous to what we did in industry where we used to 
try to inspect quality into the product out at the end of the 
production line.
    So if you--safety, security, those items need to be an 
integral part of each of the major phases of the program and 
having a standalone safety item doesn't guarantee and assure 
that it is going to be part of the culture of the entire 
operation, so it was in that context we said pick, at least 
three appeared to be, from those people on the committee, who 
had experience in running airlines and designing systems, to be 
the three obvious products that the IPT would produce. How do 
you run your airport, how do you run the--manage when you start 
clustering airplanes up to handle them at the airport and then 
how do you handle the rest of the world, so those are the three 
that the committee came up with and we said okay, now take your 
IPTs that you have, shred them and integrate them into those 
areas and we would have a true integrated product team 
approach, so that is how we came to that conclusion and we felt 
very strongly about it and put it into the report.
    Mr. Hall. I want to thank you and I didn't get to hear all 
the testimony. I did listen to much of it when I was out of the 
room, but I think you have made a good record and the record is 
going to be very valuable to us and the record we seek is a 
very, very important and an almost a tender problem that 
involves hard, hard work; long, long hours; pressure, 
unbelievable pressure; and the safety of a nation involved in 
it and I strap to one of their airplanes twice a week and come 
up here from Dallas and back I am terribly interested in 
knowing that we are giving them the best tools to work with and 
that we are being fair with them and being appreciative of 
folks like you that are planning and trying to spawn an answer 
to the things as they affect us and how they affect us and how 
we can cure them. And all of us, on behalf of those that aren't 
here, I want to express my appreciation to you for your good 
time that you spend every day working along this way and the 
time you spent with us here today and with that, we are 
adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Jeffrey N. Shane, Under Secretary of Transportation for 
        Policy, U.S. Department of Transportation

Questions submitted by Chairman Ken Calvert

Q1.  What critical policy decisions must be made by the Senior Policy 
Committee before the JPDO can start down a particular technology and 
architecture path? For example, do decisions need to be made on the 
degree to which responsibility for aircraft can be handed over to 
automated systems, or whether some airplanes will be allowed to fly 
using ``Visual Flight Rules'' instead of filing a flight plan, or how 
NGATS will treat commercial aviation vs. general aviation? What 
significant policy issues do you think fall into this category?

A1. The Senior Policy Committee provides guidance and review; makes 
legislative recommendations; and identifies and aligns resources that 
will be necessary to develop and implement the NGATS Integrated 
National Plan.
    The process of identification, analysis and coordination of Senior 
Policy Committee Level NGATS policy issues follows a path that runs 
parallel to the NGATS Enterprise Architecture. As the architecture 
iterations take place, the necessary SPC level policy decisions become 
increasingly clear. That's why many of these important policy issues, 
as well as their substance and timing will be easier to discuss once 
the Enterprise Architecture is developed.
    To help illustrate this point, some of the upcoming policy issues 
that are likely to evolve from this process include:

         Changes in roles and responsibilities: New modes of operation, 
        as noted in the question, are likely to necessitate further 
        policy decisions. Substantial increases in traffic flow, new 
        and diverse traffic types and perhaps most significantly, the 
        use of automation in complementing human roles to handle 
        increased traffic, will likely have the impact of shifting 
        roles and responsibilities.

         Define Required Total System Performance (RTSP): Understanding 
        and defining the performance framework, its associated levels 
        of performance, and commensurate levels of service, are 
        critical early steps, and policy issues, that need to be 
        addressed in order to implement NGATS.

         Safety Assurance: The NGATS approach, as explained in our 
        vision, would change the regulatory authority's role from 
        testing, inspecting, and certifying individual system elements 
        to comprehensive approval and periodic audits of the safety 
        management programs within the civil aviation industry.

Q2.  Has the JPDO considered contracting out much of the work to 
implement NGATS to a lead systems integrator: What are the advantages 
and disadvantages of bringing in a lead system integrator for NGATS.

A2. The focus of the JPDO during this first phase of its operation has 
been on planning. This work has been accomplished through the 
Integrated Product Teams (IPTs) which are organized around the key 
strategic areas identified in the NGATS Integrated National Plan. The 
mission of the IPTs is both to plan and implement the NGATS initiative.
    Some of the initial products of the JPDO's planning work will 
include the NGATS Operational Improvement Roadmap, the Concept of 
Operation and the Enterprise Architecture. However, while the initial 
work of the JPDO has a planning focus, as the initiative continues to 
evolve, there will be a shift from an environment that is oriented 
primarily around planning towards one that has both a planning and 
implementation focus.
    At that point the JPDO will need to reexamine its available skill 
sets and personnel makeup to evaluate whether or not it has the 
necessary mix of capabilities to meet its implementation requirements. 
One possibility, and this has yet to be evaluated, may be to rely to 
some degree on a lead systems integrator.

Q3.  Does the Administration intend that the NGATS would be implemented 
by the JPDO or that the JPDO is to develop the plans and the 
implementation would be handled by another organization? If it is the 
latter, please explain what organization would be responsible for 
implementing NGATS and how the transition is to be made from JPDO to 
this organization.

A3. The JPDO by its very design is intended to be both a planning and 
implementation organization. In its early stages the JPDO has been 
heavily focused on planning. The principal role of the Integrated 
Product Teams (IPTs) during this phase of the NGATS development has 
been focused on developing the concepts of use and their input to the 
NGATS Concept of Operations and the Enterprise Architecture. These 
critical elements of the NGATS planning process are the foundations of 
the initiatives' implementation.
    However, while this critical work in planning NGATS has been 
proceeding, the organization has also been evolving into its role as an 
implementing organization. An example of its work in implementing NGATS 
is the budget guidance provided by the JPDO to each of the agencies 
concerning necessary development work, implementation plans, and 
research that is focused on implementing NGATS capabilities. Further, 
an important part of the implementation process is in development of 
the specific actions and investments the agencies will need to make in 
order to implement the initiative. To do this, the JPDO is developing a 
series of specific investment portfolios that will serve as a guide to 
the future implementation of NGATS.

Questions submitted by Representative Mark Udall

Q1.  Will OMB require the agencies involved in the JPDO to develop an 
annual, coordinated, cross-agency budget laying out the resource 
allocations by agency and by JPDO-defined goal? If so, when?

A1. The JPDO's role in working with the NGATS partner agencies is to 
facilitate the alignment of the agency budgets to support the research, 
development and implementation work necessary for NGATS. The JPDO 
issues budget guidance, in accordance with the needs of its Operational 
Improvement Roadmap, to each partner agency outlining specific 
expectations and direction around key capabilities and programs. This 
includes requirements for research, program development and 
implementation. The JPDO then works with the respective agencies, under 
the direction of the Senior Policy Council, to identify how well they 
have been able to meet the objectives of our budget guidance. This 
process is collaborative and allows the JPDO to work with the agencies 
to identify gaps in funding, while at the same time potentially finding 
additional capabilities that may need further work.

Q2.  Dr. Dillingham's testimony states that ``there is no formalized 
long-term agreement on the partner agencies roles and responsibilities 
in creating the NGATS.'' According to JPDO officials, a memorandum of 
understanding that would define partner agency relationships was being 
developed as of August 2005, but has not yet been completed? Why have 
you been unable to formalize a long-term agreement on the partner 
agencies roles and responsibilities? When do you expect to have such an 
agreement completed?

A2. A draft MOU is now in the process of formal coordination with the 
JPDO Board members. Final approval, contingent on the resolution of any 
comments and disagreements, should occur in the next few weeks.

Q3.  Through what mechanisms are the view of industry being 
incorporated in the JPDO planning process, and how well are those 
mechanisms working thus far? What if anything, would you recommend be 
done to improve the interaction of industry and the JPDO planning 
process.

A3. The primary mechanism for incorporating the views of industry is 
through the NGATS Institute, which was established for the express 
purpose of ensuring the involvement of the private sector in the JPDO. 
Through this mechanism there are now 200 pro bono private sector 
participants on the JPDO IPTs. In addition, funded studies to support 
the definition of NGATS will begin shortly. This new form of 
collaboration is still in its early stages. Nevertheless, the Institute 
has surveyed their members to gain insights on where improvements can 
be made and we are in the process of establishing an action plan to 
address what we have learned.

Q4.  Are there any technology transfer issues that need to be 
addressed? Will NASA, for example, support development activities to 
the point where industry will pick up advanced development needed for 
deployment of key technologies?

A4. Technology transfer is a critical issue for the JPDO. To achieve 
the goals of the NGATS initiative technology has to transition from 
research into operation. This means that as research matures there has 
to be an active, technical partnership between those performing the 
research and those involved in implementation of the technology. That 
partnership should be dynamic and include the validation of these 
technologies at various stages of the development. It should also be 
focused on ensuring that the technology can be implemented with an 
acceptable level of risk.
    The JPDO has a profound interest in developing and facilitating 
this kind of partnership. Aggressive transfer of capabilities from 
research to testing and then implementation is a critical element in 
assuring the success of NGATS.

Questions submitted by Representative Frank D. Lucas

Q1.  Are you considering future modern ground based Multi-mission 3D 
Phased Array Radars as a national network in your surveillance concept? 
Multi-mission means simultaneous surveillance of weather and all 
aircraft including non-cooperative ones. If not, why not?

A1. Though the focus of much of the work behind NGATS is on satellite 
and network based navigation systems, systems and applications that 
don't rely so heavily on radar, actual decisions about the mix of new 
technologies and the application of more advanced radar systems is 
still being evaluated. Many of the decisions regarding future 
technology will be based on the incremental implementation of the NGATS 
architecture. The Enterprise Architecture defines many of the 
applications and future technologies that will compromise the NGATS 
initiative.

Question submitted by Representative Sheila Jackson Lee

Q1.  What is the reason for the lack of participation of the air 
traffic controllers in the activities of the JPDO, and what is the 
impact of their lack of participation?

A1. The reason that active air traffic controllers have not 
participated to this point it is still too early in the process. 
Currently, the JPDO has focused more on budgets, processes, policy, and 
plans than anything else. When the JPDO moves further down the line and 
are discussing, systems, procedures, separation standards, and airspace 
the subject matter experts--the air traffic controllers--will be 
brought into the process.
    However, the JPDO staff includes former air traffic controllers. 
These individuals provide substantial expertise that is helpful in this 
early stage of NGATS development.

Questions submitted by Representative Jim Costa

Q1.  Does the JPDO believe that the Next Generation Air Transportation 
System (NGATS) will be able to handle three times today's traffic if 
the Nation's major airports are not modernized as well?

A1. The JPDO believes that airports are part of the transformation 
effort. The JPDO assumes that new runway development will continue to 
occur where demand dictates. In addition, from an operations 
perspective, the JPDO is examining ``super-density'' operations at the 
Nation's most congested airports. This capability will increase 
throughput on individual runways and reduce or eliminate capacity-
limiting dependencies between the set of runways at an airport. Super-
density will also allow, at some airports, an additional runway to be 
built between existing parallel runways without any capacity-limiting 
dependency.
    JPDO is also working toward the ability to handle greater airspace 
terminal area complexity, allowing airports neighboring large hubs to 
integrate seamlessly, and allowing them to serve more traffic as demand 
and demographics dictate. Finally, the JPDO is studying issues of 
airport terminal flows and security operations that will allow greater 
passenger flow from the curb to the gate.

Q2.  How will the NGATS be able to mitigate the impact severe weather 
has on the system?

Q3.  Keeping in mind that nearly all of today's delays are due to 
severe weather, runway limitations, and over scheduling: Is it 
reasonable for us to believe that the billions of dollars the JPDO's 
proposals are sure to cost in the implementation of the NGATS will 
solve the delay problems we already face today?

A2, A3. In addressing the issue of weather NGATS focuses on several 
factors. First, in today's operational environment, low visibility 
conditions reduce the efficiency of flight operations leading to delays 
in the system. NGATS is focused on integrating several technologies and 
procedures to create an ``equivalent visual'' capability that would 
eliminate low visibility as an efficiency and delay problem in the 
system.
    Second, the JPDO is pushing to integrate today's weather 
forecasting and dissemination systems into an integrated, network-based 
weather data system that would directly feed flight management 
automated systems. These systems would provide the most efficient, 
highest capacity routes around severe weather systems.
    All of the changes that JPDO proposes will be validated through 
high-fidelity modeling and simulation and eventually through flight 
operational demonstrations to confirm that sufficient benefits will 
accrue to justify the investment. As a part of this effort, the JPDO 
will maintain objective metrics of capacity, cost, and safety.

Q4.  What does the JPDO see as the most urgent problem that needs to be 
addressed in the near future, not 25 years down the road?

A4. The JPDO has generated its first draft of the detailed Operational 
Improvement Roadmap that lays out the transition from today to the 
NGATS end-state. In the near-term, critical infrastructure, such as 
cooperative surveillance and digital ground-to-air data communications 
need to be established to support 4D flight trajectories and higher 
capacity operations. In addition, the policies associated with a 
performance-based National Air Transportation System need to be 
established to ensure aircraft are capable of taking advantage of this 
infrastructure and associated services.
    It is also critical that the research programs are established that 
ensure that the critical automation needed to achieve the full capacity 
benefits are available by the end of the next decade. In addition, 
safety and environmental research is also critical to ensure that 
safety and environmental compatibility keeps pace with the rise in 
operations.
                   Answers to Post-Hearing Questions
Responses by Lisa J. Porter, Associate Administrator for Aeronautics, 
        National Aeronautics and Space Administration (NASA)

Questions submitted by Chairman Ken Calvert

Q1.  In your testimony, you emphasized that--in addition to the work 
being done by Airspace Systems--NASA's contribution to the JPDO 
includes research conducted by Fundamental Aeronautics and Aviation 
Safety. Please provide a list of projects in these areas and describe 
how they contribute to the JPDO.

A1. The Subsonic Fixed Wing (SFW) project in the Fundamental 
Aeronautics Program directly supports the Next Generation Air 
Transportation System (NGATS) goal of tripling air traffic throughput 
with no increase in noise or emissions. Historically, technology has 
enabled significant reductions in aircraft noise, specific fuel 
consumption (SFC) and emissions. The GE90 and Boeing's 777, although 
still commonly viewed as state-of-the-art, contain technology now over 
a decade old. Although best in the market presently, these systems will 
not provide the requisite noise and emissions levels needed to attain 
the NGATS projection of 3X growth while maintaining, or reducing, 
current noise and emissions levels. To achieve the NGATS vision of 
tripling throughput with no increase in environmental impact will 
require an infusion of novel technology.
    Significant noise and emission reductions are attainable for future 
generations of conventional aircraft if we invest in fundamental 
research to enable major changes to engine cycle and airframe 
configurations. The development of unconventional systems, such as a 
Hybrid Wing Body, could also potentially result in desired noise, 
emissions, and performance improvements. Therefore, the SFW project 
will focus on cutting-edge research in critical disciplines such as 
materials and structures, aerodynamics, and propulsion, to help achieve 
these goals. Although a key focus of the project will be on transport 
aircraft (both conventional and unconventional), we will also conduct 
assessments to identify the potential benefits of new technologies that 
can enable a wide array of sizes of subsonic vehicles such as Very 
Light Jets (VLJs) and new capabilities such as Extreme Short Takeoff 
and Landing (ESTOL).
    The Aviation Safety Program and its four thrust areas will continue 
to focus NASA research on improving the inherent safety attributes of 
aircraft and to enhance the safety of the Nation's current and future 
air transportation system. NASA will directly address the fundamental 
aircraft safety research needs of the NGATS in partnership with the 
member agencies of the JPDO's Safety Integrated Product Team (IPT).
    There are four projects within the Aviation Safety Program: 
Aircraft Aging and Durability (AAD), Integrated Intelligent Flight Deck 
Technologies (IIFDT), Integrated Resilient Aircraft Control (IRAC), and 
Integrated Vehicle Health Management (IVHM).
    Several of the principles in the NGATS vision for a flexible, 
resilient, scalable, adaptive and highly automated system will be 
supported by AAD research. One of the principles, Integrated 
Environmental Performance, involves addressing environmental issues in 
a way so as not to hinder growth, nor impede the ability to meet 
demand. AAD research in lightweight engine fan containment and higher 
operating temperature turbine disk materials will enable new engine 
configurations for current and future vehicles that burn less fuel and 
generate less noise. Another principle, Proactive Approach to Safety 
Risk Management, speaks to assessing risk and anticipating potential 
safety problems so we can prevent accidents before they happen. 
Integrated methods developed by AAD to characterize aging-related 
degradation, model failure mechanisms and useful life, and mitigate the 
hazards, will provide data and capabilities to enable condition-based 
maintenance of vehicles.
    The JPDO concept requires a shift in the historical model of air 
transportation from a system based on established physical/technology 
infrastructure and the capabilities of service providers to a system 
that is flexible and adaptable to the varied needs and capabilities of 
its users. This concept also requires that safety be approached in a 
prognostic fashion and promotes a new safety culture that exploits risk 
from a predictive perspective. The IIFDT project supports this concept 
by developing adaptive flight deck systems, ensuring flexibility not 
only on the system-end, but also on the user-end, and with proactive, 
predictive design and risk assessment tools and techniques necessary 
for NGATS implementation.
    IIFDT uses as a guide an assumed future state of the U.S. National 
Airspace System (NAS). This future state is based upon the current 
vision described by the JPDO. As envisioned, the roles and 
responsibilities of the flight deck elements are clearly expanded. As 
envisioned, flight deck systems will have access to increasing amounts 
of information and new and innovative means of communicating its 
desires to an Air Traffic Management (ATM) system; there will be a move 
from ``see-and-avoid'' toward ``sense-and-avoid'' flight operations, 
and there will be a delegation of varying levels of responsibility to 
the flight deck for managing separation and generating/negotiating 4D 
trajectories relative to weather and other ATM constraints. Each of 
these capabilities is considered from a vehicle-centric safety 
perspective by the IIFDT project.
    In addition, the degree of automation in the aircraft and in the 
ATM system will increase. Direct pilot/controller communications will 
be reduced and replaced by agent-based interactions between air and 
ground systems. The demands of these future systems and the need to 
keep the flight crew fully aware of current and future safety and ATM 
situations are challenges for the IIFDT research. An initial assumed 
future state is made by IIFDT to establish the context of the initial 
work. Subsequent updates to this assumed future state are made in close 
coordination with NASA's Airspace Systems Program and based on the 
research progress. These revisions may require adjustments to our plan 
as priorities change and as safety issues emerge or are resolved. This 
approach ensures an integrated and relevant technology tool set in 
support of NGATS as it comes on-line.
    The IRAC project will conduct research to advance the state of 
aircraft flight control automation and autonomy in order to prevent 
loss-of-control in flight, which is the accident category that 
currently has the highest number of aircraft accidents. Taking into 
account the advanced automation and autonomy capabilities as envisioned 
by NGATS, the research will pursue methodologies to enable an aircraft 
to automatically detect, avoid, and/or safely recover from an unusual 
attitude or adverse condition.
    The goal of the IVHM project is to develop technologies to 
determine system/component degradation and damage early enough to 
prevent or gracefully recover from in-flight failures. The project will 
develop tools and techniques to (1) determine the state of subsystems 
(airframe, propulsion, electrical power, avionics, hydraulics and 
electromechanical) such that the state of the entire vehicle can be 
determined by accurate prognosis, (2) diagnose coupled degradation/
malfunction/failure/hazard conditions and predict their effects on 
vehicle safety, and (3) mitigate damage/degradation/failures in flight. 
This project is clearly aligned with the NGATS vision of future air 
vehicles that use new materials and design processes for improved 
resistance to impact damage and flammability, with automatic health 
monitoring combined with self-healing systems in aircraft.

Questions submitted by Representative Mark Udall

Q1.  Through what mechanisms are the views of industry being 
incorporated in the JPDO planning process, and how well are those 
mechanisms working thus far? What, if anything, would you recommend be 
done to improve the interaction of industry with the JPDO planning 
process?

A1. The primary mechanism for incorporating the views of industry is 
through the NGATS Institute, which was established for the express 
purpose of ensuring the involvement of the private sector in the JPDO. 
Through this mechanism there are now 200 pro bono private sector 
participants on the JPDO IPTs. It is still early in the process, with 
private sector involvement beginning less than six months ago. 
Nevertheless, the institute has surveyed their members to gain insights 
on where improvements can be made and we are in the process of 
establishing an action plan to address what we learned.

Q2.  Are there any technology transfer issues that need to be 
addressed? Will NASA, for example, support development activities to 
the point where industry will pick up advanced development needed for 
deployment of key technologies?

A2. Technology transfer is a critical issue for the JPDO. To achieve 
NGATS, technology has to transition into operation, which means that as 
research matures there has to be an active, technical partnership 
between those performing the research and those involved in 
implementation of the technology. Research is being conducted by all of 
the JPDO member agencies in support of the common vision, but the FAA 
ultimately has the lead role in its implementation. Therefore, the JPDO 
will have to be completely cognizant of the technical developments of 
the research being conducted in support of the NGATS to understand and 
help manage the system requirements development as the research 
matures.

Questions submitted by Representative Sheila Jackson Lee

Q1.  According to your testimony, NASA's budget for air traffic 
management R&D will decline from $174 million in FY 2006 down to $89.4 
million in FY 2011.

     What information from the JPDO regarding NGATS R&D needs gave you 
confidence that NASA could cut its R&D funding level by that amount 
over the next five years?

Q2.  What other factors influenced the five-year funding profile for 
air traffic management R&D at NASA?

A1, A2. NASA is putting a strategic plan in place that addresses many 
of the research challenges facing the successful realization of the 
JPDO vision for the Next Generation Air Transportation System (NGATS). 
While ATM is a significant element of that vision, it is not the only 
challenge that must be addressed. The future air vehicles of the system 
will need to address substantial noise, emissions, efficiency, and 
performance challenges. These challenges will be addressed in our 
Fundamental Aeronautics Program. Furthermore, as we develop increased 
capabilities in our future air vehicles and airspace system, we must 
continue to conduct the research necessary to ensure that our high 
safety standards are not compromised. Our Aviation Safety Program will 
address aircraft safety technological barriers that would otherwise 
constrain the full realization of the NGATS. Thus, in addition to the 
fact that the entirety of the Airspace Systems Program is devoted to 
ATM research in support of NGATS, a substantial amount of research 
conducted in the Fundamental Aeronautics Program and the Aviation 
Safety Program will also directly address NGATS challenges. NASA has 
constructed a balanced research portfolio that draws upon our NASA-
unique capabilities to address ATM, environmental, and safety-related 
research challenges, all of which must be worked in order for the NGATS 
vision to be realized in the JPDO mission.
    It should be noted that much of the decline quoted occurs from FY 
2006 to FY 2007, consistent with the overall decline in the aeronautics 
budget from FY 2006 to FY 2007. The FY 2007 budget for ATM research in 
support of NGATS is $120 million and remains essentially constant in FY 
2008, with a decline in the outyears to $90 million in FY 2011. It 
should also be noted that the decline from FY 2006 to FY 2007 in the 
Airspace Systems program is due in part to the phasing out of certain 
projects. The Small Aircraft Transportation Systems (SATS) was 
scheduled to be completed in FY 2006 after a successful demonstration 
in June 2005. UAVs in the NAS have been transitioned to the FAA, per 
direction from the FY 2006 NASA Appropriations language. The Space-
Based Technologies Project has also been phased out, because it was 
duplicative of research being conducted by the DOD. The sum total of 
these FY 2006 budgets was $13.6 million. In addition, $8.0 million of 
site-specific earmarks were not included in the FY 2007 budget. These 
items represent over 12 percent of the FY 2006 Airspace Systems budget.
    Finally, it is important to recognize that while the NGATS vision 
is a very important element of NASA's aeronautics research portfolio, 
NASA has an obligation to ensure that it applies its unique research 
capabilities to other national needs. This obligation includes 
partnerships with the DOD and industry in support of cutting-edge 
research in hypersonics, supersonics, subsonic fixed wing and 
rotorcraft. This obligation also includes a commitment to support the 
Vision for Space Exploration by conducting fundamental, cutting-edge 
research in such areas as hypersonics, supersonics, aerothermodynamics, 
advanced materials, and integrated vehicle health management.

Questions submitted by Representative Jim Costa

Q1.  Does the JPDO believe that the Next Generation Air Transportation 
System (NGATS) will be able to handle three times today's traffic if 
the Nation's major airports are not modernized as well?

A1. The JPDO believes that airports are part of the transformation 
effort. The JPDO assumes that new runway development will continue to 
occur where demand dictates. In addition, from an operations 
perspective, the JPDO is examining ``super-density'' operations at the 
Nation's most congested airports. This capability will increase 
throughput on individual runways and reduce or eliminate capacity-
limiting dependencies between the set of runways at an airport. Super-
density will also allow, at some airports, an additional runway to be 
built between existing parallel runways without any capacity-limiting 
dependency. JPDO is also working toward the ability to handle greater 
airspace terminal area complexity, allowing airports neighboring large 
hubs to integrate seamlessly, allowing them to serve more traffic as 
demand and demographics dictate. Finally, the JPDO is studying issues 
of airport terminal flows and security operations that will allow 
greater passenger flow from the curb to the gate.

Q2.  How will the NGATS be able to mitigate the impact severe weather 
has on the system?

A2. The NGATS seeks to minimize the adverse effects of weather on air 
transportation. Today, uncoordinated weather data and forecasts are 
often provided to local decision-makers who make their own judgments on 
how to use the data; this often results in ineffective or conflicting 
decisions. The NGATS, relying on real-time network-centric distribution 
of information, will provide an up-to-the-minute, common weather 
picture to all decision-makers. This data will also be inserted into 
new algorithms and processes that will reduce or eliminate the need for 
human interpretation. NASA's research into traffic flow management 
validates algorithms and processes for probabilistic weather 
information that are required to increase airspace capacity by enabling 
efficient traffic management and dynamically adjusted system flows 
mitigating the impact of severe weather events.
    The NGATS also seeks to implement Equivalent Visual Operations at 
air portals. This will increase capacity by enabling pilots to navigate 
without visual references and maintain safe distances from other 
aircraft during non-visual conditions, such as low clouds or fog. 
NASA's research in surface management optimization and wake vortex 
prediction will employ the network-centric distribution of weather 
information enabling important elements of Equivalent Visual 
Operations.

Q3.  Keeping in mind that nearly all of today's delays are due to 
severe weather, runway limitations, and over scheduling: Is it 
reasonable for us to believe that the billions of dollars the JPDO's 
proposals are sure to cost in the implementation of the NGATS will 
solve the delay problems we already face today?

A3. The transformation that the JPDO proposes fully accounts for the 
issues facing the system today and into the future, including weather. 
Specifically with respect to weather, NGATS focuses on several factors. 
First, today, low visibility conditions reduce the efficiency of flight 
operations, leading to delay in the system. NGATS is focused on 
integrating several technologies and procedures to create an 
``equivalent visual'' capability that would eliminate low visibility as 
an efficiency and delay problem in the system. Second, the JPDO is 
working to integrate today's weather forecasting and dissemination 
systems into a network-based weather data system that would directly 
feed automation systems. Such automation systems would provide the most 
efficient, highest capacity routes around severe weather systems.
    All of the changes that JPDO proposes will be validated through 
high-fidelity modeling and simulation and eventually through flight 
operational demonstrations to confirm that sufficient benefits will 
accrue to justify the investment. As a part of this effort, the JPDO 
will maintain objective metrics of capacity, cost, safety, etc.

Q4.  What does the JPDO see as the most urgent problem that needs to be 
addressed in the near future, not 25 years down the road?

A4. The JPDO has generated its first draft of the detailed operational 
improvement roadmaps that lays out the transition from today to the 
NGATS end-state. In the near-term, critical infrastructure, such as 
cooperative surveillance and digital ground-to-air data communications 
need to be established to support 4D flight trajectories and higher 
capacity operations. In addition, the policies associated with a 
performance-based NAS need to be established to ensure aircraft are 
capable of taking advantage of this infrastructure and associated 
services.
    It is also critical that research programs are established that 
ensure that the critical automation needed to achieve the full capacity 
benefits is available by the mid-teens. In addition, safety and 
environmental research is also critical to ensure that safety and 
environmental compatibility keeps pace with the rise in operations.
                   Answers to Post-Hearing Questions
Responses by Robert A. Pearce, Acting Director, Joint Planning and 
        Development Office, Federal Aviation Administration

Questions submitted by Chairman Ken Calvert

Q1.  Please explain the process by which participating agencies' 
budgets for JPDO-related activities are coordinated and integrated for 
review.

A1. The JPDO plays an active role in working with the respective NGATS 
partner agencies to assure the alignment of the programs and budgets 
that are necessary to support the initiative. Each year, the JPDO 
issues budget guidance to each partner agency outlining specific 
expectations and direction around key NGATS capabilities and programs. 
This guidance is closely tied to the NGATS Integrated National Plan and 
the Operational Improvement Roadmap. The guidance includes requirements 
for research, program development and implementation. The JPDO works 
closely with the respective agencies to identify how well they are 
doing at meeting the objectives of our budget guidance. The process 
involves a comprehensive alignment of agency budget items and needed 
NGATS capabilities. This process allows the JPDO to identify gaps in 
funding as well as any new requirements that the agencies might 
recommend as being necessary to support NGATS capabilities.

Q2.  Please provide a consolidated FY07 budget request showing each 
agencies contributions to JPDO related activities.

A2. The JPDO is jointly funded by NASA and the FAA. In FY07 each agency 
requested $18 million to fund JPDO related activities.

Q3.  Several witnesses noted the importance of human factors research 
being integral to development of the NGATS. Does the JPDO portfolio 
include human factors research? If so, how much funding is going into 
this research and which agency is performing it?

A3. One of the key objectives as defined in the NGATS Integrated 
National Plan is the funding of research to evaluate the alternative 
allocations of air traffic management services ``between the ground and 
the air, and between automation and the ``human'' component.'' This 
element of NGATS, in other words, human factors research, is an 
important and critical component of the initiative. At this point 
however, much of the initial work on NGATS has been focused on the 
foundational programs that will support the initiative. Of course, 
human factors research, as it relates to operations within the National 
Airspace System is conducted by both NASA and FAA. However, specific 
research focused on NGATS, while planned, has not begun yet.

Q4.  FAA has a mixed record in adopting new technologies for the air 
traffic control system. What steps are being taken to ensure that 
technologies developed by NASA and other participating agencies will be 
successfully transitioned into the operational NGATS?

A4. The challenge in implementing any new technology is working with 
the user in a partnership to be able to achieve a true operational 
transition. This means that as research matures there has to be an 
active collaboration between those performing the research and those 
involved in implementation of the technology. That is the challenge 
that the JPDO, by working so closely with NASA and the FAA, as well as 
the other partner agencies and the private sector is addressing. Our 
goal, by achieving this partnership is to assure a more rapid, 
efficient and comprehensive implementation of new technologies and 
capabilities.

Questions submitted by Representative Mark Udall

Q1.  Describe how and to what extent NOAA is involved in weather-
related R&D needed to advance the NGATS.

A1. NOAA leads one of the JPDO's eight Integrated Product Teams. The 
function of that IPT is to develop a system-wide capability to reduce 
weather delays. The IPTs were established in late 2004 to plan and own 
the execution of the corresponding NGATS strategies. These teams of 
government and private sector technical experts are applying best 
practices to achieve their assigned objects.
    Current weather research efforts span four departments/agencies 
(FAA, NASA, NOAA and DOD) each tailored to its own mission. 
Synchronizing these missions will allow the JPDO to align the four 
agencies toward a common weather capability. By updating existing 
weather information management standards, policies and data access/
publication privileges, the NGATS will provide an integrated platform 
for weather decision systems. These efforts will harmonize agency 
programs aimed at the common objective of seamless integration of 
weather information. Moreover, it will eliminate duplication and save 
taxpayer dollars.

Q2.  Through what mechanisms are the view of industry being 
incorporated in the JPDO planning process, and how well are those 
mechanisms working thus far? What, if anything, would you recommend be 
done to improve the interaction of industry with the JPDO planning 
process?

A2. The primary mechanism for incorporating the views of industry is 
through the NGATS Institute, which was established for the express 
purpose of ensuring the involvement of the private sector in the JPDO. 
Through this mechanism there are now 200 pro bono private sector 
participants on the JPDO IPTs. In addition, funded studies to support 
the definition of NGATS will begin shortly. This new form of 
collaboration is still in its early stages. Nevertheless, the Institute 
has surveyed their members to gain insights on where improvements can 
be made and we are in the process of establishing an action plan to 
address what we have learned.

Q3.  Are there any technology transfer issues that need to be 
addressed? Will NASA, for example, support development activities to 
the point where industry will pick up advanced development needed for 
deployment of key technologies?

A3. Technology transfer is a critical issue for the JPDO. To achieve 
the goals of the NGATS initiative technology has to transition from 
research into operation. This means that as research matures there has 
to be an active, technical partnership between those performing the 
research and those involved in implementation of the technology. That 
partnership should be dynamic and include the validation of these 
technologies at various stages of the development. It should also be 
focused on ensuring that the technology can be implemented with an 
acceptable level of risk.
    The JPDO has a profound interest in developing and facilitating 
this kind of partnership. Aggressive transfer of capabilities from 
research to testing and then implementation is a critical element in 
assuring the success of NGATS.

Questions submitted by Representative Jim Costa

Q1.  Does the JPDO believe that the Next Generation Air Transportation 
System (NGATS) will be able to handle three times today's traffic if 
the Nation's major airports are not modernized as well?

A1. The JPDO believes that airports are part of the transformation 
effort. The JPDO assumes that new runway development will continue to 
occur where demand dictates. In addition, from an operations 
perspective, the JPDO is examining ``super-density'' operations at the 
Nation's most congested airports. This capability will increase 
throughput on individual runways and reduce or eliminate capacity-
limiting dependencies between the set of runways at an airport. Super-
density will also allow, at some airports, an additional runway to be 
built between existing parallel runways without any capacity-limiting 
dependency.
    JPDO is also working toward the ability to handle greater airspace 
terminal area complexity, allowing airports neighboring large hubs to 
integrate seamlessly, and allowing them to serve more traffic as demand 
and demographics dictate. Finally, the JPDO is studying issues of 
airport terminal flows and security operations that will allow greater 
passenger flow from the curb to the gate.

Q2.  How will the NGATS be able to mitigate the impact severe weather 
has on the system?

Q3.  Keeping in mind that nearly all of today's delays are due to 
severe weather, runway limitations, and over scheduling: Is it 
reasonable for us to believe that the billions of dollars the JPDO's 
proposals are sure to cost in the implementation of the NGATS will 
solve the delay problems we already face today?

A2, A3. In addressing the issue of weather NGATS focuses on several 
factors. First, in today's operational environment, low visibility 
conditions reduce the efficiency of flight operations leading to delays 
in the system. NGATS is focused on integrating several technologies and 
procedures to create an ``equivalent visual'' capability that would 
eliminate low visibility as an efficiency and delay problem in the 
system.
    Second, the JPDO is pushing to integrate today's weather 
forecasting and dissemination systems into an integrated, network-based 
weather data system that would directly feed flight management 
automated systems. These systems would provide the most efficient, 
highest capacity routes around severe weather systems.
    All of the changes that JPDO proposes will be validated through 
high-fidelity modeling and simulation and eventually through flight 
operational demonstrations to confirm that sufficient benefits will 
accrue to justify the investment. As a part of this effort, the JPDO 
will maintain objective metrics of capacity, cost, and safety.

Q4.  What does the JPDO see as the most urgent problem that needs to be 
addressed in the near future, not 25 years down the road?

A4. The JPDO has generated its first draft of the detailed Operational 
Improvement Roadmap that lays out the transition from today to the 
NGATS end-state. In the near-term, critical infrastructure, such as 
cooperative surveillance and digital ground-to-air data communications 
need to be established to support 4D flight trajectories and higher 
capacity operations. In addition, the policies associated with a 
performance-based National Air Transportation System need to be 
established to ensure aircraft are capable of taking advantage of this 
infrastructure and associated services.
    It is also critical that the research programs are established that 
ensure that the critical automation needed to achieve the full capacity 
benefits are available by the end of the next decade. In addition, 
safety and environmental research is also critical to ensure that 
safety and environmental compatibility keeps pace with the rise in 
operations.
                   Answers to Post-Hearing Questions
Responses by David A. Dobbs, Assistant Inspector General for Aviation 
        and Special Program Audits, U.S. Department of Transportation

Questions submitted by Chairman Ken Calvert

Q1.  Several witnesses stated that maintaining support for the JPDO 
from its participating agencies over the long-run was critical. What 
organizational and management changes, if any, do you recommend to 
enhance long-term support of the JPDO?

A1. Maintaining long-term support for JPDO by the participating 
agencies is critical to the success of NGATS, particularly given that 
the transition to the next generation systems will take years and the 
fact that FAA conducts little long-term air traffic management 
research. These are the reasons why we highlighted the importance of 
developing mechanisms for the alignment of agencies' budgets and plans 
related to JPDO efforts.
    The most urgent management challenge focuses on filling the 
position of the JPDO director, which is currently vacant. This is 
important given that the JPDO has no authority to align diverse agency 
resources.
    Another management challenge that will require attention is 
effectively linking the JPDO and the FAA's Air Traffic Organization 
(ATO). This linkage is important because the JPDO as currently 
structured is a planning organization. The ATO is responsible for 
managing modernization efforts, such as Automatic Dependent 
Surveillance--Broadcast (ADS-B) that is prominently highlighted in the 
JPDO's recent progress report.

Q2.  What critical policy decisions must be made by the Senior Policy 
Committee before the JPDO can start down a particular technology and 
architecture path? For example, do decisions need to be made on the 
degree to which responsibility for aircraft can be handed over to 
automated systems, or whether some airplanes will be allowed to fly 
using ``visual flight rules'' instead of filing a flight plan, or how 
NGATS will treat commercial aviation vs. general aviation? What 
significant policy issues do you think fall into this category?

A2. There is no question that the JPDO must address policy questions as 
well as technology development. At this time, we see the Senior Policy 
Committee (SPC) focusing on issues that cut across agencies, such as 
research and development funding levels, making sure efforts are 
aligned, and larger questions about who ultimately pays for what 
elements of NGATS. The SPC will also likely be engaged on determining 
the appropriate back-up for satellite-based navigation systems, which 
is a very important matter.
    The decisions about whether some responsibilities can be shifted 
from the controller to the pilot and treatment of various types of 
airspace users (i.e., passenger airlines and general aviation) will 
likely fall on FAA. The SPC will help shape these policy issues but the 
ultimate responsibility will likely be with FAA given that it is 
responsible for safety and managing the National Airspace System.

Q3.  What are your views about the wisdom of having JPDO contract out 
much of the development work for NGATS to a lead systems integrator for 
NGATS? What are the advantages and disadvantages of bringing in a lead 
systems integrator for NGATS?

A3. There is considerable discussion in industry and FAA about 
contracting out development work for NGATS and whether or not a lead 
systems integrator will be needed. The central issue focuses on what 
will be done differently from past modernization efforts with NGATS 
initiatives (other than conducting demonstration projects) to ensure 
success and deliver much needed benefits to FAA and airspace users.
    The JPDO and FAA face a wide range of risks, such as complex 
software development and complex systems integration and engineering 
challenges with NGATS initiatives (such as SWIM and ADS-B) and existing 
FAA projects. Another challenge will be synchronizing Government 
investments (new ground systems) and industry investments (new 
avionics) on an agreed to schedule.
    To help manage the transition to the next generation system, FAA is 
considering whether or not a lead systems integrator--a private 
contractor that would help link new and existing systems and help 
manage other contractors--will be required. DOD has relied on this for 
complex weapon systems. Models for using a lead system integrator 
throughout the Government differ with respect to roles and 
responsibilities. Questions about the role, responsibility, and 
expected costs of such an approach will need to be examined.
    A lead system integrator is not a silver bullet for getting NGATS 
on line, and we see both advantages and disadvantages. Advantages focus 
on obtaining specialized expertise that helps to integrate diverse 
contractors, familiarity with current market solutions and potential 
off-the-shelf products and relieving the government from the burden of 
linking complex systems. However, there are disadvantages that have to 
be considered. For example, a lead systems integrator requires constant 
oversight to ensure that it has the Government's best interests in 
mind. Also, decisions need to be made whether or not intellectual 
property rights will remain the property of the Government, or will 
remain with the contractors.

Questions submitted by Representative Mark Udall

Q1.  Would a requirement--enforced by OMB--that the agencies involved 
in the JPDO develop an annual, coordinated, cross-agency budget laying 
out the resource allocations by agency and by JPDO-defined goal make 
the JPDO planning process more credible and help overcome the intrinsic 
weakness of a JPDO that doesn't actually control budgets?

A1. The OMB can play an important role in aligning resources and help 
compensate for the fact that the JPDO has no authority to redirect 
agency resources. As stated in our testimony, alignment of budgets 
between agencies is critical for the long-term success of the JPDO. 
Indeed, JPDO recognizes that much work is needed to align agency 
budgets and to develop mechanisms that will sustain alignment over the 
long haul. JPDO is working with OMB to develop an integrated budget 
document that provides a single business case (a document similar to 
the ``OMB Form 300'') to make sure efforts are aligned. As part of this 
effort, JPDO has promised to provide OMB in the next several months 
with an enterprise architecture (an overall technical blueprint) for 
the next generation system, as well as a specific list of programs in 
other agency budgets it intends to leverage.

Q2.  What do you consider to be the most important R&D challenges that 
will have to be overcome if the JPDO is to successfully deliver a Next 
General Air Transportation System?

A2. There are many important R&D challenges that must be overcome to 
make NGATS a reality. We discussed many of these challenges in our 
examination of the JPDO's integrated product teams which is detailed in 
our prepared statement. For example, it will be challenging to 
integrate up-to-date weather information into new planned automation 
efforts being developed by NASA for handling three times more traffic. 
Also, we highlighted a number of management challenges ranging from 
technology transfer to monitoring alignment over the long haul.
    A very important challenge is making sure that the expected changes 
(for both pilots and controllers) envisioned by the JPDO can safely be 
accommodated. For example, the JPDO expects to automate a great deal of 
what a controller does today to ensure safe separation of aircraft. The 
Congress, FAA, and airspace users will need to know what functions can 
be automated and how such concepts as dynamic airspace management 
(flexible airspace sectors) can be implemented.

Q3.  How well are the various agencies R&D programs aligned with the 
requirements of the NGATS? What will it take to ensure that the R&D 
programs are properly aligned?

A3. Thus far, our work on three of JPDO's Integrated Product Teams 
(e.g., Weather, Agile, and Shared Situational Awareness) shows that 
there is considerable coordination among the participating federal 
agencies but much work remains to align agency budgets and plans. 
Moreover, the IPT leads do not have the authority to commit agency 
(FAA) resources to JPDO efforts and often have no products other than 
plans.
    We see the most potential for the most progress with coordination 
and alignment between JPDO and NASA. Even though NASA is restructuring 
its aeronautical research program and spending less than in the past, 
the JPDO and NASA are working together on several complex concepts for 
new automation systems and the timing of research projects. However, 
experience shows that NASA will need a much clearer picture of FAA's 
requirements--and when prototypes would be needed--to better support 
the next generation system.
    To ensure that R&D programs are properly aligned, we believe that 
the JPDO needs to continue work with the Office of Management and 
Budget to develop an integrated budget document that provides a single 
business case and complete an architecture for the next generation 
system. The JPDO also needs to generate a specific list of programs in 
other agency budgets it intends to leverage and provide that 
information to the Congress.

Q4.  Is the current structure and authority of the JPDO adequate to 
meet the responsibilities given the Office to develop and implement the 
NGATS, and if not, what changes are needed? If you think changes are 
needed, how soon do they need to be made?

A4. As currently structured, the JPDO is a planning and coordination 
office-not an implementation or program execution office. FAA is 
responsible for operating the National Airspace System and the Agency's 
Air Traffic Organization (ATO) will be responsible for implementing 
JPDO initiatives. At this stage, the current structure of the JPDO is 
probably about right given the maturity of planning and architecture 
development. We do believe it will be important to establish 
connectivity between the JPDO and FAA's ATO as well as clear lines of 
accountability and responsibility between the two organizations.

Q5.  What specific roles are human factors R&D and training playing in 
the design of the NGATS, and how important are they to the overall 
success of the NGATS? What do you think are the most important human 
factors issues to be addressed? NASA has lost a number of its human 
factors researchers in recent years--what impact will that have on the 
ability to address the key human factors issues associated with the 
NGATS?

A5. A sound understanding of the human factors issues associated with 
the NGATS is absolutely essential. Targeted human factors research and 
the development of new training regimes for controllers and pilots will 
be crucial to allow the system to handle three times more traffic. 
However, JPDO's detailing of specific requirements (through the 
enterprise architecture process) is critical in making sure human 
factors research is targeted on the most important areas.
    The most important human factors issues with NGATS focus on how 
controllers and pilots will be integrated in a increasingly complex 
aviation system, and how functions can be allocated between human 
operators and automated systems. These changes will extend beyond the 
traditional computer-machine interface and have important workforce and 
safety implications. For example, FAA expects the controller's role to 
change from direct, tactical control of aircraft to one of overall 
traffic management. There are also significant human factors concerns 
for pilots, who will be expected to rely more on data link 
communications and satellite-based systems. This has implications for 
crew training and the positioning of cockpit displays on the flight 
deck.
    We emphasized the need for focused human factors work because 
history has shown that insufficient attention to human factors can 
increase the cost of acquisition and delay much needed benefits. For 
example, problems in the late 1990s with FAA's Standard Terminal 
Automation Replacement System were directly traceable to not involving 
users early enough in the process. It will be important to have 
sufficient human factors analysis and studies to ensure that the 
changes envisioned by the JPDO can be safely accommodated.
    As stated in our testimony, NASA is restructuring its aeronautics 
research program to place a greater emphasis on long-term research 
investments. Part of this restructuring involves the airspace systems 
program which is intended to develop the new automation systems 
envisioned by the JPDO. We have little insight into internal NASA 
operations but we have been told by NASA officials that human factors 
work will not suffer and work will be embedded in individual projects.

Q6.  What is the relationship between FAA's Air Traffic Organization 
and the JPDO--is it sufficiently well defined?

A6. The relationship between the ATO and JPDO is evolving and clear 
lines of accountability and responsibility need to be established. 
Although the JPDO's progress report discusses new capabilities such as 
ADS-B and SWIM, the ATO is responsible for managing these efforts as 
well as establishing funding levels, schedule, and performance 
parameters.
    In our written statement, we point out that ADS-B and SWIM are not 
yet integrated into ongoing communications and automation efforts but 
need to be. If the JPDO and ATO are not sufficiently linked and clear 
lines of accountability are not established, then cost and schedules 
for NGATS will not be reliable and expected benefits will be diminished 
or postponed.
    We have shared our concerns about effectively linking the JPDO and 
ATO and establishing clear lines of accountability with the Chief 
Operating Officer and the Acting Director for ATO Planning. They 
recognize the need for close coordination and are examining ways to 
better link the two organizations. One step that is underway is to 
adjust the Operational Evolution Plan (the Agency's capacity blueprint) 
to reflect JPDO efforts. This is an important watch item for the 
Congress as it tracks progress with NGATS.

Q7.  Describe how and to what extent NOAA is involved in weather-
related R&D needed to advance the NGATS.

A7. NOAA is involved in NGATS planning efforts, contributing about $2.5 
million a year to support JPDO through the National Weather Service 
(NWS). JPDO plans call for a single, national weather observation and 
modeling database for current and predicted aviation weather.
    The NWS has a long history of supporting aviation and working with 
FAA. In fact, Federal Aviation Regulations require pilots and 
dispatchers to consult NWS weather observations and forecasts for 
departure and arrival airports before beginning flight operations.
    As we noted in our statement, the JPDO can take better advantage of 
NOAA efforts. Specifically, the Office of Atmospheric Research and the 
National Environmental Satellite Data and Information Service were not 
directly involved in JPDO efforts when we conducted our review. These 
agencies represent about a $1.1 billion annual investment in 
atmospheric science platforms and research skills that could be 
leveraged to meet the NGATS plan weather requirements. We have shared 
our concerns about more effectively leveraging NOAA efforts with the 
JPDO and it recognizes it can do a better job.

Q8.  Through what mechanisms are the views of industry being 
incorporated in the JPDO planning process, and how well are those 
mechanisms working thus far? What, if anything, would you recommend be 
done to improve the interaction of industry with the JPDO planning 
process?

A8. The JPDO established the NGATS Institute in March 2005 specifically 
to allow for industry participation in shaping the next generation air 
traffic management system. Currently, industry representatives are 
participating in JPDO IPTs. For example, JPDOs progress report cited 
that over 140 industry and private sector participants (from 66 
organizations) are involved in IPT planning efforts.
    Industry has expressed concern that participation in JPDO 
activities might preclude them from bidding on future FAA acquisitions 
related to NGATS because it may create an organizational conflict of 
interest. Generally speaking, FAA's Acquisition Management System (AMS) 
precludes contractors from competing on production contracts if the 
contractor either participated in or materially influenced the drafting 
of specifications to be used in future acquisitions for production 
contracts, or had advanced knowledge of the requirements.
    FAA is aware of industry's concern and is working to ensure that 
industry participation does not result in organizational conflicts of 
interest. JPDO officials believe--and we agree--that resolving this 
issue will be essential to get the desired skill and expertise from 
industry.

Q9.  Are there any technology transfer issues that need to be 
addressed? Will NASA, for example, support development activities to 
the point where industry will pick up advanced development needed for 
deployment of key technologies?

A9. As stated in our testimony, technology transfer is a central issue 
for the JPDO because the law envisions new capabilities developed by 
other federal agencies (or the private sector) being transitioned into 
the National Airspace System. The JPDO will have to pay much greater 
attention to this matter to make sure industry can pick-up the advanced 
development needed to deliver new systems.
    Our past work shows that FAA has experienced mixed success in 
transitioning systems developed by others into the National Airspace 
System. For example, FAA ultimately abandoned work on a new controller 
tool developed by NASA (the Passive Final Approach and Spacing Tool) 
for sequencing and assigning runways to aircraft because of complex 
software development and cost issues.
    As we noted in our review of FAA's Free Flight Phase 1 Program, the 
use of ``technology readiness levels'' could be useful to help assess 
maturity of systems and ease issues associated with the transfer of 
technology. Both NASA and DOD have experience with categorizing 
technical maturity. This could help reduce cost, schedule, and 
technical risk with implementing JPDO initiatives.

Question submitted by Representative Sheila Jackson Lee

Q1.  What is the reason for the lack of participation of the air 
traffic controllers in the activities of the JPDO, and what is the 
impact of their lack of participation?

A1. There are a number of reasons why the controllers union is not 
participating in JPDO activities. Here are the facts as we understand 
them.
    In June 2005, FAA terminated its liaison program through which air 
traffic controllers had been assigned as liaisons to its major system 
acquisition program offices. This included the liaison assigned to 
JPDO. Since that time, NATCA has not been a participant in planning 
NGATS.
    Although the NGATS Institute Management Council includes a seat for 
the union, a NATCA official told us that the union's head had been 
unable to attend the council's meetings. According to JPDO officials, 
the council has left a seat open in hopes that the controllers will 
participate in NGATS.
    Currently, the absence of NATCA on the JPDO has had minimal impact 
on the NGATS. The JPDO is currently relying on former controllers to 
help define human factors issues. However, further down the road, 
especially when focused human factors work is needed, the lack of 
participation by NATCA could seriously hamper completion of the 
required work.

Questions submitted by Representative Jim Costa

Q1.  Does the JPDO believe that the Next Generation Air Transportation 
System (NGATS) will be able to handle three times today's traffic if 
the Nation's major airports are not modernized as well?

A1. Without question, continued airport investments will be essential 
to meet the forecasted demand for air travel. In fact, the JPDO has one 
IPT focused specifically on airports. Also, NGATS as envisioned by the 
JPDO takes other FAA plans such as the ``Flight Plan'' and 
``Operational Evolution Plan'' into consideration. Both plans emphasize 
the importance of continued airport development. The major thrust of 
NGATS is to use a combination of things--new automation, new 
procedures, better weather information, and advanced avionics--to meet 
the anticipated demand for air travel. We note that non-hub airports 
are also expected to play an important role in enhancing capacity.

Q2.  How will the NGATS be able to mitigate the impact severe weather 
has on the system?

A2. A key element of NGATS is mitigating the impact of severe weather 
on the National Airspace System. JPDO plans call for visual flight 
rules operations even in instrument meteorological conditions, and 
adjusting traffic flows quickly to avoid weather hazards like 
microbursts, thunder storms, and pockets of severe air turbulence. In 
short, the NGATS plan envisions the future system operating like a good 
weather day regardless of the weather conditions.
    JPDO plans call for mitigating the impact of bad weather in two 
ways. First, the JPDO intends to increase situational awareness among 
all airspace users by providing a common, shared picture of aviation 
weather and air traffic conditions through a net-centric system, known 
as the System Wide Information Management System (SWIM). At some point 
in the future, the JPDO envisions that aircraft will become nodes on a 
network and exchange weather information with ground based computers.
    Second, the JPDO plans call for automating flight planning and 
flight tracking to allow for flexible flight paths (called ``conflict 
free trajectories'') that incorporate current and predicted weather 
patterns to avoid weather hazards. This is expected to allow for more 
flexible routing of air traffic than today's system can accommodate.

Q3.  Keeping in mind that nearly all of today's delays are due to 
severe weather, runway limitations, and over scheduling: Is it 
reasonable for us to believe that the billions of dollars the JPDOs 
proposals are sure to cost in the implementation of the NGATS will 
solve the delay problems we already face today?

A3. While it is reasonable to believe that JPDO initiatives will help 
mitigate delays, it is hard to imagine that they can be totally 
eliminated. The goals set by the JPDO to handle three times more 
traffic and reduce delays are ambitious but needed. Consequently, there 
is almost universal agreement that changes are needed in the current 
system (or business as usual) to boost capacity, reduce delays, and 
help reduce FAA's cost of providing services.
    As we have noted in the past, the delay problem is a result of many 
factors, including airline scheduling, airspace constraints, runway 
limitations, and bad weather. While new runways and better technology 
will help, there may be some airports where adding additional capacity 
to meet demand is not an option. This is why we have called on the DOT 
and FAA to examine market-based solutions where adding additional 
capacity is not an option. A case in point is LaGuardia Airport. This 
is one reason why the JPDO must address policy questions as well as 
technology development issues to address the delay issue.
    Today, weather causes about of 70 percent of all air traffic 
delays. Because of the interconnectivity of the National Airspace 
System, bad weather in one location can have a ripple effect 
nationwide. The JPDO's focus on getting much better weather information 
than we have today to all airspace users and linking new automation 
systems with up-to-date weather data offer significant potential to 
reduce delays.
    It is difficult, if not impossible, to determine if JPDO plans will 
be cost effective in meeting the delay problem because of the large 
number of unknowns. For example, it is unclear how much NGATS will 
cost. Further, work remains to link the policies, procedures, and 
airspace changes needed to get the full benefits of NGATS initiatives. 
It will be important for FAA and the JPDO to analyze and identify the 
costs and benefits from NGATS initiatives to ensure that the 
anticipated changes have the desired impact on reducing delays at a 
reasonable cost.

Q4.  What does the JPDO see as the most urgent problem that needs to be 
addressed in the near future, not 25 years down the road?

A4. We cannot speak for the JPDO, but we see the main problems facing 
FAA in the near-term as enhancing capacity, reducing delays, boosting 
controller productivity, and controlling operating costs. To accomplish 
this, we believe that there are several areas that need attention by 
FAA as well as the JPDO, specifically:

        <bullet>  Leadership. The position of the JPDO Director is 
        currently vacant--FAA needs to find the right person to lead 
        this effort.

        <bullet>  Establishing connectivity between JPDO plans and Air 
        Traffic Organization (ATO) efforts. This is important because 
        the JPDO, as currently structured, is a planning and 
        coordinating organization--not an implementation or program-
        execution office.

        <bullet>  Develop the NGATS enterprise architecture and a 
        roadmap for implementation. The Congress and aviation community 
        need a clear understanding of requirements and expected 
        benefits in five-year intervals. This is particularly important 
        of airspace users who will be expected to equip with new 
        avionics.

        <bullet>  Developing and implementing mechanisms for alignment. 
        There is considerable coordination among JPDO participating 
        agencies but little alignment of budgets and plans. There is a 
        need for mechanisms to help the JPDO align diverse agency 
        efforts over the long haul.
                   Answers to Post-Hearing Questions
Responses by S. Michael Hudson, Chairman, Committee on Technology 
        Pathways, Division on Engineering and Physical Sciences, 
        National Research Council, The National Academies

Questions submitted by Representative Mark Udall

Q1.  Would a requirement--enforced by OMB--that the agencies involved 
in the JPDO develop an annual, coordinated, cross-agency budget laying 
out the resource allocations by agency and by JPDO-defined goal make 
the JPDO planning process more credible and help overcome the intrinsic 
weakness of a JPDO that doesn't actually control budgets?

A1. Our report did not consider specific funding scenarios. The 
committee did feel that the most important aspect of the budget is 
stability. Funding uncertainty makes it difficult to develop and carry 
through on long-term plans and commitments.
    My personal opinion is that large systems, as seen in many multi-
service defense projects, require strong, central funding coordination 
and strong leadership to enforce funding agreements.

Q2.  What do you consider to be the most important R&D challenges that 
will have to be overcome if the JPDO is to successfully deliver a Next 
Generation Air Transportation System?

A2. From the Technology Pathways Report:

         ``In general, new technologies and processes should be 
        tailored to meet the needs of validated operational concepts, 
        but some are certain to be of value regardless of the 
        operational concepts ultimately selected, and their development 
        should proceed even as the operational concepts are being 
        defined and assessed. Examples of these generally applicable 
        technologies and processes are as follows:

                <bullet>  Automation technologies applicable to fully 
                automated systems; decision aids; and information 
                systems for communication, visualization, situation 
                assessment, and the prediction of future conditions.

                <bullet>  Technologies that support distributed, 
                collaborative decision-making and foster coordination 
                and interactions among multiple human and automated 
                elements of the system.

                <bullet>  Methods and technologies for moderating and 
                abating the impact of noise and emissions locally, 
                regionally, and globally.

                <bullet>  Methods and technologies for predicting or 
                directly sensing the magnitude, duration, and location 
                of wake vortices, to support the goal of reducing 
                separation standards without compromising safety.

                <bullet>  Methods for identifying (1) the information 
                required for situation awareness when humans are 
                assigned novel (untried) tasks in future operational 
                concepts and (2) sensor, computing, and display 
                technologies for better supporting situation awareness, 
                judgment, decision-making, and planning. Relevant 
                technologies may include synthetic vision, cockpit and 
                controller displays for novel ATM functions, fast-time 
                simulation and computational functions for predicting 
                future conditions, and alerting systems. These methods 
                and technologies should be investigated for their 
                potential to (1) reduce separation standards without 
                compromising safety and (2) enable changes in the roles 
                of humans within the system.

                <bullet>  Systems-engineering methods that are (1) 
                capable of conceiving and analyzing systems as complex 
                as the air transportation system and (2) suitable for 
                governing the design, testing, and implementation of 
                these systems.

                <bullet>  Avionics technologies that will provide 
                ubiquitous and transparent communication, navigation, 
                and surveillance capabilities; enable cost-effective, 
                reliable ATM; and contribute to the reduction of 
                separation standards without compromising safety.''

    Among these, technologies relating to automation and human factors 
are especially important.
    In addition, it is critical that research be advanced to the 
necessary level of maturity. When technology is transitioned to the 
private sector, industry itself will further developed it into a usable 
product. However, this is not the case when it is transferred from a 
research-focused federal agency (such as NASA) to one focused on 
operations (such as the FAA). The FAA needs fully matured technology 
that it can put directly into use. Otherwise, it may fall by the 
wayside.

Q3.  How well are the various agencies' R&D programs aligned with the 
requirements of the NGATS? What will it take to ensure that the R&D 
programs are properly aligned?

A3. At the time our report was written, the agencies were still 
establishing their research programs. However, there was already 
concern that some of the proposed reductions in NASA's aeronautics 
budget (especially with regard to environmental research) were not 
consistent with the JPDO's research goals and would threaten the 
ability of the JPDO to develop NGATS as described in the Integrated 
Plan. One of the recommendations of our report was that ``the members 
of the Senior Policy Committee should ensure that the federal agencies 
they direct or represent allocate funding and staff to (1) provide the 
JPDO with the resources it needs to define the Next Generation Air 
Transportation System and draw up an appropriate implementation plan 
and (2) ensure departmental and agency research in civil aeronautics is 
consistent with JPDO plans to enable and implement new operational 
concepts.''

Q4.  Is the current structure and authority of the JPDO adequate to 
meet the responsibilities given the Office to develop and implement the 
NGATS, and if not, what changes are needed? If you think changes are 
needed, how soon do they need to be made?

A4. From the report:

         ``Finding 4-1. IPT Organization. Even though the current IPTs 
        have multi-agency membership, they are functioning primarily as 
        experts in specific disciplines rather than as cross-
        functional, integrated, multi-disciplinary teams that can 
        deliver specific products to improve operational capabilities 
        of the air transportation system.

         Recommendation 4-1. IPT Organization. As soon as possible, the 
        JPDO's IPT organization should be modified to better support 
        the core goal of meeting increased demand in each phase of 
        operation by structuring the IPT organization to match the 
        structure recommended for the operational concepts. All of the 
        current IPTs (except for the Master IPT) should be disbanded 
        and replaced with three new IPTs:

                <bullet>  Airport Operations IPT

                <bullet>  Terminal Area Operations IPT

                <bullet>  En route and Oceanic Operations IPT''

Q5.  What specific roles are human factors R&D and training playing in 
the design of the NGATS, and how important are they to the overall 
success of the NGATS?

     What do you think are the most important human factors issues to 
be addressed?

     NASA has lost a number of its human factors researchers in recent 
years--what impact will that have on the ability of the JPDO to address 
the key human factors issues associated with the NGATS?

A5. The committee felt that human factors research was very important 
to the NGATS. From the report:

         ``[H]uman factors should be incorporated into the operational 
        concepts and the restructured IPTs from the beginning. This 
        would ensure, for example, that the tasks assigned to pilots, 
        controllers, and other system operators are reasonable and 
        appropriate, that interfaces with automated systems are well 
        conceived and executed, and that efforts to improve situational 
        awareness are likely to succeed. System designers must resist 
        the temptation to provide more automated features and give more 
        information to system operators just because they can; more 
        automation does not always increase safety or reliability, and 
        more information does not always improve situational awareness 
        or operational decisions.''

    The loss of NASA researchers was not addressed at the time of our 
report.
    My personal opinion is that NASA should maintain a strong and 
internationally recognized cadre of experts in this important field.

Q6.  What is the relationship between FAA's Air Traffic Organization 
and the JPDO--is it sufficiently well defined?

A6. The committee felt that the secretary of transportation and the FAA 
administrator should take a more direct role in the JPDO. Since the ATO 
deals with day-to-day operation, it will be difficult for it to build a 
new concept that looks to the future while having to maintain a 
concentrated focus on today's issues.

Q7.  Through what mechanisms are the views of industry being 
incorporated in the JPDO planning process, and how well are those 
mechanisms working thus far? What, if anything, would you recommend be 
done to improve the interaction of industry with the JPDO planning 
process?

A7. The Committee hosted a Workshop for the JPDO early in the review 
process that provided an overview briefing of the plan and included 
industry comments which provided some industry assessment of the plan.
    At the time the report was written, the committee had concerns that 
Europe seemed to be far ahead of the U.S. in terms of engaging 
industry. From the report:

         ``Government-industry cooperation has been more effective [in 
        Europe] than in the United States, in part because it is so 
        difficult for U.S. airlines and other important stakeholders to 
        reach consensus on key issues. Moving forward will be very 
        difficult in the United States without a process that (1) 
        fairly balances the need to create an air transportation system 
        that can meet future demand while avoiding undue hardship for 
        any particular element of the air transportation system and (2) 
        ensures that changes endorsed by a majority of the U.S. air 
        transportation community acting in the national interest cannot 
        be thwarted by the opposition of a vocal minority acting out of 
        self-interest without due regard for national interest.''

    Since then, the NGATS Institute has been established specifically 
to engage the private sector. Because it did not exist at the time of 
our review, we are unable to comment on its effectiveness.

Q8.  Are there any technology transfer issues that need to be 
addressed? Will NASA, for example, support development activities to 
the point where industry will pick up advanced development needed for 
deployment of key technologies?

A8. As stated in the report:

         ``In some research and technology areas described in the 
        report, the state of the art is so advanced that industry could 
        quickly begin product development. In other areas, basic 
        research is needed to acquire necessary knowledge and 
        technological capabilities. In each area of planned research, 
        the gap between the status of current technology and the status 
        envisioned by NGATS should be understood and a plan developed 
        to bridge that gap. In some areas, this could be a substantial 
        problem, given the well-documented problem that basic research 
        programs often do not mature promising new technologies to the 
        point where managers in industry are ready and willing to take 
        over responsibility for advanced research and product 
        development. This can also be a problem when transitioning 
        technology from a federal agency focused on research (such as 
        NASA) to another federal agency focused on operations (such as 
        the FAA). The IPTs should develop a transition plan with clear 
        criteria defining states of technological readiness for each 
        technology that may encounter this problem.''

    Also see the response to Question 2 above for further comments on 
technology transition.

Questions submitted by Representative Jim Costa

Q1.  Does the JPDO believe that the Next Generation Air Transportation 
System (NGATS) will be able to handle three times today's traffic if 
the Nation's major airports are not modernized as well?

A1. The JPDO has established plans for airport modernization, which 
focus on infrastructure improvements and expansion. From our report:

         ``The Integrated Plan's transformation strategy for airports 
        is titled `Develop Airport Infrastructure to Meet Future 
        Demand.' This title expresses both the goal (enable airports to 
        meet future demand) and the approach (develop new 
        infrastructure). As described in the Integrated Plan, the 
        associated Airport Infrastructure IPT will focus on 
        infrastructure improvements and expansion of airports. By 
        omission, these plans seem to discount the ability to increase 
        the capacity of existing airports by procedural changes such as 
        those enabled by (1) the timely dissemination of precise 
        information related to the position and velocity of aircraft, 
        adverse weather, wake vortices, and the state of the air 
        transportation system and (2) aircraft and ground facilities 
        equipped to use this information effectively. Building new 
        airports and new runways (especially if current procedural 
        constraints on separation standards between parallel runways do 
        not allow new runways to fit on existing airport property) is 
        extraordinarily expensive and can take decades to complete. And 
        in many areas, land for airport expansions and new airports is 
        simply unavailable. Environmental issues also limit the ability 
        of airports to expand their infrastructure. During the 1990s, 
        environmental issues forced 12 of the Nation's 50 busiest 
        commercial airports to cancel or indefinitely postpone 
        expansion projects (GAO, 2000). Thus, solutions that 
        substantially increase the capacity of existing runways are 
        potentially quite advantageous. Large payoffs would also result 
        from the ability to conduct independent flight operations on 
        closely spaced parallel runways in limited visibility using the 
        performance-based area navigation and flight management 
        capabilities in many existing aircraft.

         Eighteen of the Nation's 35 busiest airports are already at 
        capacity limits or will reach capacity limits sometime in the 
        next 15 years (FAA, 2004). One aspect of the effort to enable 
        airports to meet higher demand might be to conduct an airport-
        specific analysis of impediments to higher capacity at these 
        airports. The analysis would investigate solutions that are (1) 
        generally applicable or (2) must be tailored to individual 
        airports. The latter will tend to be more expensive than the 
        former, on a per airport basis, but both types of solutions 
        should be considered. In general, the most effective solutions 
        are likely to involve an integrated approach that involves 
        aircraft and ATM technologies, procedures, and standards, 
        including those related to required navigation performance 
        (RNP) and area navigation (RNAV) capabilities.''

    In addition, microjets and air taxis represent a wildcard--although 
they are currently speculative at best, if they were to become a 
significant portion of the air transportation system, they would have a 
huge impact on regular airports, as well as small, regional ones.

Q2.  How will the NGATS be able to mitigate the impact severe weather 
has on the system?

A2. It is not likely that the NGATS will enable aircraft to fly through 
severe weather such as thunderstorms. However, increased sensors and 
avionics will be able to increase visibility in inclement conditions. 
Better weather monitoring and prediction will give earlier, more 
accurate, notice of severe weather systems. System-level monitoring and 
decision-making aids will enable more agile operations, reducing 
delays.

Q3.  Keeping in mind that nearly all of today's delays are due to 
severe weather, runway limitations, and over scheduling: Is it 
reasonable for us to believe that the billions of dollars the JPDO's 
proposals are sure to cost in the implementation of the NGATS will 
solve the delay problems we already face today?

A3. The goal of the JPDO is not to solve today's delay problems, but to 
prevent the systems from being crippled by delays as demand for air 
travel increases. From our report:

         ``Meeting increased demand is difficult because capacity must 
        be increased while also satisfying enabling, interrelated 
        requirements related to safety, security, environmental 
        protection, consumer satisfaction, and industrial 
        competitiveness. The difficulty of meeting performance goals in 
        each of these other areas would be mitigated if demand were 
        stagnant or declining, but it will be exacerbated if demand 
        increases substantially, as it is projected to do. In other 
        words, improvements in virtually every aspect of the air 
        transportation system are required to meet a substantial 
        increase in demand. Accordingly, the highest priority should be 
        given to research and technology development that is most 
        likely to facilitate large increases in capacity (in terms of 
        passenger miles and cargo ton miles), especially for airspace 
        and airports that are currently at or near capacity limits.''

Q4.  What does the JPDO see as the most urgent problem that needs to be 
addressed in the near future, not 25 years down the road?

A4. Based on the organization of its Integrated Plan, Chapter 1 of 
which is titled ``Change is Needed,'' we would say that the JPDO sees 
``change'' as its most urgent priority.
    The committee felt that,

         ``The Integrated Plan should clearly state that increased 
        demand is the key driver that mandates implementation of the 
        Next Generation Air Transportation System. The JPDO should 
        refocus its efforts on development of a systematic, risk-based 
        approach for achieving the primary objective, which is to 
        resolve demand issues and increase capacity, while also 
        satisfying enabling, interrelated requirements for safety, 
        security, environmental effects, consumer satisfaction, and 
        industrial competitiveness. The Integrated Plan should make 
        sure that secondary objectives, such as alignment of existing 
        interagency efforts, do not overshadow the primary objective. 
        The JPDO should establish goals related to cost, schedule, and 
        level of performance that can be quantified using appropriate 
        figures of merit. Multiple candidate scenarios and operational 
        concepts should be defined and assessed in terms of the risk 
        that they will fail to achieve these goals.''
                   Answers to Post-Hearing Questions
Responses by Gerald L. Dillingham, Director, Physical Infrastructure 
        Issues, Government Accountability Office

Questions submitted by Chairman Ken Calvert

Q1.  Several witnesses stated that maintaining support for JPDO from 
its participating agencies over the long-run was critical. What 
organizational and management changes, if any, do you recommend to 
enhance long-term support of JPDO?

A1. To date, the Joint Planning and Development Office's (JPDO) current 
organizational structure appears to facilitate the federal interagency 
collaboration that is central to JPDO's mission. However, as the 
transition to the next generation air transportation system (NGATS) 
moves forward, the volume and complexity of the tasks will increase. 
Consequently, it is important for JPDO to define and institutionalize 
the roles and responsibilities of its partner agencies to ensure the 
long-term support for planning and implementing NGATS. The 
institutionalization of roles and responsibilities is especially 
important since the NGATS effort will extend through eventual changes 
in agency and JPDO leadership. Currently, there is no formal, long-term 
agreement on the partner agencies' roles and responsibilities in 
creating NGATS. According to JPDO officials, a memorandum of 
understanding that would define the partner agencies' relationships was 
being developed as of August 2005, but has not yet been completed.
    Also important to enhancing the long-term support of JPDO are steps 
to integrate the NGATS goals into partner agencies' budget processes. 
Currently, JPDO is working with the Office of Management and Budget 
(OMB) to establish a process for identifying the NGATS as a unified 
program. We believe that this is a good first step to ensure that NGATS 
moves ahead in a coordinated, coherent manner.
    In addition, one mechanism for enhancing and sustaining federal 
collaborations is to use agencies' strategic and annual performance 
plans as tools for establishing complementary goals and strategies. 
However, based on our initial assessment of the partner agencies' 
strategic plans, we found that only the Department of Transportation 
(DOT), the National Aeronautics and Space Administration (NASA), and 
the Federal Aviation Administration (FAA) have incorporated the NGATS 
goals into their agency-level strategic plans. Although we have not 
completed our review of the partner agencies' strategic plans, 
including the National Oceanic and Atmospheric Administration's (NOAA) 
strategic plan, more opportunities exist for integrating the NGATS 
goals into the partner agencies' plans and budgets. For example, only 
NASA's current reauthorization act requires the agency to align its 
aviation research projects to directly support the NGATS goals. This 
type of congressional action can reinforce accountability for the JPDO 
collaboration by aligning agency goals and strategies with those of 
NGATS and further institutionalize the NGATS goals into the partner 
agencies' plans.

Q2.  What critical policy decisions must be made by the Senior Policy 
Committee before the JPDO can start down a particular technology and 
architecture path? For example, do decisions need to be made on the 
degree to which responsibility for aircraft can be handed over to 
automated systems, or whether some airplanes will be allowed to fly 
using ``Visual Flight Rules'' instead of filing a flight plan, or how 
NGATS will treat commercial aviation vs. general aviation? What 
significant policy issues do you think fall into this category?

A2. Before the JPDO can start down a particular technology and 
architecture path, the Senior Policy Committee (the Committee) must 
first approve the budget guidance that the JPDO provides to the partner 
agencies. That document recommends specific research initiatives, 
technologies, and schedules for implementation and deployment. For 
fiscal year 2007, the JPDO's Integrated Product Teams (IPT) identified 
a number of ``Jump Start'' initiatives, including putting Automatic 
Dependent Surveillance-Broadcast (ADS-B) and System Wide Information 
Management (SWIM) on the fast track. These initiatives were included in 
agency budget guidance that was approved by the Committee. In the 
future, such decisions will flow from the enterprise architecture. JPDO 
plans to have an early version of the enterprise architecture available 
by the end of this fiscal year, with significant IPT input.
    The policy decisions suggested in the question above are among 
those that the Committee could decide. For example, the Committee could 
address policy issues surrounding how roles and responsibilities for 
handling increased traffic may shift as a result of the increased 
reliance on automation envisioned in NGATS. Concerning general 
aviation, JPDO officials noted that NGATS has the potential to provide 
significant benefits to this community. However, they said that it is 
difficult to specify exactly what decisions the Committee would have to 
make concerning general aviation. Officials said that most of these 
decisions, when they occur, will be tied to the requirements of the 
enterprise architecture. In any event, it is likely that decisions on 
concepts and policies relating to general aviation would be made in 
concert among JPDO, the Committee, and FAA to address concerns such as 
visual flight rules vs. instrument flight rules. New technologies would 
require testing or demonstrating for use in the national airspace 
system (NAS). Also, FAA would have to start developing the regulation 
for implementation at the appropriate point so that the regulation 
would be available at the appropriate time.

Q3.  What are your views about the wisdom of having JPDO contract out 
much of the development work for NGATS to a lead systems integrator? 
What are the advantages and disadvantages of bringing in a lead systems 
integrator for NGATS?

A3. Determining whether using a lead systems integrator (LSI) would be 
advantageous or disadvantageous in planning NGATS depends on a number 
of considerations. According to criteria developed by the National 
Academies, Committee on Systems Integration for Project Constellation, 
using an LSI could:

        <bullet>  provide better systems integration knowledge, 
        experience, and capabilities;

        <bullet>  recruit more talented personnel and manage complex 
        organizational and international relationships;

        <bullet>  better identify and obtain advanced technologies from 
        many sources;

        <bullet>  provide more experienced and disciplined project 
        management experience; and

        <bullet>  bring greater credibility (public and political) to 
        the project.

    Determining whether the use of an LSI is the most efficient and 
effective way to achieve these goals for NGATS should be a major 
consideration in JPDO's decision whether to engage an LSI. However, our 
work has shown that using an LSI does not guarantee success. For 
example, the Department of the Army (Army) has used an LSI for the 
Future Combat Systems because the program was the most significant 
technology and integration challenge that it had ever undertaken. 
Because of the complexity of this program, the lack of knowledgeable 
personnel, and the need for more management and acquisitions 
flexibility than could be obtained through normal contracting 
procedures, the Army selected an LSI. However, we reported that the 
program was behind schedule and over budget despite its use of an LSI.

Questions submitted by Representative Mark Udall

Q1.  Would a requirement--enforced by OMB--that the agencies involved 
in the JPDO develop an annual, coordinated, cross-agency budget laying 
out the resource allocations by agency and by JPDO-defined goal make 
the JPDO planning process more credible and help overcome the intrinsic 
weakness of a JPDO that doesn't actually control budgets?

A1. Yes, we believe that an annual, coordinated, cross-agency budget 
request would be beneficial in trying to realize the goals of JPDO. We 
have previously stated that JPDO faces a challenge in leveraging 
resources among its partner agencies because JPDO is fundamentally a 
planning and coordinating body that lacks authority over the key human 
and financial resources needed to continue developing plans for NGATS.
    JPDO is currently working with OMB to develop a systematic means of 
reviewing the partner agency budget requests so that NGATS-related 
funding in each is easily identified. We plan to further explore these 
budgetary issues with JPDO and OMB as part of our ongoing work, and to 
report our findings later this year.

Q2.  What do you consider to be the most important R&D challenges that 
will have to be overcome if the JPDO is to successfully deliver a Next 
Generation Air Transportation System?

A2. Identifying important research and development (R&D) challenges 
will depend to some extent on the development of the NGATS enterprise 
architecture. However, it is already known that one important R&D 
challenge that must be overcome to deliver NGATS is to fully understand 
and address the human factors challenges associated with automation. 
For example, using automation raises questions about the extent to 
which the system will be automated and whether controllers will have 
the ability to accept or reject automated commands. Additionally, the 
human factors issues related to changing the workload of air traffic 
controllers and pilots is critically important because NGATS envisions 
a shift of some of a controller's workload to pilots. Although JPDO has 
begun to model how shifts in air traffic controllers' workloads would 
affect their performance, it has not yet begun to model the effect of 
how this shift in workload to pilots would affect pilot performance. 
According to a JPDO official, modeling the effect of changes in pilot 
workload has not yet begun because JPDO has not yet identified a 
suitable model for incorporation into its suite of modeling tools.
    Another important challenge facing JPDO's delivery of NGATS will be 
obtaining the resources necessary to complete the R&D of technologies 
that NASA has initiated. With NASA's new focus on fundamental 
aeronautics research, the agency does not intend to develop technology 
to the level that it did in the past. JPDO will have to fill this gap 
by leveraging the resources necessary to further develop, validate, and 
demonstrate these technologies. We plan to explore how NASA's new focus 
on fundamental aeronautics research will impact the transition to NGATS 
as part of our ongoing work.

Q3.  How well are the various agencies' R&D programs aligned with the 
requirements of the NGATS? What will it take to ensure that the R&D 
programs are properly aligned?

A3. For alignment of R&D programs with the needs of NGATS, JPDO must 
identify the R&D projects across partner agencies that support NGATS 
and encourage the agencies to fund and develop these projects. These 
efforts are already under way, as JPDO is examining the partner 
agencies' R&D programs to see if they are consistent with NGATS goals. 
As part of these efforts, JPDO has identified five early 
opportunities--R&D programs in the fiscal year 2007 budget that it can 
focus on immediately. These programs include network-enabled operations 
to strengthen national security, cooperative surveillance via ADS-B to 
increase security and safety, the development of SWIM, defining NGATS 
Required Total System Performance (RTSP), and aligning levels of 
service to match RTSP.
    The NGATS enterprise architecture, when completed, will be a key 
tool that helps partner agencies align their R&D programs. Because it 
will provide a blueprint for NGATS, partner agencies will better 
understand what R&D is needed to allow their systems to interact with 
those of other partner agencies in meeting the goals of NGATS. It will 
also help private sector manufacturers align their R&D activities to 
support NGATS.

Q4.  Is the current structure and authority of the JPDO adequate to 
meet the responsibilities given the Office to develop and implement the 
NGATS, and if not, what changes are needed? If you think changes are 
needed, how soon do they need to be made?

A4. To date, JPDO's current organizational structure appears to 
facilitate the federal interagency collaboration that is central to 
JPDO's mission. However, JPDO is fundamentally a planning and 
coordinating body that lacks authority over the key human and 
technological resources needed to continue developing plans and system 
requirements for NGATS. Consequently, the ability to continue 
leveraging resources of its partner agencies will be critical to JPDO's 
success, especially as partner agencies' will need to commit more 
resources for further refining and implementing NGATS.
    Under its current structure, JPDO has begun taking critical steps 
to achieve its mission and align the resources of its partner agencies. 
These steps include efforts to identify opportunities for coordinating 
and leveraging partner agencies' research and development efforts, 
using staff from the partner agencies to support JPDO work, and begin 
aligning its partner agencies' budgets to support the NGATS. However, 
JPDO could be doing more under its current structure. For example, the 
institutionalization of roles and responsibilities is especially 
important since the NGATS effort will extend through eventual changes 
in agency and JPDO leadership. However, there is no formal, long-term 
agreement on the partner agencies' roles and responsibilities in 
creating NGATS.
    As JPDO continues to evolve and mature as an organization, changes 
to JPDO's authority and structure will need to be continuously 
evaluated and considered. Officials and stakeholders have suggested 
several options for changing the structure and authority of JPDO. These 
options include:

        <bullet>  making JPDO a program office with its own budget;

        <bullet>  elevating the position of the JPDO director within 
        FAA or DOT;

        <bullet>  using an LSI; or

        <bullet>  adding a legislative requirement for partner agencies 
        to align their research projects with the NGATS goals.

    For example, NASA's current reauthorization act requires the agency 
to align its aviation research projects to directly support the NGATS 
goals. This type of congressional action can reinforce accountability 
for the JPDO collaboration by aligning agency goals and strategies with 
those of the NGATS and further institutionalize the NGATS goals into 
partner agencies' plans. However, before changes are made to JPDO's 
structure and authority, the pros and cons of each of these options 
should be evaluated.

Q5.  What specific roles are human factors R&D and training playing in 
the design of the NGATS, and how important are they to the overall 
success of the NGATS?

A5. JPDO officials have recognized the importance of human factors 
considerations for R&D and have indicated their intention to apply 
human factors throughout the planning and development phases of NGATS. 
For example, as part of the planning for NGATS, JPDO has used modeling 
to study how changes in the duties of air traffic controllers could 
affect the workload and performance of other airport ground personnel. 
The human factors issues related to shifting some workload from air 
traffic controllers to pilots is also critically important. However, 
JPDO has not yet begun to model the effect of this shift on pilot 
performance because, according to a JPDO official, the office has not 
yet identified a suitable model for incorporation into its suite of 
modeling tools.
    JPDO also intends to study the human factors implications of 
training air traffic controllers. A JPDO official said that they have 
not yet begun to assess these implications because the enterprise 
architecture--a blueprint for NGATS which will indicate the 
technologies to be used--is still being prepared. However, the 
transition from the current NAS to NGATS could affect training. For 
example, according to a JPDO official, it is anticipated that, during 
the transition period, controllers will have to be cross-trained on 
both the equipment being replaced as well as the NGATS equipment, 
resulting in increased training costs.
    JPDO officials have also indicated that they anticipate using human 
factors considerations to plan and validate the operational concepts 
during the research and development phase that have been identified for 
NGATS. Human factors considerations include the development of 
scenarios to use for testing new equipment as well as to explore 
training needs of aviation personnel.

Q5a.  What do you think are the most important human factors issues to 
be addressed?

A5a. While JPDO officials have identified some important human factors 
issues to date, additional important human factors issues include how 
new procedures and technologies are introduced to controllers; what 
techniques are used to train controllers; what support equipment, such 
as simulators, can be introduced to aid controller training; and 
whether various controller functions should be replaced by automation 
or remain manual with some automated actions that support the 
controller.

Q5b.  NASA has lost a number of its human factors researchers in recent 
years--what impact will that have on the ability of the JPDO to address 
the key human factors issues associated with the NGATS?

A5b. We have not yet examined the contributions of NASA researchers to 
JPDO's efforts on human factors. We plan to explore this issue and 
include our findings in our report on JPDO to be released later this 
year.

Q6.  What is the relationship between FAA's Air Traffic Organization 
and the JPDO--is it sufficiently well defined?

A6. FAA's Air Traffic Organization (ATO) has responsibility for 
operating, maintaining, and modernizing the current air traffic control 
system. JPDO is responsible for planning and coordinating the broader, 
longer-term transformation to NGATS. The formal relationship is that 
JPDO reports to ATO's Chief Operating Officer for day-to-day management 
oversight and to FAA's Administrator for national direction. At 
present, this relationship is in the process of maturing. Within the 
last year, ATO has reportedly modified its modernization plans to 
represent the FAA portion of JPDO's plan for NGATS. This is a positive 
development.
    Our work has shown that collaborating agencies should work together 
to define and agree on the respective roles and responsibilities, 
including how the collaborative effort will be led. In JPDO's case, 
there is no formalized long-term agreement with any of the partner 
agencies, including FAA, on their roles and responsibilities in 
creating NGATS. According to JPDO officials, a memorandum of 
understanding that would define partner agency relationships was being 
developed as of August 2005, but has not yet been completed.
    Further definition of the roles and responsibilities between ATO 
and JPDO will be particularly important, since both organizations have 
responsibilities related to planning NAS modernization. JPDO's planning 
must build upon the ATO's existing modernization program, while the ATO 
must ensure that its ongoing modernization efforts are consistent with 
JPDO's plans. ATO faces a challenge in funding the current system to 
keep it up and running on a 24/7 basis while funding the transition to 
NGATS.
    JPDO's former director served concurrently as the ATO's Vice 
President for Operations Planning, which helped with coordination 
between the two organizations. However, FAA now plans to establish 
separate positions for the JPDO Director and the ATO Vice President for 
Operations Planning. Doing so increases the importance of establishing 
a clearly defined relationship between these organizations.

Q7.  Through what mechanisms are the views of industry being 
incorporated in the JPDO planning process, and how well are those 
mechanisms working thus far? What, if anything, would you recommend be 
done to improve the interaction of industry with the JPDO planning 
process?

A7. JPDO's mechanism for incorporating industry's views into the 
planning process is the NGATS Institute (the Institute). The Institute 
was created within a non-profit arm of the Aerospace Industries 
Association. Its mission is to facilitate the participation of experts 
from the private sector, academia, and State and local governments with 
the JPDO, and to conduct special studies. To date, the Institute has 
placed 197 experts on the IPTs.
    The Institute is governed by a 16-member Institute Management 
Council (IMC), which is broadly representative of the aviation 
stakeholder community. The IMC's co-chairs, for example, are from the 
Air Line Pilots Association (which represents commercial pilots) and 
the Air Transport Association (which represents major commercial 
airlines). Other members are from regional airline operations, business 
aircraft operations, helicopter operations, and other aviation-related 
entities. The Institute held its first public meeting on March 28, 
2006, in Washington, D.C. IMC board members and JPDO officials answered 
questions from attendees and discussed NGATS challenges.
    The Institute is also holding a series of investment analysis 
workshops to collect information from industry to provide input on 
NGATS programs, costs, sequence, and schedule. The first workshop, in 
April 2006, was for members of the commercial and business aviation 
community. In May or June, a second workshop is planned for general 
aviation, military, and public safety sectors. A third workshop is 
planned for early July for airports and state and regional aviation 
groups. JPDO plans to spend six months working with participants from 
the three workshops to refine its cost estimates.
    JPDO could improve the interaction of the aviation industry in its 
planning process by incorporating greater industry input into JPDO's 
four divisions--Enterprise Architecture, Enterprise Engineering and 
Integration, Portfolio Management, and Evaluation and Analysis. This 
could include seeking the expertise of industry experts to work 
collaboratively to develop the operational concepts and performance 
requirements that will make up JPDO's enterprise architecture. In 
addition, we believe that producing tangible benefits early on will be 
a key factor in sustaining the involvement of industry stakeholders.

Q8.  Are there any technology transfer issues that need to be 
addressed? Will NASA, for example, support development activities to 
the point where industry will pick up advanced development needed for 
deployment of key technologies?

A8. NASA does not plan to support technology development to the point 
where industry is willing to step in. NASA plans to focus on 
fundamental research and then turn work over to FAA for further 
development. While a NASA official noted that developing technology to 
higher levels before industry picks it up does not necessarily 
guarantee success, a draft report from FAA's Research, Engineering, and 
Development Advisory Committee (REDAC) points out that placing a 
greater reliance on FAA to perform the further R&D (heretofore 
performed by NASA) would require FAA to establish the infrastructure 
needed to perform this work. REDAC concluded that such developments 
would delay NGATS implementation--probably by five years. Participants 
at JPDO's recent NGATS Investment Analysis Workshop, which included 
representatives from commercial airlines, business aviation, and 
aviation equipment supply industry, said that industry has no interest 
in filling this gap due to the risk and lack of profit opportunity. We 
are currently evaluating whether NASA's reorientation of its 
aeronautics program to fundamental research leaves a gap in the 
technology transfer process.

Question submitted by Representative Sheila Jackson Lee

Q1.  What is the reason for the lack of participation of the air 
traffic controllers in the activities of the JPDO, and what is the 
impact of their lack of participation?

A1. Our research showed that the National Air Traffic Controllers 
Association (NATCA) initially assigned a controller to JPDO as part of 
its liaison program with the FAA. On June 28, 2005, FAA notified NATCA 
that it was terminating the liaison assignments effective July 29, 
2005, citing budget constraints and the implementation of the ATO. The 
controller who had been acting as the liaison within JPDO's Agile Air 
Traffic System IPT was among the controllers who returned to his 
facility. Since that time, no active controller has participated in the 
NGATS planning effort of JPDO.
    At a more senior level, in May 2005, NATCA President John Carr 
sought and was given a seat on the IMC, which oversees the policy and 
recommendations of the NGATS Institute. The Institute itself is the 
mechanism for incorporating the views of stakeholders from private 
industry, State and local governments, and academia into the work of 
JPDO. Mr. Carr subsequently notified the IMC that he could not attend 
the meetings. On December 14, 2005, he was notified by the IMC that he 
had been removed for lack of attendance at the IMC's meetings. 
According to JPDO officials, the IMC has left a seat open in hopes that 
the controllers will participate in NGATS after a new labor-management 
agreement between NATCA and FAA has been settled.
    We believe that adequate stakeholder participation in the planning 
and development of NGATS is critical. In particular, the participation 
of current air traffic controllers is important because NGATS will 
likely involve major technological and operational changes that will 
affect their work. Our work on FAA's current air traffic control 
modernization program has shown that without early and continuing 
stakeholder input, costly rework and delays can occur late in system 
development. Similarly, the input of active controllers on JPDO's 
planned research--especially on how controllers interact with pilots 
and air traffic systems in a highly automated environment--can help to 
identify potential safety issues early, before costly changes become 
necessary. Controllers' input could also inform JPDO's analyses of 
issues such as timeliness, cost-effectiveness, and the safe 
transformation of the Nation's air traffic control system.

Questions submitted by Representative Jim Costa

Q1.  Does the JPDO believe that the Next Generation Air Transportation 
System (NGATS) will be able to handle three times today's traffic if 
the Nation's major airports are not modernized as well?

A1. JPDO will have to consider several issues related to airport 
capacity. JPDO's Evaluation and Analysis Division has modeled the 
capacity of the national airspace system (NAS) and found that the 35 
largest airports will be a critical factor in limiting the capacity of 
the NAS as they reach their saturation points. JPDO models indicate 
that capacity at almost half of these 35 airports will be limited.
    While JPDO expects to add runways at some of these large airports 
and increase the use of nearby secondary airports, JPDO anticipates 
that this solution still leaves airport capacity 12 percent below that 
needed to accommodate a three-fold increase. Moreover, increased use of 
secondary airports could raise environmental and infrastructure issues. 
For example, local residents could object to increased noise, and 
travelers could have concerns about transportation to and from these 
airports.
    JPDO's Airport IPT has been considering how airport capacity can be 
expanded. While JPDO and FAA are integrating JPDO's NGATS plan and 
FAA's Operational Evolution Plan into one plan, an official told us 
that the ability of JPDO to enhance airport capacity is still limited 
because enhancement decisions are made at the State and local level. 
The official also noted that JPDO cannot channel federal funds from the 
Airport Improvement Program to airports where capacity expansion is 
most needed.

Q2.  How will the NGATS be able to mitigate the impact severe weather 
has on the system?

A2. The NGATS will never be able to completely address the impact of 
severe weather on the NAS, but could mitigate the impact. Currently, 
FAA holds daily conference calls to attempt to manage the flow of air 
traffic during the spring and summer thunderstorm season, but those 
efforts are hampered by inconsistent data and forecasts. Fast moving 
thunderstorms, which are difficult to predict with the required 
precision to support aviation operations, can needlessly ground 
aircraft thousands of miles away resulting in flight delays and 
cancellations. JPDO estimates that 60 percent of weather delays are 
potentially avoidable.
    Although in NGATS, aircraft will still need to navigate around the 
most severe weather events, JPDO expects that NGATS will be able to 
better manage the problem that severe weather poses to the flow of air 
traffic. To this end, JPDO and its partner agencies are undertaking 
several initiatives. For example, JPDO's Evaluation and Analysis 
division is developing computer models to forecast the results of 
storms to show how they would affect capacity around an airport. The 
Weather IPT is studying aircraft systems that would help reduce the 
effects of turbulence on the aircraft and passengers. The Department of 
Defense, FAA, NASA, and NOAA are working to combine an array of weather 
data into one real-time weather picture by using data from tens of 
thousands of global weather observations and sensor reports from 
ground, air, and space-based sources. The expectation is that every 
aircraft will become a node in the NGATS network, thereby ensuring that 
all users of the system have access to the same sensory-rich 
information. Sensors will help produce computerized forecasts that will 
improve forecasting, thereby providing more usable airspace around 
storms.

Q3.  Keeping in mind that nearly all of today's delays are due to 
severe weather, runway limitations, and over scheduling: Is it 
reasonable for us to believe that the billions of dollars the JPDO's 
proposals are sure to cost in the implementation of the NGATS will 
solve the delay problems we already face today?

A3. It is doubtful that JPDO's efforts will completely eliminate 
delays, especially when they are weather-related, but we and others 
have reported that maintaining the status quo will result in gridlock 
and significant losses to the Nation's economy if airspace demand 
triples by 2025. JPDO is seeking a variety of solutions to increase 
capacity and efficiency throughout the system.
    As noted in the NGATS Integrated Plan, there has never been a 
transformation effort similar to this one with as many stakeholders and 
as broad in scope. Through collaboration and new technologies, JPDO 
hopes to meet the challenge of projected demand that will soon surpass 
the current system's capacity. This involves an entirely new approach--
one that uses modern communication technologies, advanced computers, 
precision plotting through the global positioning system (GPS), and 
modern computer-based decision-assistance programs. For example, JPDO 
is developing more precise ways to manage the impact of bad weather. 
Through the Weather IPT, JPDO is employing extensive computer modeling 
to develop better predictive forecasts to help pilots avoid bad 
weather. Improvements in forecasts will allow pilots and controllers to 
more precisely pinpoint severe weather.
    In addition, FAA is revamping its Operational Evolution Plan to 
enhance capacity at the Nation's 35 largest airports so that its scope 
and time frames for accomplishments are more consistent with JPDO's. To 
maximize runway usage, JPDO is planning to build on FAA programs that 
permit planes to land on some parallel runways in low visibility 
conditions. Low visibility currently eliminates the use of parallel 
approaches and landings at some airports, which reduces capacity.
    Some airports present unique challenges. For example, LaGuardia 
cannot build more runways due to space constraints. For such airports, 
JPDO is considering administrative options, such as limiting the number 
of takeoffs and landings at peak hours, or permitting only certain 
types of aircraft to land there. JPDO is also considering market-based 
options, such as charging a premium to land during peak usage time.

Q4.  What does the JPDO see as the most urgent problem that needs to be 
addressed in the near future, not 25 years down the road?

A4. Several near-term challenges facing the NGATS effort were 
identified by JPDO officials and other participants in a recent public 
meeting of the NGATS Institute. A number of participants mentioned that 
development of a cost estimate for NGATS is critical, since Congress 
needs to understand what it will take to fund NGATS. Another challenge 
identified was institutionalizing the collaborative processes 
established by JPDO. Given the 2025 time frame and the complexity of 
the effort, it is important that JPDO be able to withstand changes in 
staffing and administrations. Institutionalizing the collaborative 
process in the short-term will strengthen the ability to achieve 
success in the long-term.
    Another near-term challenge identified by a meeting participant was 
the need to effectively communicate the importance of the transition 
from the current system to NGATS. An NGATS official noted that the 
American public needs to be educated about the effects of not going 
forward with this transition. Raising the awareness and support of 
policy-makers about NGATS now, while it is in the planning stages, 
could lead to a more proactive and cost-effective transition in the 
long run.
    One challenge--establishing the credibility of the NGATS effort--
was mentioned at the public meeting as well as at an expert panel that 
we conducted in March 2006 to discuss JPDO and NGATS. As we have 
previously stated, although FAA is now doing a better job of meeting 
milestones with its major air traffic control acquisition programs, 
earlier attempts at modernizing the NAS encountered many difficulties. 
JPDO will need to show non-federal stakeholders that the NGATS effort, 
while complex, is moving forward and has the commitment of the partner 
agencies behind it. Establishing the Federal Government's commitment to 
NGATS should help JPDO to maintain the interest and enthusiasm of non-
federal stakeholders who are participating on a pro bono basis in the 
NGATS effort.

</pre></body></html>
